Office of
Inspector
General
Semiannual
Report to
the Congress
April 1, 1984 to
September 30, 1984

November 1, 1984
  General        Office of
  Services       Inspector
  Administration General Washington, DC 20405




 ocr   3 I gJ4

Mr. Ray Kline
Acting Administrator
General Services Administration
Washington, D.C. 20405
Dear Mr. Kline:

The enclosed Report to the Congress summarizes Office of
Inspector General (OIG) activity over the six-month period ended
September 30, 1984. It is submitted pursuant to the Inspector
General Act of, 1978, which requires that you submit this report
to the Congress within 30 days, along with any comments you elect
to make.

The period was marked by two events that affected the day-to-day
working environment of the OIG. On August 3, 1984, Joseph A.
Sickon, GSA's second Inspector General, retired from Federal
service. OIG managers also faced significant challenges relating
to the potential funding shortfall discussed in.our last report.
Action was taken to reduce costs by rigorously managing expendi-
tures, while at the same time maintaining effective operations.
Through these cost reductions and the assistance of agency offi-
cials in reprogramming $150,000, the potential funding shortfall
was avoided.

The continued strength and vitality of the OIG are best demonstrated
by the productivity gains made by this organization during Fiscal
Year 1984. In virtually every performance category, the OIG regis-
tered higher performance levels than in past years.  In my opinion,
these increases are indicative of both the high caliber of OIG
employees and the responsiveness of GSA managers at all levels.
Our ability to effect change within the Agency, while at the same
time maintaining the independence of our audit and investigations
operations is integral.ly tied to the spirit of cooperation demon-
             I

strated by the people who direct GSA's programs.

We look forward to your continUed cooperation as we work together
for a better GSA.

Sincerely,


                         ,
CHARLES R. GILLUM
Acting Inspector General

Enclosure
INTRODUCTION AND OVERVIEW
A. Introduction
This report, submitted pursuant to the Inspector General         take effect in October 1984 would have resulted in addi-
Act of 1978, chronicles the activities of the General Serv-      tional funding requests of nearly $24.8 million.
ices Administration (GSA) Office of Inspector General
                                                                 Detailed information on these and other issues is pre-
(OIG) between April 1, 1984 and September 30, 1984. It is
                                                                 sented in Section II.
the twelfth Report to the Congress since the appointment
of GSA's first Inspector General.
                                                                 Federal Supply and Services
                                                                 OIG coverage of the Office of Federal Supply and Services
B. Overview                                                      (FSS) focused primarily on its contracting function.
This report summarizes OIG activities during the period          From the internal side, we reviewed the Quality Ap-
April 1, 1984 through September 30, 1984. It has been            proved Manufacturer Agreement (QAMA) program as
structured to correspond with the major functional ele-          well as the ramifications of using mandatory use clauses
ments of the GSA.                                                in GSA contracts. Our contract audits continued to em-
                                                                 phasize preaward reviews of cost and pricing data com-
Within each of these areas, we have attempted to ana-            plemented by training of procurement officials in our
lyze the collective results of our efforts and identify issues   contract audit techniques.
deserving the attention of GSA management. By defini-
tion, the issues involve areas the OIG cOIJSiders deficient.     Our internal audit of the QAMA program found that the
This is not to say that overall performance within the           GSA was not properly analyzing contractor quality con-
program area is deficient.                                       trol systems due to outdated procedures and inadequate
                                                                 training of quality assurance specialists. As a result, de-
                                                                 fective materials were entering the supply system.
I. Audit and Investigative Coverage
                                                                 Our review of the mandatory use provision of vehicle
   of GSA Programs                                               rental contracts found that because the GSA did not have
                                                                 the authority to enforce other agencies' adherence to this
Public Buildings Service                                         clause, GSA could be liable for potential breach of con-
OIG coverage of the Public Buildings Service (PBS)               tract claims amounting to as much as $10 million. Al-
focused on space management, buildings management,               though action is planned to correct this problem, the
and construction programs. Internal reviews assessed is-         GSA holds other contracts including similar provisions.
sues such as the effectiveness of leasing operations, the        Management action is needed to minimize GSA's lia-
buildings management delegation program, fire and life           bility under these contracts.
safety systems, and energy usage. Contract audits re-            One preaward contract audit settled this period resulted
viewed the reasonableness and allocability of contractor         in a management commitment to avoid costs of $2.67
claims, proposals, and bids.                                     million on a procurement of security filing cabinets,
In the leasing area, we found that the PBS has made              safes, and vault doors. Moreover, joint audit and inves-
improvements in the program. Yet, further enhance-               tigative effort resulted in a civil settlement of $1.07 mil-
ments are needed, especially in lease award and adminis-         lion with a contractor that provided disinfectants and
tration. Our reviews identified the need for better market       disinfectant cleaners.
surveys and more complete file documentation. Several            Detailed information on these and other activities is pre-
reviews demonstrated a recurring need to enforce lease           sented in Section III.
contracts to obtain services being paid for by the Govern-
ment but not provided by the lessor.
A major review of GSA's pilot program for delegating
                                                                 Infonnation Resources Management
buildings operations responsibilities to occupant agen-          The OIG evaluated the effectiveness of the Office of Infor-
cies disclosed that the program was gen,erally successful,       mation Resources Management (OIRM) in carrying out
but there were numerous opportunities for improve-               the provisions of the Paperwork Reduction Act, Federal
ment. Notably, GSA was not fully prepared to handle the          Procurement Regulations, and GSA orders, especially as
transition period, identify training requirements for del-       they apply to systems development efforts. Our review
egated agencies, or accommodate procurement-related              disclosed that the OIRM is not effectively carrying out
issues.                                                          some of these provisions and must enhance its oversight
                                                                 role if the GSA is to be assured that systems are respon-
Moreover, under GSA's proposed methodology for fund-
                                                                 sive to both the developing office's needs and overall
ing building operating costs, delegated agencies would
                                                                 Agency interests.
not have obtained sufficient funds to sustain the level of
building services provided by the GSA. Implementation            We also expended considerable resources evaluating
of this methodology would have increased the net worth           OIRM's contracting function. Here, too, we emphasized
of the Federal Buildings Fund, while forcing the dele-           preaward contract audits coupled with training of pro-
gated agencies to request additional funding from the            curement officials. In two preaward audits issued this
Congress. We estimated that delegations scheduled to             period, we identified costs of approximately $14.5 mil-
     lion that could be avoided)n procuring data processing         Additionally, the OIG recognized that a recent legal opin-
     equipment.                                                     ion by GSA's Office of General Counsel impacted on ear-
     Detailed information on these and other activities is pre-     lier audit work involving the National DefenSe Stockpile
                                                                    'll'ansaction Fund. Accordingly, we identified at least
     sented in Section IV.
                                                                    $19.9 million for recovery.
                                                                    Detailed information on these and other activities is pre-
     Federal Property Resources Service                             sented in Section VII.
     The OIG concentrated its efforts within the Federal Prop-
     erty Resources Service (FPRS) on transactions involving
     critical and strategic.materials in the National Defense       2. OIG Productivity
     Stockpile. Tvvo reviews, one involving disposal efforts         OIG efforts to increase productivity have involved clearer
     and the other dealing with acquisitions, disclosed devia-       definition of performance gorus, better management in-
     tions from law, regulations, and GSA contract clearance        .formation systems, and closer tracking of individual as-
     procedures.                                                     signments. The following data indicate that the
     Detailed information on these and other activities is pre-      emphasis on productivity continues to have a measura-
     sented in Section V.                                            ble payback.
                                                                       • 'Ibtal costs recovered! avoided (management com-
     National Archives and Records Service                               mitments, court-ordered recoveries, and inves-
                                                                         tigative recoveries) per OIG operations employee is
     OIG audits of the National Archives and Records Service             $522,688 in Fiscal Year 1984 as opposed to $352,910
     (NARS) reviewed the operations of Presidential libraries.           in Fiscal Year 1983 and $242,252 in Fiscal Year
     Separate audits of the Hoover, 'lhlman, and Eisenhower               1982.
     libraries identified a common need for improved controls
     over library holdings, facilities, and receipts. Acting           • Recommended cost avoidance and recovery per au-
     upon this finding, the OIG issued a consolidated report to          ditor is $1,357, 104 in Fiscal Year 1984 as opposed to
     the Archivist of the United States detailing our collective         $587,875 in Fiscal Year 1983 and $498,533 in Fiscal
     findings and recommending program-wide policy                       Year 1982.
     changes benefiting the four other Presidential libraries          • Audit reports per auditor is 3.14 in Fiscal Year 1984
     currently in operation.                                             as opposed to 3.2 in Fiscal Year 1983 and 2.42 in
     This period, OIG investigators located and retrieved two            Fiscal Year 1982.
     historical documents stolen from the NARS. One, a letter          • Referrals (criminal, civil, and administrative) per
     handwritten by General Ulysses S. Grant, was stolen in              investigator is 8.4 in Fiscal Year 1984 as opposed to
     1982. The other, a document bearing the signature of                5.86 in Fiscal Year 1983 and 2.92 in Fiscal Year
     President Andrew Jackson, was stolen prior to 1974.                 1982.
     Both are now in the custody of the NARS.
                                                                       • Criminal referrals per investigator' is 2.3 in Fiscal
     On October 4, 1984, the Congress passed legislation sepa-           Year 1984 as opposed to 2.17 in Fiscal Year 1983
     rating the NARS from the GSA. The President signed this             and 0.81 in Fiscal Year 1982.
     legislation into law on October 19, 1984.
                                                                      • Employee actions (reprimands, terminations, sus-
     While. the law does not call for a separate OIG within this        pensions, and demotions) per investigator is 1.57 in
     new agency, the GSA OIG is being required to provide               Fiscal Year 1984 as opposed to 1.2 in Fiscal Year 1983
     eight full-time equivalent positions and some $353,000             and 0.93 in Fiscal Year 1982.
     from our budget to operate its new audit and inves-
     tigative unit. In all probability, this report encompasses     The productivity statistics reflect some of the following
     our last discussion of the NARS, since the separation          OIG accomplishments this period:
     must be effected no later than Aprill, 1985.                     • 396 audit reports;
     Detailed information on these and other activities is pre-       • $235,322,060 in recommendations for more effi-
     sented in Section VI.                                              cient use of resources and $2,123,298 in recovery
                                                                        recommendations;
     Other GSA Coverage                                               • $111,326,897 in management commitments to
                                                                        more efficiently use resources;
     'OIG efforts within the remaining services and staff of-
      fices of the GSA surfaced significant, yet divergent,           • $7,383,507 in management commitments to re-
      findings. We identified problems associated with GSNs             cover funds, court-ordered recoveries, and inves-
      implementation of the Federal Managers' Financial In-             tigative recoveries;
      tegrity Act that could be ameliorated through better
      planning, training, and written gUidance.                       • $1,298,123 in unsolicited recoveries;

     Another review disclosed duplication of microcomputer            • 430 investigative cases opened and 425 closed;
     software in two GSA regions that could result in poten-          49      37 case referrals accepted for criminal prosecution
     tial GSA liability for damages. Recognizing that this                    and 10 case referrals accepted for civil litigation;
     could be a nationwide problem, we immediately esca-
                                                                      49      29 indictments/informations/complaints;
     lated this matter to the appropriate GSA officials for swift
ii   and decisive action.                                             \Ill>   21 successful criminal prosecutions;
  • 15 judgments and 2 settlements on civil referrals;       variety of activities. Highlights of our efforts during the   \

                                                             period include:                                                   \
  • 6 contractor suspensions and 38 contractor debar-
    ments on administrative referrals;
                                                               • Implementation of strengthened DIG policies call-
  • 43 reprimands, 26 suspensions, 23 terminations,              ing for communication of investigative results to
    and 2 demotions on administrative referrals involv-          the Office of Audits.
    ing GSA employees;
  • 15 Inspector General subpoenas; and                        • Front-end review of GSA's program for delegating
                                                                 buildings management responsibility to occupant
  • 185 legislative and 178 regulatory initiatives re-
                                                                 agencies, resulting in a potential avoidance of
    viewed.
                                                                 nearly $24.8 million in unnecessary Congressional
Through management commitments, court-ordered re-                appropriations.
coveries, and investigative recoveries, the DIG achieved
approximately a $12 return on every $1 budgeted to its         • 'fraining of 544 GSA employees in Integrity Aware-
operations in the second half of Fiscal Year 1984.               ness; presentations to 120 GSA procurement offi-
Detailed information on these and other activities is pre-       cials on contract audit techniques that included a
sented in Sections VIII and IX.                                  module on fraud prevention; and four sessions pre-
                                                                 senting "The IG Story" to 35 newly appointed GSA
                                                                 officials.
3. Prevention Activities
As detailed in Section X, the DIG's program to prevent         • Receipt of 312 Hotline calls and letters and referral
fraud, waste, and mismanagement encompasses a wide               of 129 of these complaints for further action.




                                                                                                                           iii
TABLE OF CON'IENTS
                                                                   Page
INTRODUCTION AND OVERVIEW ........                                   i!   SECTION VII - OTHER GSA COVERAGE ...                             19
                                                                            A. Analysis of DIG Findings. . . . . . . . . . . . . ..        19
REPOKI'ING REQUIREMENTS ...... . . . . ..                           vi
                                                                            B. Significant Problems, Abuses, Deficiencies,
SECTION I - ORGANIZATION, STAFFING,                                                and Recommendations. . . . . . . . . . . . . . . ..     19
AND BUDGET ......................... \                               1         C. Statistical Highlights ..................               20
  A. Organization ........................                           1         n   Significant Audits From Prior Reports . . . ..         20
  B. Office LoCations . . . . . . . . . . . . . . . . . . . . ..
                                                                          SECTION VIII - STATISTICAL SUMMARY
  C. Staffing and Budget ...................                         1
                                                                          OF OIG ACCOMPLISHMENTS ............                             21
  n BudgetIssues ... . . . . . . . . . . . . . . . . . . . . .       1
                                                                               A. OIG Accomplishments .. , .... , .. .. .. . ..           21
  E. Staffing Issues ................. ..... .
                                                                               B. Summary Statistics ................... ,                21

SECTION II - PUBLIC BUILDINGS                                             SECTION IX - REVIEW OF LEGISLATION
SERVICE...............................                               2    AND REGULATIONS ....................                            30
  A. Analysis of OIG Findings . . . . . . . . . . . . . . .          2      A. Legislation/Regulations Reviewed . . . . . . ..            30
  B. Significant Problems, Abuses, Deficiencies,                            B. Significant Comments ............... :.                    30
     and Recommendations . . . . . . . . . . . . . . . . .           2
  C. Statistical Highlights ..................                       4
  n Significant Audits From Prior Reports . . . . .                  5    SECTION X - OTHER OIG ACTIVITIES .....                          31
                                                                               A. Fraud Prevention ...•.................                  31
SECTION III - FEDERAL SUPPLY                                                   B. DIG Management Initiatives ............                 32
AND SERVICES .........................                               8         C. Projects Sponsored by the PCIE ... . . . . . ..         33
  A. Analysis of OIG Findings ........ , . . . . . .                 8
  B. Significant Problems, Abuses, Deficiencies,
     and Recommendations. . . . . . . . . . . . . . . . .            8
  C. Statistical Highlights ..................                      10    APPENDIX I - AUDIT
  n Significant Audits From Prior-Reports . . . ..                  11    REPORf REGISTER ..................... 36

SECTION IV - INFORMATION RESOURCES
MANAGEMENT ........................                                 12
                                                                          APPENDIX 11- DELINQUENT DEBTS .....                             51
  A. Analysis of DIG Findings ... . . . . . . . . . . ..            12
  B. Significant Problems, Abuses, Deficiencies,
     and Recommendations. . . . . . . . . . . . . . . ..            12
  C. Statistical Highlights ..................                      13    APPENDIX III - SUMMARY OF
  n Significant Audits From Prior Reports ... "                     14    OIG PERFORMANCE DURING
                                                                          FISCAL YEAR 1984 ..................... ,                        52
SECTION V - FEDERAL PROPERTY
RESOURCES SERVICE ...................                               15
  A. Analysis of OIG Findfngs ...............                       15
  B. Significant Problems,'Abuses, Deficiencies,
     and Recommendations . . . . . . . . . . . . . . . ..           15    LIST OF TABLES
  C. Statistical Highlights ..................                      16                                                                   Page
  n Significant Audits From Prior Reports . . . ..                  16    1. Summary of OIG Audits . . . . . . . . . . . . . . . . ..      22
                                                                          2.   Resolution of OIG Audits ................. 23
SECTION VI - NATIONAL ARCHIVES AND                                        3.   Resolution Decisions on OIG Audits. . . . . . . .. 24
RECORDS SERVICE .....................                               17    4.   Summary of Contract Audit Settlements ..... 25
  A. Analysis of OIG Findings ...............                       17    5.   Investigative Workload . . . . . . . . . . . . . . . . . .. 27
  B. Significant Problems, Abuses, Deficiencies,                          6.   Distribution of Cases Opened This Period .... 27
      and Recommendations . . . . . . . . . . . . . . . ..          17    7.   Summary of OIG Subject Referrals . . . . . . . . .. 29
  C. Statistical Highlights ..................                      17    8.   Summary of Criminal and Civil Actions ..... 29
  n Significant Audits From Prior Reports .... , 18                       9.   Criminal and Civil Recoveries ............. 29




                                                                                                                                                v
     REPORTING REQUIREMENTS
     The table below cross-references the reporting require-                       No. 96-829 relative to the 1980 Supplemental Appropria-
     ments prescribed by the Inspector General Act of 1978 to                      tions and Rescission Bill is also cross-referenced to the
     the specific pages where they are addressed.· The infor-                      appropriate page of the report.
     mation requested by the Congress in Senate Report



                                                      SOURCE                                                             PAGE

         Inspector General Act
         1. Section 4(a)(2) - Review of Legislation and Regulations . . . . . . . . . . . . . . . .                         30
         2. Section 5(a){1)-Significant Problems, Abuses, and Deficiencies ......... 2, 8, 12, 15, 17, 19
         3. Section 5(a)(2) - Recommendations With Respect to Significant Problems,
            Abuses, and Deficiencies ....................................... 2,8,12,15, 17, 19
         4. Section 5(a)(3) - Prior Recommendations Not Yet Implemented . . . . . . . . . .                              5, 14, 18
         5. Section 5(a)(4)- Matters Referred to Prosecutive Authorities .... , . . . . . . .                                28
         6. Sections 5(a)(5) and 6{b)(2) - Summary of Instances Where Information
            Was Refused .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . None This Period
         7. Section 5(a)(6) - List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               36
         Senate Report No. 96-829
         1. Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23
         2. Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    51




vi
SECTION I -- ORGANIZATION, STAFFING,
AND BUDGET
Pursuant to the Inspector General Act of 1978, an Office of
Inspector General (~IG) was established within the General
                                                            c. Staffing and Budget
Services Administration (GSA) on October 1, 1978. As cur~       The approved Fiscal Year 1984 budget for the GSA OIG
rently configured, the DIG consists of six offices that func-   was $19.5 million. Approximately $9.9 million was
tion cooperatively to perform the missions legislated by the    available for obligation during the reporting period.
Congress.                                                       The ~iG's approved staffing level was 466 full-time
                                                                eqUivalent positions. As of September 30, 1984, the OIG
                                                                employed 419 individuals.          .

A. Organization                                                 D. Budget Issues
The OIG utilizes a functional organizational structure to       In our last Report to the Congress, we addressed the po-
provide nationwide coverage of GSA programs and activ-          tential consequences associated with unfunded Pay Act
ities. The organization consists of:                            costs, arising from a decision by the Administrator, GSA,
  • The Office of Audits, a multidisciplinary unit staffed      to absorb these costs during Fiscal Year 1984 rather than
    with financial and technical experts who provide            submit a supplemental budget request. We further ad-
    comprehensive internal (management) and exter-              vised that the OIG was actively pursuing avenues of fiscal
    nal (contract) audit coverage. Headquarters divi-           relief to overcome the potential shortfall of $472,000.
    sions, structured to correspond to GSA's major              However, the initial shortfall was compounded by unan-
    functional areas, direct and coordinate the audit           ticipated increases in telephone charges, data processing
    program principally performed by 11 field audit of-         fees, and postage and printing costs as well as higher
    fices.                                                      than anticipated :r:eimbursements to the Defense Con-
  • The Office of Investigations, an investigative unit         tract Audit Agency for its services. The OIG therefore
    that manages a nationwide program to prevent and            instituted actions to come into conformance with its
    detect illegal and/or improper activities involving         budgeted authority. We cancelled 6 vacancy announce-
    GSA programs, personnel, and operations. Opera-             ments, froze 5 announcements and 7 selections, and re-
    tions officers at headquarters coordinate the inves-        scinded 4 tentative offers of employment. We also
    tigative activity of 11 field investigations offices and    reduced travel and rigorously administered other ex-
    4 resident offices.                                         penses.
  • The Office of Counsel to the Inspector General, an          Arrangements were eventually undertaken to transfer
    in-house legal staff that provides opinions and ad-         approximately $150,000 from other GSA accounts to off-
    vice on matters under OIG review. These attorneys           set some of these increases. The transfer was ultimately
    also manage the civil referral system, reviewexist-         approved by House and Senate committees. In spite of
    ing and proposed legislation and regulations, and           these additional funds, the OIG operated from an austere
    prepare OIG subpoenas as required.                          budget posture during the second half of Fiscal Year
                                                                1984.
  • The Office of Policy Plans, and Management Sys-
    tems, a centralized planning and assessment func-
    tion that oversees and evaluates the operations of          E. Staffing Issues
    the other OIG components, coordinates specialized           Despite the problems precipitated by the budget, the OIG
    fraud prevention activities, and provides data sys-         moved forward in its efforts to implement an employee
    tems support.                                               development program. The OIG also progressed toward
                                                                one of its major training goals during the period.
  • The Office of Executive Director, an administrative
    support function that handles budgetary, financial,         Relative to the employee development program, the IG
    and administrative matters for the OIG.                     Personnel Office established training profiles for au-
                                                                ditors, inspectors, and investigators that individually
  • The OIG Personnel Office, a staff unit that handles         provide a logical and well-rounded progression of train-
    personnel and employee development activities for
                                                                ing by discipline. Moreover, the office succeeded in in-
    theOIG.
                                                                stituting the use of individual development plans as a
                                                                means of requiring staff members to personally assess
B. Office Locations                                             their training needs and, in conjunction with their su-
                                                                pervisor, decide on individual training programs.
The OIG is headquartered in Washington, D.c., at GSA's
Central Office building. Field audit and investigations of-     During the period, significant progress was also made in
fices are maintained in each of GSA's regional headquar-        training OIG employees in the latest microcomputer
ters- Boston, New York, Philadelphia, Atlanta, Chicago,         technology and its applications in the audit and inves-
Kansas City, Fort Worth, Denver, San Francisco, Auburn,         tigation diSciplines. By June, 60 auditors and inves-
and Washington, ne. Resident investigations offices are         tigators had completed the 5-day training course.
located in Cleveland, St. Louis, Los Angeles, and San           Additionally, this presentation was supplemented by a 2-
Juan, Puerto Rico. The San Juan office includes an audit        day in-house orientation course for employees who did
capability.                                                     not attend the longer session.                               1
    SECTION IT ........ PUBLIC BUILDINGS SERVICE
    The Public Buildings Service (PBS) manages most of the'           Fire and life safety issues also represent an area of con-
    Federal civilian inventory of space nationwide. Its respon-       cern in the buildings management area. OIG reviews at
    sibilities extend from constructing, purchasing, and leasing      nine sites identified significant and recurring problems
    space for Government use to maintaining and protecting that       with these systems. Ineffective maintenance and testing
    space. In the second half of Fiscalli'ar 1984, the total avail-   procedures, coupled with insufficient priority given to
    able funding authority of the Federal Buildings Fund was          system replacement, pose a real and continuing threat to
    approximately $1.8 billion. During the same period, the PBS'      the safety of Government personnel and property. De-
    obligated approximately $1.4 billion of these funds.              cisive action must be taken by PBS officials.
    Commensurate with this level of activity, the DIG devoted         In the area of energy COnservation, we continue to find
    some 71,068 direct stajfhours pursuing 239 audit and inves-       major opportunities for savings that have not been ex-
    tigative assignments. These figures reflect almost 42 percent     ploited. This period, the OIG identified potential annual
    of total DIG direct stajfhours and over 43 percent of all work    savings of $203,000 in one Government-owned building
    assignments.                                                      by correcting straightforward mechanical and opera-
                                                                      tional problems. In a leased facility, we estimated that
    A. Analysis of OIG Findings                                       $3.4 million could be avoided over the remaining terms
                                                                      of the leases by eliminating wasteful energy practices.
    OIG audit coverage of the PBS this period focused upon            Clearly, the PBS must take advantage of these kinds of
    its space management, buildings management, and con-              savings.
    struction programs. Internal reviews assessed issues
    such as the effectiveness ofleasing operations, the build-        OIG investigative activity, as judged by the 216 PBS cases
    ing operations delegation program, fire and life safety           closed this period, involved matters such as employee
    systems in Government-occupied space, and energy                  misconduct, white collar crimes, and general crimes like
    usage. Contract audits reviewed the reasonableness and            theft, narcotics, and assault. We are currently analyzing
    allocability of costs contained in contractor claims, lease       these cases to determine if any systemic problems exist.
    escalation proposals, bids on building maintenance con-
    tracts, and architect-engineering proposals.                      B. Significant Problems,
    The PBS has made improvements in the leasing pro-                    Abuses, Deficiencies, and
    gram. We noted reductions in both the number of leases
    and the amount of space leased. We also saw reductions               Recommendations
    in the time to award leases and the number of holdover
    tenancies. The PBS has also incorporated its leasing              Effective Lease Enforcement
    guidelines into the Federal Acquisition Regulations. This         Efforts Are Needed
    important step transforms these guidelines into required
                                                                      In our last Report to the Congress, we discussed Force L, a
    actions that are enforceable by the GSA.
                                                                      multidisciplinary review of the lease enforcement pro-
    While this progress represents an accomplishment, fur-            gram at a GSA regional office, undertaken as part of our
    ther enhancements are needed in both lease award and              fraud prevention program. We advised that the review
    administration. Relative to lease award, we identified the        identified a pattern of lease enforcement problems that
    need for better market surveys and more complete file             were being summarized in audit reports to management.
    documentation. In the area of lease administration, au-           On July 31, 1984, the DIG issued the final audit report on
    dit findings revealed that lessors are frequently not             one leased complex, comprised of two buildings encom-
    providing a satisfactory level of services, yet the GSA is        passing over 800,000 square feet of space. Its findings
    not effectively enforcing lease contracts to obtain the           typified the lease enforcement problems identified by the
    necessary services. Both of these areas warrant increased         Force L review.
    attention by PBS management.
                                                                      The audit found that the Government was paying for
    Relative to buildings management, OIG review of GSA's             electricity, water, sewage, and heating oil for the opera-
    pilot program for delegating operational responsibility to        tion of a cafeteria and a snack bar in these facilities, even
    occupant agencies disclosed an immediate need for PBS             though both operations had been contracted to a private
    action to improve its economy, efficiency, and effec-             concern by the lessor. The review also found that the
    tiveness. Under the program, the day-to-day buildings             Government was paying for overtime cleaning and me-
    management responsibility of selected single-occupant             chanical services that were neither needed nor provided;
    headquarters buildings in the Washington, D.c., area is.          Government rental payments included rent on the space
    delegated to the occupying agencies.                              occupied by the snack bar; heating and air conditioning
                                                                      systems ran continuously without reduction during eve-
    This program represents a significant departure from
                                                                      nings, weekends, or holidays; and lights were burning
    past buildings management practices. If it is to be fully
                                                                      several hours before and after working hours.
    successful, the PBS must take action to improve its man-
    agement of the program, identify delegated agency train-          We estimated that the Government could avoid expendi-
    ing requirements, and maximize opportunities for cost             tures of $3.4 million over the remaining terms of the
    savings based upon district-wide rather than individual           leases by eliminating wasteful energy practices. We fur-
2   agency contracting.                                               ther estimated that some $773,000 could be avoided by
discontinuing payments for utilities not serving Govern-     on net occupiable space rather than on the total space to
ment space; eliminating rental payments on the space         be maintained.
occupied by the commercial tenant; and ceasing pay-
ments for unnecessary overtime services. We also felt         We found that this appraised value of services underesti-
that the GSA should recover the $336,270 in utilities         mated actual operating costs by $24.8 million over the
and rent paid on the space occupied by the commercial         duration of the delegations. As a result, the net worth of
tenant.                                                       the Federal Buildings Fund would have increased at the
                                                              same time that delegated agencies would be forced to
In the final audit report, we recommended that the Re-        seek additional appropriations from Congress to cover
gional Administrator take a series of actions to improve      their $24.8 million shortfall in funding. Moreover, if all
energy consumption practices at the complex. We also          agencies identified to accept delegation authority had
recommended actions to avoid future expenditures on           done so, their funding needs could have amounted to
services, utilities, and space not chargeable to the Gov-    ,$101 million more than if the GSA had continued to oper-
ernment and to recover the overpayments to the lessor.       .ate these facilities.
The Regional Administrator responded positively to the       In our September 26, 1984 report, we offered 33 recom-
draft report and initiated action to develop a regional      mendations to the Commissioner, PBS, to correct the
lease enforcement program. We are awaiting the action        identified deficiencies and improve the program. The
plan for implementing the recommendations in the final       Commissioner'S response to the draft report indicated
report.                                                      agreement with our findings and recommendations. We
                                                             are awaiting his action plan in response to the final
Improvements to the Building                                 report.
Delegations Program
An OIG review of GSA's program for delegating building       Revised Analysis of a
operations responsibilities to occupying agencies found      Lawsuit Settlement Proposal
that the program was generally successful, but there
                                                             In our last Report to the Congress, we reported that a
were numerous opportunities for improvement. Where
                                                              proposed lawsuit settlement agreement calling for modi-
buildings had already been delegated, we noted varying
                                                              fications to an existing lease agreement was not equi-
degrees of success in assuming these responsibilities.
                                                              table to the Government The proposed agreement pro-
Conversely, we found that the GSA was not fully prepared
                                                              vided for Government payment of annual electricity
to accommodate the shift from an operational role to a
                                                              costs (estimated at $1.5 million) in exchange for lessor
regulatory role. We also identified a major problem with
                                                              concessions, including the provisioning of additional
the methodology proposed by the GSA to fund
                                                              space, valued at that amount. Based on our review of the
delegations.
                                                              region's analysis of the proposal, we concluded that the
In three delegated facilities, occupying agencies gener-      Government would pay $21.3 million in excess of the
ally experienced improved maintenance operations and         .value received.
reduced energy consumption under their own control.
                                                             In responding to our report, the Regional Administrator
Yet, inexperience in handling buildings management
                                                             prepared a revised analysis that compared projected Gov-
functions, coupled with the increased costs associated
                                                             ernment costs under the settlement agreement with the
with individual service procurements as opposed to dis-
                                                             projected costs if the Government decided to acquire the
trict-wide GSA contracts, did result in some problems.
                                                             additional space through condemnation. Our review dis-
Further, agencies experienced difficulty in achieving        closed deficiencies in the analysis that erroneously led to
GSA standards, especially in the area of security, and in    the conclusion that acceptance of the settlement agree-
performing contracting and contract administration           ment would result in a cost avoidance of more than $6.6
functions for service, construction, and small purchase      million over the life of the lease.
contracts. Finally, agencies were not maintaining ade-
                                                             We found that the regional analysis of the settlement
quate records on the costs and obligations associated
                                                             agreement recognized a $296,000 per year energy sav-
with buildings management.
                                                             ings guarantee but the condemnation option did not We
Relative to the shift in GSA's role,we found that when the   believed it should be treated equally under both pro-
initial delegations occurred, GSA's organizational struc-    posals or disregarded since it is not a definite guarantee.
ture did not effectively support administration of the       We also found that the region applied overly conservative
program, assistance to occupying agencies; or oversight      inflation factors when computing escalation of operat-
and evaluation ofthe delegations. Moreover, an adequate      ing expenses and made mathematical errors when cal-
program did not exist to implement or administer pro-        culating the escalation costs for operating and real estate
posed future delegations. We further found that the ex-      tax expenses. Based on these findings, we estimated that
ecuted delegation agreements did not effectively protect     opting for settlement over condemnation would cost the
GSA's proprietary interests in the properties.               Government
                                                                     ,     $12.3 million over the term of the lease.
Our review also disclosed problems in GSA's proposed         Therefore, in our August 23, 1984 report, we recom-
funding method for the delegations taking effect in Oc-      mended that the Regional Administrator pursue the
tober 1984. Under this methodology, adjustments were to      remedies available under the existing lease and attempt
be made to the agency Standard Level User Charge             to negotiate for the additional space. If negotiations are
(SLUe) paid to the GSA based on the appraised value of       unsuccessful, then management should analyze the al-
services to operate the buildings rather than on their       ternatives, including the impact of the claims and coun-
actual costs. Further, the adjustments were to be based      terclaims. Finally. we recommended that the Regional·         3
     Administrator study the reasons why the GSA failed to        .Fire and Life Safety Systems
     enforce the alterations clause of this lease through legal
     or administrative means.                                     In our last semiannual report, we advised the Congress
                                                                  of seven separate reviews of fire and life safety systems in
     The Regional Administrator and the CommissioneI;             major Federal buildings throughout the country. We re-
     PBS, concurred in our findings and recommendations.          ported that several systems were functioning improp-
     Resolution occurred on September ~O, 1984.                   erly; thereby creating potential risks to employees and
                                                                  property.
                                                                  In a consolidated report, issued on August 28, 1984, we
     Fro Guilty of Embezzlement                                   brought these and other issues to the attention of the
      The GSA OIG investigated allegations that a GSA Federal     Commissioner, PBS. We reported that weaknesses in
      Protective Officer (FPO) embezzled local union funds.       management policies and procedur~s were causing inad-
     ,The allegations first came to light when the local union    equate and!or improper testing of fireand life safety sys-
      was advised that national union benefits had been termi-    tems. We found that regional officials did not ensure that
      nated due to failure to pay dues.                           preventive maintenance and testing of fire alarm and
                                                                  smoke control systems were performed as required or
     We found that during the 2-yearperiod the FPO was the        give sufficient priority to replacement of deficient sys-
     union president, he embezzled more'than $1l,591 in           tems. MoreoveI~ operating personnel often lacked the
     union funds. We therefore referred the matter for crimi-     training to test and operate many of the highly sophisti-
     nal prosecution.                                             cated systems.
     On August 6, 1984, the FPO pled guilty to three felony       We therefore offered ten recommendations to the Com-
     counts of embezzlement in the u.s. District Court. Sen-      missioner, PBS, to correct these fire and life safety system
     tencing was scheduled for October 12, 1984.                  deficiencies. His response to the draft report was positive
                                                                  and even included comments to strengthen our recom-
                                                                  mendations. We are awaiting the Commissioner'S action
     Excessive Energy Consumption                                 plan in response to the final report.

     In response to Congressional concerns about excessive        GSA Employee Convicted of False Claims
     building temperatures, the OIG inspected the heating
                                                                  Based on a referral from GSA management, the OIG in-
     and cooling operations at a Federal office building. The
                                                                  vestigated allegations that a GSA employee filed fictitious
     inspection confirmed that building temperatures were
                                                                  claims with the Government. Our investigation con-
     excessive and identified several operational problems.
                                                                  firmed that the claims were fictitious and the matter was
     Collectively; these problems contributed to an estimated
                                                                  referred for criminal prosecution.
     $203,000 in wasted energy annually.
                                                                  On May 4, 1984, the employee was convicted on false
     In our July 13, 1984 report, we directed ten recommenda-
                                                                  claims charges in the U. S. District Court. She resigned her
     tions to the Regional Administrator to correct the opera-
                                                                  position with the GSA on May 14, 1984. On June 12,
     tional deficiencies. These included: initiating a water
                                                                  1984, she was sentenced to 2 years in prison (suspended)
     treatment program to clean the pipe systems; repairing
                                                                  and placed on probation for 2 years. She was ordered to
     leaking pumps and building temperature control sys-
                                                                  pay full restitution in the amount of $1,484.
     tems; reducing ventilation air and building lighting lev-
     els; and correcting elevator control problems.
     The Regional Administrator concurred in the findings
                                                                  c.   Statistical Highlights
     contained in our draft report. We are awaiting the action.   The following table compares OIG activity and accom-
     plan for implementing the recommendations in our final       plishments within the PBS to the overall GSA totals for
     report                                                       the period.




4:
     Activity                                                                         PBS              All GSA
     Audit Reports Issued ................................... .       208                               392
     Recommended Cost Avoidance ........................... . $38,787,951                           $235,322,060
     Recommended Cost Recovery ........................... . $1,806,525                               $2,123,298
     Management Commitments to Avoid Costs ..... ~ ............ . $54,527,311                       $111,313,236
     Management Commitments to Recover Funds ............... .       $462,421                         $2,769,531
     Percentage of Recommended Cost
       Avoidance Agreed to by Management .................... .        94                                  95
     Percentage of Recommended Cost
       Recovery Agreed to by Management ..................... .        85                                 79
     Unresolved Audits Older Than 6 Months .................... .      19                                 32
     New Investigative Cases ................................ .       188                                430
     Criminal Referrals (Subjects) ............................. .     91                                240
     Civil Referrals (Subjects) ................................ .      7                                 14
     Administrative Referrals (Subjects) ......................... .  199                                376
     Suspension/Debarment Referrals (Subjects) ................. .     21                                 43
     Indictments/Informations/Complaints ...................... .      13                                 29
     Successful Prosecutions ................................ .         9                                 21
     Civil Settlements/Judgments ............................. .       15                                 17




D. Significant Audits From                                     alsD identified problems relative tD the actiDns propDsed
                                                               'On fDur 'Other recDmmendatiDns. On September 21, 1984,
   PrlorReports                                                the CDmmissiDner provided a revised acti'On plan fDr the
AccDrding tD GSA's audit resDlutiDn system, the DIG is         f'Our recDmmendatiDns.
responsible fDr ensuring resDlutiDn 'Of audit reCDmmen-        Our analysis 'Of the revised actiDn plan ShDWS that we
datiDns, while the Office 'Of Audit ResDlutiDn, Office 'Of     currently disagree with the PBS 'On actiDns relative tD the
Policy and Management Systems, is respDnsible fDr en-          recDmmendatiDns inv'Olving correctiDn and cDmpletiDn
suring implementatiDn 'Of resDlved audit recDmmenda-           'Of cDnstructiDn 'Of the "Kill Tank System" and elimina-
tiDns. That 'Office therefDre furnished the status             tiDn 'Of 'Overlapping preventive maintenance require-
infDrmatiDn 'On implementatiDn presented herein.               ments in the basic lease agreement and a supplemental
Fifteen audits highlighted in priDr RepDrts tD the CDn-        lease agreement. We intend tD present 'Our positiDn to
gress require actiDn by PBS management befDre they are         management in NDvember 1984, in an attempt tD resDlve
fully implemented. Two repDrts are still unresDlved,           these matters.
while the remaining 13 are being implemented accDrd-
ing t'O established :rp.ilestDnes.                             Fire and Life Safety Systems
                                                               Period First Reported: October 1, 1983 to March 31, 1984
1. Unresolved Significant Audits                               A series 'Of seven DIG reviews identified deficiencies in
                                                               fire and life safety systems in GSA-cDntrolled space. As 'Of
Inspection of the Lease Construction                           September 30, 1984, 'One repDrt was unresDlved; the re-
of a Laboratory;Fadlity                                        mainder 'Of the repDrts were resDlved and are discussed in
                                                               the paragraph addressing significant audits being imple-
Period First Reported: October 1, 1982 to March 31, 1983
                                                               mented accDrding tD established milest'Ones.
This review disclosed that inadequate cDntract adminis-
                                                               The unres'Olved audit fOlmd that a cDntractDr was n'Ot
tratiDn and a lack 'Of technical input in the cDnceptual,
                                                               properly perfDrming maintenance and repair 'Of the
design, and CDnstructiDn phases 'Of a labDratDry facility
                                                               building and its equipment. MDreDver, it disclDsed a pD-
has resulted and/Dr will result in GDvernment IDSseS 'Of
                                                               tential health hazard caused by expDsed asbestDs pipe
'Over $1.5 milliDn. As 'Of September 30, 1984, this audit
                                                               insulatiDn. Acc'Ordingly, we made fDur rec'Ommenda-
was still unresDlved.
                                                               tiDns tD CDrrect these deficiencies.
In 'Our last 'repDrt, we advised that the CDmmissiDner,
                                                               The actiDn plan submitted by the CDmmissiDner, PBS,
PBS, had submitted an actiDn plan tD the DIG 'On
                                                               was nDt responsive tD 'Our recDmmendatiDn tD CDrrect the
March 30, 1984, but it failed tD address the recDmmenda-
                                                               asbestos hazards because OccupatiDnal Safety and
tiDn 'On life cycle CDSts. Subsequently, a respDnsive actiDn
                                                               Health AdministratiDn procedures were nDt being fDI-
plan was received fDr this recDmmendatiDn. HDweve:t
                                                               IDwed. The actiDn plan was returned fDr revisiDn.
full review 'Of the March 30, 1984 actiDn plan fDund that
management had deferred fDrmulating cDrrective actiDn          We anticipate that resDlutiDn will 'Occur in NDvember
fDr six rec'Ommendati'Ons pending Grand Jury actiDn; it        1984, upon receipt 'Of the revised actiDn plan.                5
    2. Significant Audits Being                                       ahead of schedule. The region is currently preparing a
                                                                    , request to revise these dates to May 1985.
       Implemented According to
       Established Milestones
                                                                     Implementation of the Public Buildings
                                                                     Cooperative Use Act
    GSA Efforts to, Reduce Space Rental Costs                        Period First Reported: October 1,1982 to March 31, 1983
    Period First Reported: October 1, 1983 to March 31,1984         Our review disclosed a number of problems associated
    This review of GSA efforts to reduce Government space           with GSA's implementation of the Public Buildings Co-
    rental costs found that the amount of leased office space       operative Use Act of 1976. The report contained 18 rec-
    grew by some 139,000 square feet and rental costs rose by       ommendations; 14 are implemented.
    more than $ 51 million despite concurrent reductions in         The remaining four recommendations require:
    the Federal civilian work force. Accordingly, we made 15        (1) monthly reports to Congress on actions accomplished
    recommendations to correct identified deficiencies.             under the Act; (2) development of policy on outleasing;
    On September 28, 1984, the report was resolved. Accord-         (3) assignment of qualified experts on outleasing projects
    ingly, we have just referred the audit to the Office of Audit   involving cominercial malls; and (4) development of pol-
    Resolution for tracking of implementation actions.              icy and procedures for outleasing of commercial malls.
                                                                    Recommendations (1) and (2) were originally both due
                                                                    for implementation in August 1983; these dates were re-
    Fire and life Safety Systems                                    negotiated to December 1983. A further extension to Oc-
                                                                    tober 1984 was granted on the first recommendation,
    Period First Reported: October 1, 1983 to March 31, 1984        while successive extensions of June 1984, August 1984,
    A series of seven OIG reviews identified deficiencies in        and December 1984 were granted on the second.
    fire and life safety systems in GSA-controlled space. As        The third and fourth recommendations were originally
    previously reported in the section on unresolved signifi-       scheduled for completion in May and September 1983,
    cant audits, one of these reports was unresolved as of          respectively. These dates were both renegotiated to Oc-
    September 30, 1984. A second report was fully imple-            tober 1983, then April 1984, and then October 1984.
    mented as of September 30, 1984. The remaining five
    reports contained 15 recommendations; 7 are imple-              The initial corrective action on all of these recommenda-
    mented.                                                         tions has been taken. However, the final action of codify-
                                                                    ing the policies in a PBS handbook has caused the delays
    Seven of the eight unimplemented recommendations,               necessitating the extensions.
    contained in four reports, ar~ being implemented in ac-
    cordance with the original action plans. Full implemen-
    tation of these reports shoulq occur in October 1984,           Contracting for
    November 1984, April 1985, andJune 1986, respectivel)!
                                                                    Cornrnerdal Appraisal Services
    The one outstanding recommendation in the fifth report
    was originally scheduled for implementation in June             Period First Reported: April 1, 1982 to September 30, 1982
    1984. This date has been revised to October 1984.               This audit of commercial appraisal service contract
                                                                    awards found that GSA policies did not provide for ade-
                                                                    quate competition. The report contained three recom-
    Opportunities for Savings Exist                                 mendations; two are implemented.
    Through Energy Conservation                                     The third recommendation, involving revisions to the
    Period First Reported: October 1, 1983 to March 31,1984         PBS appraisal handbook, remains unimplemented. The
                                                                    PBS revisions were originally due March 31, 1983. Suc-
    Two OIG reviews identified annual savings of $477,000,          cessive extensions to July 31, 1983, November 30, 1983,
    mostly available through simple modifications to equip-         March 30, 1984, July 30, 1984, and November 30, 1984
    ment and operating procedures at three Federal build-           were granted. All action should now be completed by
    ings. All of the recommendations in one report have             November 30,1984.
    been implemented. The other report contained 16 rec-
    ommendations; 7 have been implemented.
     Two of the unimplemented recommendations, involving            Controls Over Lease Renewal Dates
     replacement of fluorescent lamps and ballasts and analy-
                                                                    Period First Reported: October 1, 1982 to March 31, 1983
    .sis oflighting systems, were scheduled for completion by
     November 30, 1984 and July 31, 1984, respectivei)! These       This audit identified errors in the PBS Information Sys-
     dates have been renegotiated to December 31, 1984 and          tem that could have resulted in missed lease renewal op-
     October 1, 1984, respectivel)! A third recommendation,         tions. The report contained two major recommenda-
     calling for replacement of incandescent lamps in exit          tions to improve controls over lease data; one is
     signs, was to be completed as resources permitted. Re-         implemented.
     placement has not yet been completed due to the non-
                                                                    The remaining recommendation, calling for periodic re-
     availability of funds.
                                                                    gional reviews, was originally scheduled for completion
    The remaining six recommendations, scheduled for                by March 1984. The OIG agreed to extend this date to
6   completion during Fiscal Year 1986, are proceeding              December 1984 at the request of the PBS.
Poo:r Inspection of Repair                                     of guidelines for decisions on partitiOning open-space
and Alte:ration Contract Wo:rk                                 areas. Both recommendations were originally scheduled
                                                               for implementation in March 1984. These dates were re-
Period First Reported: April 1, 1982 to September 30, 1982     negotiated to May 1984.
This audit of repair and alteration work on a warehouse        In response to an April 1984 request from the PBS to
found numerous contract deficiencies, defects, and omis-       revise the action plan, the OIG and the PBS entered into
sions that went unnoticed by GSA inspectors. The report        discussions relative to the actions to be taken. Informal
contained nine recommendations; eight are imple-               agreement was reached on September 19, 1984; a revised
mented.                                                        action plan had not been received for OIG approval as of
The remaining recommendation, requiring the con-               September 30, 1984.
tracting officer to have the contractor perform con-
tractually required work or obtain a credit, is still being
pursued. Currently, regional PBS officials are working         Administ:rative Fund Cont:rol Violation
with Regional Counsel to recover more than the 'amount
originally offered by the firm as a credit for the work.      . Period First Reported: April 1, 1983 to September 30, 1983
                                                                This audit identified inadequacies in the controls govern-
Application of the ICB System Concept                         , ing management of the Construction Services Fund that
                                                                allowed an administrative fund control violation to oc-
Period First Reported: October 1, 1982 to March 31, 1983
                                                                cur: The report contained five recommendations; three
This review of the mandatory use of Integrated Ceiling          are implemented.
and Background (ICB) systems in Federal facilities found
                                                               The remaining recommendations require strengthening
that this policy created customer dissatisfaction and
                                                               of the system for accumulating and accounting for proj-
wasted millions of dollars. The report contained six rec-
ommendations; four are implemented.                            ect costs and establishing retention requirements for
                                                               time/task cards and reports. 'Implementation is proceed-
The remaining recommendations require implementa-              ing according to schedule and should be completed 'in
tion of an acoustics training program and development          November 1984.




                                                                                                                             ?
    SECTION ill -- FEDERAL SUPPLY
    AND SERVICES
    The Office of Federal Supply and Services (FSS) operates a         (QAMA) program. Four audits, two of which were com-
    Government-wide service and supply system that contracts           pleted this period, indicate that a basic element of the
    for and distributes billions ofdollars worth ofsupplies, mate-     program - analyses of contractor quality assurance sys-
    rials, and services for customer agencies each year. The FSS       tems - is not being adequately performed. Outdated pro-
    also controls GSA's personal property program. In the second       cedures, coupled with inadequate training for quality
    half of Fiscal Year 1984, the FSS obligated approximately          assurance specialists, are resulting in analyses that fail to
    $81.1 million in direct operating expense appropriations. Es-      surface systems problems and allow defective material to
    timated sales through the General Supply Fund during the           enter the supply system. If this program is to be suc-
    same period exceeded $970 million.                                 cessful, improvements must be made nationwide.
    Consistent with this level of activity, the OIG expended some      DIG investigative activity in the FSS emphasized defec-
    55,962 direct staffhours pursuing 196 audit and inves-             tive pricing cases relative to the MAS program. This
    tigative assignments. These statistics reflect almost 33 percent   period, we revised our guidelines for investigating defec-
    of total OIG direct staffhours and approximately 36 percent        tive pricing allegations so. that the expertise gained in
    of all work assignments.                                           several recent major cases can be applied successfully by
                                                                       all of our investigators. We have also'Sought to enhance
                                                                       communications between our investigators and GSA
    A. Analysis of OIG Findings                                        procurement officials so that all suspicions regarding
    OIG audit coverage of the FSS this period concentrated             false cost or pricing data are thoroughly reviewed. More-
    primarily on its contracting functions, especially the             over, we have continued to solicit information from these
    Multiple Award Schedule (MAS) program. As stated in                officials on instances where contractors provide non-
    our last Report to the Congress, our contract audit ap-            specification materials. This information is being uti-
    proach to improving these functions emphasizes greater             lized to identify trends and surface areas for further in-
    preaward coverage coupled with management support                  vestigative attention.
    initiatives. From the internal audit perspective, we em-           Our investigations also disclosed that the improper and
    phasized issues relating to contract awards, contract              illegal use and sale of Federal surplus property is a con-
    provisions, and their enforcement.                                 tinuing problem. We have found that many States have
    In the contract audit area, the emphasis on preaward               ineffective programs for disbursing surplus property to
    coverage is dramatically evident in our financial recom-           proper recipients and monitoring donee compliance
    mendations for the period. Within the FSS, our contract            with the conditions of the donation. Accordingly, we
    audits recommended cost avoidances of $ 57 million. Suc-           plan to increase our liaison with FSS officials to effect
    cessful negotiations with contractors could therefore re-          timely administrative recovery of property obtained by
    sult in management conimitments on the order of $ 57               fraud. We also intend to establish procedures whereby
    million. Achieving this level of management commit-                administrative recovery is concurrent with prosecutive
    ment is the focus of our MAS audit training program.               efforts whenever feasible.
    Our efforts in this regard are more fully discussed in
    Section X of this report.
    In the internal audit area, we found that contract terms
    designed to obtain more advantageous contract rates for            B. Significant Problems,
    the Government could create potential liabilities for the
    GSA. A mandatory use provision in some GSA contracts,
                                                                          Abuses, Deficiencies, and
    notably in contracts for vehicle rental services, provided            Recommendations
    that designated Federal agencies would obtain their
    rental vehicles from the vendor. However, the GSA lacks            Motor Vehicle Rental Contracts
    the enforcement authority to ensure that designated
    users utilize the contracts. As a result, the GSA is now           The FSS mandatory use contracts for motor vehicle
    facing several breach of contract claims. GSA's potential          rental services are intended to obtain favorable Govern-
    liability under these vehicle rental contracts would ap-           ment rental car rates by offering a contractual commit-
    proximate $10 million if all GSA contractors filed similar         ment to vendors that they will be the mandatory source
    breach claims.                                                     for all designated Federal agencies. While these contracts
                                                                       provide favorable Government rates, an OIG review
    The preliminary FSS response to this audit indicates that          found that not all agencies identified as mandatory users
    decisive action is planned relative to motor vehicle rental        were using the GSA contracts. As a result, a number of
    contracts. However, creative solutions are needed on the           contractors have filed breach of contract claims against
    other GSA contracts that possess mandatory use provi-              the GSA.
    sions. The FSS is assisting the Office of Acquisition Policy
    in developing these solutions.                                     Several of these, including a $ 700,000 claim, have al-
                                                                       ready been settled. However, if similar actions were initi-
    Another area requiring the attention of FSS officials              ated by all vendors, GSA's potential liability could total as
8   is the Quality Approved Manufacturer Agreement                     much as $10 million.
 PQrt of the problem resides in GSAS inability to enforce           Quality Assurance
 the mandatory use provision. Currently, the GSA does
 not obtain written agreements from Federal agencies            i   The OIG expended substantial resources this period re-
 whereby they agree to be designated users and accept           I viewing the FSS Quality Approved Manufacturer
 liability for non-use. Moreover, travelers are either un-          Agreement (QAMA) progr~. The QAMA program is
 aware of the mandatory requirements or able to deviate             an important part of GSAS efforts to obtain quality mate-
 from them because travel authorizations do not specify             rial while reducing the· Government costs associated
 the use of Government transportation contracts for                 with quality control. It requires contractors to maintain
 rental cars.                                                       quality control systems and perform tests to identify defi-
                                                                    cient products. Consequently, the GSA periodically in-
 During the course of this review, the OIG also identified          spects contractor quality assurance systems rather than
 mandatory use provisions in other GSA contracts for                each individual contractor shipment.
 supplies and services. Because they share similar prob-
 lems with the car rental contracts, GSXs potentiallia-           In two reports, dated June 8, 1984 and August 1, 1984, we
 bility under these contracts could be substantial.               identified defective material entering the supply system
 Therefore, we recommended in our September 6, 1984               that should have been detected by contractor quality
 report that the Acting Assistant Administrator, FSS, im-       . control systems or by FSS plant surveillances. We found
 plement alternatives to the mandatory use requirement            that part of this problem could be attributed to inade-
 and institute mechanisms to make agencies more aware             quate GSA inspections of contractor systems. Further,
 of their obligation to use these contracts. We also recom-       quality assurance specialists lacked the training needed
 mended that the Acting Administrator, GSA, deSignate a           to perform systems-oriented evaluations, while outdated
 focal point to coordinate and develop solutions to mini-         surveillance procedures were geared to product-ori~nted
 mize GSAS exposure under the other mandatory use                 rather than systems-oriented reviews.
 contracts.                                                         The reports contained a series of recommendations to
 In response to the draft report, the Acting Assistant              correct the identified deficiencies. Regional manage-
 Administrator agreed to implement the control mecha-               ment officials generally agreed with the findings and rec-
 nisms and opted to discontinue contract coverage for               ommendations. However, these findings, coupled with
 motor vehicle rental services. As an alternative, the GSA,         the preliminary results of two other audits currently in
 in conjunction with the Department of Defense, will im-            progress, suggest that the identified problems in the
 plement a non-contractual rate agreement on March 1,               QAMA program are not isolated incidences. We there-
 1985. The Acting Administrator also designated the Of-             fore plan to issue a consolidated report next period that·
 fice of Acquisition Policy as the focal point for developing       will bring these problems to the attention of top manage-
 solutions to minimize GSXs liability problem.                      ment officials within the FSS.

 We are awaiting the action plan in response to the final
 avdit report.                                                      Shortages in Paper Shipments
                                                                    A joint investigation conducted by the GSA OIG and the
                                                                    u.s. Air Force Office of Special Investigations found that a
                                                                    GSA contractor's shipments of tabulating paper did not
 $1.07 Million                                                      contain the full amounts ordered. In fact, nationwide
                                                                    sampling disclosed shortages ranging frpm 4 to 16 per-
 Defective Pricing Settlement                                       cent per order. The supplier filled almost $1.05 million in
 On June 4, 1984, the u.s. Attorney for the District of New         orders between April 1981 and December 1982 under
 Jersey reached a settlement agreement with a GSA sup-              GSA contracts. The shortages occurred between July
 plier of disinfectants and disinfectant cleaners. Under the        1981 and December 1982.
 terms of the settiement, the supplier agreed to pay the            On August 3, 1984, GSA management negotiated a con-
 GOvernment $1,075,000 and institute internal controls              tractual settlement of $99,874 with the firm, based on
 to ensure compliance with the pricing provisions of fu- .          the results of the investigation. In addition to this reim-
 ture GSA contracts. The firm also agreed not to compete            bursement for short shipments, the firm agreed to ex-
 for GSA multiple award schedule contracts for a period of          tend the warranty on shipments that were held pending
 oneyecu:                                                           the outcome of the investigation.
  GSA OIG audit and investigation disclosed that the firm           Although the GSA had suspended the supplier from do-
\ misrepresented its pricing practices in the cost and pric-        ing future business with the Government and was con-
  ing data submitted to the GSA. These data, utilized to            sidering debarment action, a recently completed quality
  award the GSA contracts, failed to reveal substantial dis-        control review found that the operational problems caus-
  counts given to commercial customers. The firm also               ing the short shipments had been corrected. On Sep-
  failed to give the Government equivalent price reduc-             tember 24, 1984, management lifted the suspension and
  tions when it increased its discounts to commercial cus-          declined to impose the debarment.
  tomers. Under the terms of such contracts, the
  Government is entitled to discounts equal to those given
  to the best commercial customer in the same category              Depot Operations
  and equivalent price reductions.
                                                                    A limited review of operations at one GSA depot identi-
 The firm held six successive I-year contracts with GSA             fied internal control lapses and unenforced security
 between 1975 and 1982. '!btal contract sales amounted to           procedures. The internal control lapses generally in-
 $3.9 million.                                                      volved the failure to perform prescribed monthly locator       9
     screening tests. Such tests ensure that stock locator rec-     Federal excess arid surplus property for their personal
     ords, which are integral to efficient depot operations,        use. The investigation found that the father and son sold
     provide the precise depot location where items are             the donated property for $59,900.
     stored. Records at this facility experienced error rates
     nearly four times higher than acceptable standards.            OnMay 18, 1984, they were both convicted on charges of
                                                                    conspiracy and theft of Government property. On
     The security problems primarily involved unenforced            July 30, 1984, they were each sentenced to 5 year~ proba-
     procedures governing guard post operations, employee           tion, fined a total of $16,000, and ordered to make .res-
     credentials, employee vehicle identification, and visitor      titution to the GSA in the amount of $53,000. In
     co:qtrol. However, problems were also disclosed relative       addition, they were ordered to make restitution to the
     to the storage of sensitive i~ems. Only 67 ofthe 122 sen-      Department of Labor in the amount of $6,900.
     sitive items stored at the depot were kept in a secured
     storage area, while .sorp.e 119 non-sensitive items were
     being stored in the secured area.
                                                                    Conference Location
     In our July 19, 1984 report, we recognized that many of
                                                                    Selection Model
     these problems were associated with the recent doubling        In April 1983, the GSA introduced the Conference Loca-
     of depot inventory and expansion of depot personnel by         tion Selection Model to assist Federal agencies in.
     some 40 percent However, we recommended that the               selecting the most cost advantageous conference site in
     Assistant Regional Administrator, FSS, correct the high        .terms of per diem and travel costs. This period, the DIG
     locator error rate on a priority basis and enforce existing    reviewed the effectiveness of the model in reducing Gov-
     procedures for monthly tests. We also recommended that         ernment-wide conference costs, the reliability of the in-
     the Assistant Regional Administrator improve physical          formation provided, and the sufficiency of docu-
     security at the depot through a variety of actions.            mentation supporting its development and operation.
     Management concurred in these and other recommen-              Our review found that the model is not being used on
     dations contained in the draft report. We are awaiting         a Government-wide basis and the reliability of the data
     the action plan for implementation of the final audit re-      is questionable. Of the 174 analyses performed during
     port                                                           the first 9 months of operation, the GSA requested 38,
                                                                    five agencies requested 10 or more analyses, and seven
                                                                    agencies requested one. This lack of use can be attrib-
     Successful Preaward Negotiations                               uted to unreliable information, data base limitations,
     On May 31, 1984, management committed itself to avoid          and the existence of similar systems throughout the Gov-
     expenditures of $2.67 million, based upon an DIG audit         ernment
     of a pricing proposal for security filing cabinets, safes,
                                                                    We also found that the model was not developed in accor- .
     and vault doors. This figure translates to contract unit
                                                                    dance with GSA's systems development requirements.
     prices that average 14.42 percent less than those orig-
                                                                    This finding accounted for many of the identified defi-
     inally proposed by the firm.
                                                                    ciencies in the model. Therefore, in our May 4, 1984.
     In the preaward audit report, we advised the contracting       report, we recommended that the Acting Assistant Ad-
     officer that the firm's unit costs were overstated by 21       ministrator, FSS, cancel the bulletin implementing the
     percent Based on estimated contract sales of $20.4 mil-        use of the model Government-wide and study the need
     lion, we recommended a cost avoidance of $2.5 million.         for such a system. If a Government-wide system is
     A subsequent upward adjustment in the estimated sales          needed, we recommended that development proceed in
     resulted in the larger settlement amount.                      accordance with GSA requirements.
     The contracting officer's tough negotiations stance, cou-      The Acting Assistant Administrator concurred with the
     pled with our audit work, resulted in this highly suc-         recommendations in the final report. Resolution oc-
     cessful outcome.                                               curred on August 10, 1984.

     Two Convicted of
     Selling Federal Property                                       c.   Statistical Highlights
     The GSA OIG, the U.S. Department of Labor DIG, and the         The following table compares DIG activity and accom-
     FBI jointly investigated allegations that the president of a   plishments within the FSS to the overall GSA totals for
     Federally-funded organization and his son converted            the period.




10
    Activity                                                                                  FSS             All GSA
    Audit Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   99           392
    Recommended Cost Avoidance ............................ $57,099,310                                     $235,322,060
    Recommended Cost Recovery ............................                                       $193,071     $2,123,298
    Management Commitments to Avoid Costs ................. " $7,698,956                                    $111,313,236
    Management Commitments to Recover Funds ................ $2,107,095                                       $2,769,531
    Percentage of Recommended Cost
      Avoidance Agreed to by Management ............. ;.......                                     70            95
    Percentage of Recommended Cost
      Recovery Agreed to by Management ......... . . . . . . . . . . . . .                         84            79
    Unresolved Audits Older Than 6 Months .....................                                     8            32
    New Investigative Cases .................................                                     157           430
    Criminal Referrals (Subjects) ... . . . . . . . . . . . . . . . . . . . . . . . . . . . .     108           240
    Civil Referrals (Subjects) ................. :...............                                   4            14
    Administrative Referrals (Subjects) . . . . . . . . . . . . . . . . . . . . . . . . . .       106           376
    Suspension/Debarment Referrals (Subjects) . . . . . . . . . . . . . . . . . .                  18            43
    Indictments/Informations/Complaints .......................                                    12            29
    Successful Prosecutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       5            21
    Civil Settlements/Judgments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         1            17



D. Significant Audits From
   Prior Reports
All FSS audits highlighted in prior Reports to the Con-
gress are fully implemented.




                                                                                                                           11
       SECTION IV -- INFORMATION RESOURCES
       MANAGEMENT
       The Office of Information Resources Management (OIRM)             communications equipment contract it held with the
       coordinates and directs a comprehensive Government-wide           GSA. Our preaward disclosed the need for specific price
       program for managing and procuring automated data pro-            reduction monitoring provisions in the contract due to
       cessing (ADP) and telecommunications equipment and serv-          the unique discount structure utilized by the firm. This
       ices. In the second half of Fiscal "frar 1984, the OIRM           period, after notifying the contractor of our intent to
       obligated approximately $15 million in direct operating ex-       review compliance with the monitoring provisions, the
       pense appropriations. Estimated sales via the Federal 'Iele-      check was received by the GSA.
       communications Fund and the ADP Fund during the same
                                                                         These efforts, coupled with investigative focus on defec- '
       period exceeded $431 million.
                                                                         tive pricing and price reduction cases, are having a mea-
       Collectively, the DIG expended some 22,558 direct staffhours      surable effect. We intend to continue this strategy.
       pursuing 43 audit and investigative assignments. These fig-
       ures reflect over 13 percent of total OIG direct staffhours and
       some 8 percent of total work assignments.                         B. Significant Problems,
                                                                            Abuses, Deficiencies, and
       A. Analysis of OIG Findings                                          Recommendations
       OIG internal audit coverage of the OIRM focused upon
       its effectiveness in carrying out the provisions of the Pa-       Preaward Recommends $12 Million
       perwork Reduction Act, Federal Procurement Regula-
       tions, and GSA orders, especially as they apply to systems
                                                                         Cost Avoidance
       development efforts. Our efforts disclosed that the OIRM          The OIG audited a contractor offer submitted in response
       must enhance its oversight role if the GSA is to be assured       to a GSA solicitation for the purchase and rental of ADP
       that its ADP systems are responsive to both the develop-          equipment. Estimated sales under the contract are $284
       ing office's needs and the overall interests of the Agency.       million.                 .
       Currently, the risk of duplication, inefficiency, and sub-
                                                                         The audit report, issued on July 16, 1984, identified dis-
       standard systems is unacceptably high.                            counts to commercial customers that resulted in better
       In a review performed this period, we found that the PBS          pricing terms than those offered to the Government. Un-
       and the Comptroller were making hardware and soft-                der the terms of such a contract, the GSA is entitled to
       ware decisions on systems development efforts without             discounts equal to the best commercial customer in the
       benefit of OIRM guidance. Independent actions such as             same category. Accordingly, we recommended that the
       these remove assurances that systems represent the least          contracting officer consider the concessions granted to
       cost alternative for the GSA as a whole. Moreover, oppor-         the contractor's most favored customers and negotiate
       tunities for sharing processing capacities and maximiz-           the same terms for the GSA. We estimated that such ac-
       ing compatibility among systems are lost.                         tion would result in a cost avoidance of $12 million.
       The OIRM has taken some very positive steps to improve            We are awaiting management's response to the final au-
       the ADP planning process and enhance communica-                   dit report.
       tion. However, greater coordination of systems develop-
       ment efforts is needed. The OIRM must place more                  Coordination of Systems
       emphasis on a strategic ADP plan for the GSA and exert
       more control over the acquisition of these costly re-
                                                                         DeveloplPent Projects
       sources.                                                          The OIG reviewed the systems development efforts rela-
                                                                         tive to the Systematically Tiered Regional Information
       Relative to Government-wide ADP and telecommunica-
                                                                         Data Environment (STRIDE) and the Automated Docu-
       tions costs, the OIG focused considerable resources audit-
                                                                         ment Entry and Processing 'fransaction (ADEPT) sys-
       ing OIRM's contracting function, especially its Multiple
                                                                         tems. STRIDE is designed to replace the PBS Information
       Award Schedule (MAS) program. Like our efforts in the
                                                                         System and link together PBS components in a dis-
       FSS, we emphasized greater pre award coverage of these
                                                                         tributed processing environment. It will also implement
       contracts coupled with management support initiatives.
                                                                         state-of-the-art office automation throughout the PBS.
       Two preaward audits alone identified potential cost               The ADEPT system, proposed by the Comptroller, is an
       avoidances in excess of $14.5 million on contracts for            electronic document processing system intended to facil-
       ADP equipment. These recommendations stemmed                      itate interfaces between financial systems and manage-
       from findings that contractor cost and pricing data failed        ment information systems.
       to disclose discounts given to commercial customers that
                                                                         Under the provisions of the Paperwork Reduction Act of
       exceeded the discounts offered to the GSA.
                                                                         1980, Federal agencies must appoint a senior official to
       In addition to disClosures such as these, our emphasis has        ensure that automated data processing and telecom-
       had another positive benefit: voluntary contractor re-            munications technologies are acquired and used in a
       funds subsequent to preaward audit. This period, a con-           manner that improves service delivery and program
1;:!   tractor refunded almost $1.3 million under a                      management, increases productivity, and reduces waste
and fraud. Within the GSA, this responsibility is assigned            The auditors found that the cost and pricing data were
to the OIRM. GSA regulations further require that the                 not current, accurate, and complete because the data did
OIRM assist and advise GSA managers in such acqui-                    not disclose actual selling policies and practices. In our
sitions, placing emphasis on the least cost alternatives              August 16, 1984 audit report,. we recommended a cost
and maximizing opportunities for sharing processing                   avoidance of $2.5 million, principally because the firm
capacity.                                                             offered discounts to its commercial customers that ex-
                                                                      ceeded the discounts offered to the GSA. Under the terms
The audit found that the OIRM exercised inadequate
                                                                      of such a contract, the GSA is entitled to discounts equal
control over these projects. The PBS and the Comptroller
                                                                      to the best commercial customer in the same category.
independently decided how to best satisfy their individ-
ual hardware and software requirements without bene-                  We are awaiting management's response to the audit
fit of OIRM guidance. As a result, the GSA cannot be                  report.
assured that its overall interests were addressed or that
the individual configurations represent the most effi-
cient and economical alternative.                                      Former Employee
In our report dated July 7, 1984, we recommended that
                                                                       Convicted of Forgery
the Assistant Administrator, OIRM, evaluate PBS and                   At the request of the Regional Administrator, the GSA
Comptroller requirements to determine the most cost                   OIG investigated allegations regarding a GSA telephone
beneficial configuration for the GSA that will satisfy the            operator's claim for a job-related injury. We found that
requirements of both STRIDE and ADEPT. We also rec-                   the operator, who resigned while under investigation,
ommended that the OIRM monitor the development of                     forged a doctor's name on 14 Department of Labor forms
these projects throughout the systems development life                used to substantiate her claim.
cycle to ensure that overall Agency interests are satisfied
                                                                      The former employee pled gUilty to the charge of forgery.
in a cost beneficial way.
                                                                      On June 26, 1984, the U.S. District Court sentenced her to
The Assistant Administrator's comments to the draft re-               1 to 3 years in prison (all but 30 days suspended) and 2
port were responsive to the recommendations. We are                   years of probation. She was also ordered to pay the Gov-
currently evaluating the action plan submitted in re-                 ernment $6,700 in restitution.
sponse to the final report.

Preaward Recommends
$2.5 Million Cost Avoidance                                            c.    Statistical Highlights
The OIG evaluated pricing data submitted in response to               The following table compares OIG activity and accom-
a GSA solicitation for general purpose ADP equipment.                 plishments within the OIRM to the overall GSA totals for
Estimated sales under the contract are $30 million.                   the period.




    Activity                                                                                 OIRM             All GSA
    Audit Reports Issued. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   61            392
    Recommended Cost Avoidance ............................ $136,936,793                                    $235,322,060
    Recommended Cost Recovery ............................                                       $75,000      $2,123,298
    Management Commitments to Avoid Costs ................... $48,890,767                                   $111,313,236
    Management Commitments to Recover Funds ................                                    $.194,225     $2,769,531
    Percentage of Recommended Cost
      Avoidance Agreed to by Management ......................                                   100             95
    Percentage of Recommended Cost
      Recovery Agreed to by Management ... . . . . . . . . . . . . . . . . . . .                  45             79
    Unresolved Audits Older Than 6 Months .....................                                    3             32
    New Investigative Cases .................................                                     29            430
    Criminal Referrals (Subjects) ..............................                                  14            240
    Civil Referrals (Subjects) ............ ,....................                                  1             14
    Administrative Referrals (Subjects) . . . . . . . . . . . . . . . . . . . . . . . . . .       10            376
    Suspension/Debarment Referrals (Subjects) ................. .                                                43
    Indictments/Informations/Complaints .......................                                    1             29
    Successful Prosecutions ....................... , . . . . . . . . .                            1             21
    Civil Settlements/Judgments ............................. .                                                  17
                                                                                                                                   13
     D. Significant Audits From                                    the contractor facility. The OIG believed these costs were
                                                                   attributable to payroll processing, while the OIRM con-
        Prior Reports                                              sidered these costs as allocable to several systems being
     The two unimplemented significant audits from prior           processed by the contractor.
     reports were resolved late in the reporting period. There-    With the impasse evident, the matter was referred to the
     fore, implementation information is not yet available.        Audit Followup Official who, on September 13, 1984, en-
                                                                   dorsed the OIRM position to move the payroll processing
     Review of the Manpower and                                    to the contractor facility, based upon his analysis of costs .
     Payroll Statistics System                                     and consideration of other management benefits to be
                                                                   gained from the transfer.
     Period First Reported: October 1, 1983 to March 31, 1984
                                                                   The OIG is currently preparing the formal resolution
     Our review of the Manpower and Payroll Statistics             document for signature.
     (MAPS) system concluded that $ 7 million could be saved
     over the system's 7-year life cycle if: (1) the ADP support
     for the personnel portion of the system was relocated to      Improvements Needed in Computer
     Kansas City; (2) the GSA ensured, through formal agree-       Security Program
     ment, that US. Air Force technical support of the system
                                                                   Period First Reported: October 1, 1983 to March 31, 1984
     would remain available for the system's life; and (3) the
     payroll portion of the system was processed in-house          This March 30, 1984 review found that GSA computer
     rather than at the planned contractor facility.               systems are highly susceptible to loss through fraud, mis-
                                                                   use, and disaster, especially fire. Accordingly, we made
     Recommendations (1) and (2) were adopted with ex-
                                                                   20 recommendations for corrective action.
     pected cost avoidances of about $4.2 million. However,
     the OIG and the Assistant Administrato:4 OIRM, could          On September 20, 1984, the OIG accepted management's
     not resolve the matter of where to process the payroll.       action plan for implementing the recommendations. Ac-
     The two offices held differing opinions regarding $2.8        cordingly, the audit is being referred to the Office of Audit
     million in cost allocations associated with the move to I     Resolution for tracking.




14
SECTION V -- FEDERAL PROPERTY
RESOURCES SERVICE
The Federal Property Resources Service (FPRS) manages the
Strategic and Critical Materials Stockpile, oversees all stock-
                                                                  B.' Significant Problems,
pile acquisitions and sales, and disposes of Government-              Abuses, Deficiencies, and
owned real property. In the second half of Fiscalli'ar 1984,          Recommendations
the FPRS obligated some $21.3 million in direct operat-
ing expense appropriations. During the same period, the
Stockpile Iransaction Fund obligated approximately $63.8
million.                                                          Excess Tin Sales
The OIG devoted some 386 direct staffhours pursuing five          The OIG reviewed FPRS practices and procedures for dis-
audit assignments within the FPRS. These levels of effort         posing of excess tin from the National Defense Stockpile.
represent less than 1 percent of both total direct staffhours     We found that the tin sales program does not conform to
and total work assignments.                                       the requirement for competitive disposals prescribed by
                                                                  the Strategic and Critical Materials Stock Piling Revision
                                                                  Act of 1979. Further, the potential market of tin consum-
                                                                  ers is not being fully penetrated by the FPRS.
                                                                  Currently, the FPRS announces a daily acceptance price
                                                                  prior to the receipt of offers. Contracts are awarded as the
                                                                  offers are received. Therefore, no competitive bidding is
A. Analysis of OIG Findings                                       involved. Moreover, the existence of the program is not
                                                                  well known. Many potential customers contacted by the
This period, the OIG concentrated its FPRS coverage on
                                                                  OIG were not aware of the daily sales program and ex-
transactions involving strategic and critical materials in
                                                                  pressed interest in participating. We believe that in-
the National Defense Stockpile. Our reviews disclosed
                                                                  creased consumer awareness, coupled with more
deviations from law; regulations, and internal pro-
                                                                  competitive practices, would increase the monetary ben-
cedures in both acquisition and disposal activities.
                                                                  efit to the Government arising from these sales.
These deviations obviously carry implications for the             In our June 8, 1984 report, we recommended that the
transactions already completed. However, they also un-            Acting Commissioner, FPRS, establish procedures to en-
derscore the need for decisive action to protect the Gov-         sure that the daily acceptance price is not announced
ernment in future transactions.                                   prior to the receipt of offers and that contracts are not
                                                                  awarded before the bid acceptance period ends. To in-
                                                                  crease program participation, we recommended that the
The OIG is particularly concerned by the deviations dis-
                                                                  Acting Commissioner survey the tin market to identify
closed in the bauxite acquisition program for which the
                                                                  potential purchasers and review the feasibility of selling
FPRS is the contracting authority. A review this period
                                                                  the tin in smaller lots. We also offered two recommenda-
disclosed violations of Federal Procurement Regulations
                                                                  tions to strengthen internal controls.
and internal contract clearance prpcedures on a 1982
bauxite procurement valued at $67.6 million. Depending            The Acting Commissioner agreed with our recommen-
on the requirements authorized by the Congress, the               dations. Resolution was achieved on August 14, 1984.
FPRS could be responsible for future bauxite acquisi-
tions of up to $475 million. Therefore, decisive action           1982 Bauxite Procurement
must be taken to ensure future compliance. The FPRS
has indicated its willingness to take these actions. We           The OIG evaluated the procedures used by the FPRS to
intend to follow up on this critical area.                        purchase 1.6 million tons of Jamaican bauxite valued at
                                                                  approximately $67.6 million. We found that the FPRS
                                                                  did not adhere to the Federal Procurement Regulations
Interestingly, an OIG audit within the Office of Comp-
                                                                  (FPRs) requirement to document negotiated procure-
troller (see Section VII for details) will have a beneficial
                                                                  ments. Moreover, the FPRS failed to obtain a preaward
effect on stockpile acquisitions during Fiscal Year 1985.
                                                                  contract clearance review from or submit the completed
The audit, which reviewed the National Defense Stock-.
                                                                  contract file to GSA's Office of Acquisition Policy. As a
pile 'fransaction Fund, found that accounting practices
                                                                  result, the contract file fails to explain why the final
for stockpile sales receipts were not in conformance with
                                                                  negotiated price of $42.24 per ton represents a fair and
legal opinions rendered by the GSA Office of General
                                                                  reasonable price to the Government. It also fails to in-
Counsel. As a result, we recommended that at least $19.9
                                                                  clude the rationale for deviating from usual procurement
million that was incorrectly deposited in the Mis-
                                                                  procedure~.
cellaneous Receipts Account of the u.s. 'freasury be re-
covered and deposited in the Stockpile 1tansaction Fund.          In our report dated June 7. 1984, we recommended that
Since the FPRS is currently projecting a $113 million             the Commissioner, FPRS, adhere to the FPRs when con-
shortfall in funds available to execute planned stockpile         tracting for stockpile commodities. We also recom-
acquisitions, this recovery will increase FPRS purchas-           mended that the Commissioner prepare a memorandum
ing power for these necessary stockpile materials.                of negotiation documenting the final negotiated price of       15
     the 1982 procurement and submit available documenta-       nation as to why no memorandum exists. Accordingly,
     tion to the Office of Acquisition Policy for postaward     resolution was achieved on August 14, 1984.
     contract clearance review.
     The Acting Commissioner generally agreed with our
     recommendations. He did, however, state that prepara-
     tion of the memorandum of negotiation would be diffi-
                                                                c~ Statistical Highlights
     cult since the current staff did not participate in the    The following table compares OIG activity and accom-
     negotiations. We believe that the Acting Commissioner's    plishments within the FPRS to the overall GSA totals for
     response, coupled with our audit report, provides expla-   the period.



         Activity                                                                   FPRS              All GSA
         Audit Reports Issued ................................... .          4                         392
         Recommended Cost Avoidance ........................... . $2,232,600                      $235,322,060
         Recommended Cost Recovery ........................... .                                    $2,123,298
         Management Commitments to Avoid Costs .................. .      $196,202                 $111 ,313,236
         Management Commitments to Recover Funds ............... .         $5,790                   $2,769,531
         Percentage of Recommended Cost
            Avoidance. Agreed to by Management .................... .      57                            95
         Percentage of Recommended Cost
          - Recovery Agreed to by Management ..................... .       87                            79
         Unresolved Audits Older Than6 Months .................... .                                     32
         New Investigative Cases ................................ .         1                           430
         Criminal Referrals (Subjects) ............................. .      1                           240
         Civil Referrals (Subjects) ................................ .                                   14
         Administrative Referrals (Subjects) ......................... .    7                          376
         Suspension/Debarment Referrals (Subjects) ................. .      4                           43
         Indictments/Informations/Complaints ...................... .       2                           29
         Successful Prosecutions ................................ .         3                           21
         Civil Settlements/Judgments ............................. .                                    17



     These statistics include three administrative referrals,   D. Significant Audits From
     two indictments, and three successful prosecutions in
     the donated property program, which was under the ju-         Prior Reports
     risdiction of the FPRS when the corresponding inves-
     tigative cases were initiated. The program is currently    All FPRS audits highlighted in prior Reports to the Con-
     managed by the FSS.                                        gress are fully implemented.




16
SECTION VI -- NATIONAL ARCHIVES AND
RECORDS SERVICE


The National Archives and Records Service (NARS) oversees
the storage and maintenance ofFederal records and the reten-
                                                                  B. Significant Problems,
tion and preservation of historical documents. In the second         Abuses, Deficiencies, and
half of Fiscal Year 1984, the NARS obligated an estimated            Recommendations
$50.6 million in direct operating expense appropriations.
During the same period, the NARS 1tust Fund obligated ap-
proximately $3.7 million.                                         hnprovements Needed at
The DIG expended 1,873 direct staffhours pursuing eight au-       Presidential Libraries
dit and investigative assignments within the NARS. These          Separate OIG reviews of the Hoover, 'Ih1man, and
levels of effort translate to just over 1 percent of both total   Eisenhower libraries identified that these facilities are
direct staffhours and work assignments.                           satisfactorily accomplishing their overall mission. How-
                                                                  ever, several aspects of library operations require im-
                                                                  proved internal controls. Specifically, we found that the
                                                                  NARS needed to improve controls over museum objects,
                                                                  library remittances, inventories of items sold by the li-
                                                                  braries, and physical security.
A. Analysis of OIG Findings                                       In our consolidated report dated September 28, 1984, we
                                                                  recommended that the Archivist of the United States re-
OIG audit coverage of the NARS this period focused upon           vise NARS procedures to require annual physical inven-
reviews of Presidential library operations. Individual au-        tories of "non-valuable" museum objects and obtain
dits of the Eisenhower, 'Ih1man, and Hoover libraries il-         deeds of gift from donors whenever museum objects are
lustrated a common need for improved controls over                deposited in the libraries. We further recommended that
library holdings as well as receipts from admissions and          the Archivist develop procedures requiring the libraries
sales. In addition, security over buildings, grounds, and         to use an independent method for determining paid mu-
library holdings needed improvement.                              seum admissions and reconcile the derived figure with
                                                                  actual receipts. Finally, we recommended actions to im-
Although we separately reported these findings to the             prove management of inventories held for sale and en-
cognizant NARS officials, their commonality suggested             hance security of the library buildings, grounds, and
that similar problems might exist at the four other Presi-        holdings.
dentiallibraries curreni:ly in operation. Our consolidated        We are awaiting the Archivist'S action plan for imple-
report, issued on September 28, 1984, is responsive to            menting these recommendations.
that possibility and recommends program-wide policy
changes.
                                                                  Recovery of Document Signed by
Our investigative efforts this period resulted in the loca-       President Jackson
tion and retrieval of two historical documents stolen             In October 1983, NARS officials advised the OIG that a
from the NARS. One was a letter handwritten by General            document bearing the handwritten endorsement and
Ulysses S. Grant to Edward M. Stanton, Secretary of War,          signature of President Andrew Jackson, dated May 27,
dated November 10, 1864. The other was a document                 1829, was missing and presumed stolen. The document
bearing the endorsement and signature of Andrew Jack-             related to the appointment of a lighthouse keeper.
son, dated May 27, 1829. The former was stolen in 1982
while the latter was stolen prior to 1974.                        OIG investigation disclosed that the document had been
                                                                  purchased in good faith by a private collector in June
                                                                  1974 from a dealer in Pennsylvania. The dealer could not
Another issue of immediate concern to the OIG, surfaced
                                                                  recall the circumstances of his purchase because it oc-
by our legislative and regulatory reviews, involves the
                                                                  curred over 10 years ago.
legislation separating the NARS from the GSA. While
the OIG has reserved comment on the intent of such                The collector voluntarily surrendered the document
legislation, we have repeatedly expressed the need for a          when advised that it was Government property.
separate OIG within an independent agency. In review-
ing S. 905 and H.R. 3987 this period, we noted that the
bills still did not provide for an Inspector General. We          c.   Statistical. Highlights
firmly believe that the Congress should take action to            The following table compares OIG activity and accom-
rectify this situation, even though the legislationseparat-       plishments within the NARS to the overall GSA totals for
ing the NARS has been enacted.                                    the period.                                                 17
         Activity                                                                        NARS         All GSA
         Audit Reports Issued ....................................... .                    4          392
         Recommended Cost Avoidance ............................... .                             $235,322,060
         Recommended Cost Recovery ................. :: ............. .                             $2,123,298
         Management Commitments to Avoid Costs ...................... .                           $111,313,236
         Management Commitments to Recover Funds .................... .                             $2,769,531
         Percentage of Recommended Cost
           Avoidance Agreed to by Management ......................... .                                  95
         Percentage of Recommended Cost
           Recovery Agreed to by Management ......................... .                                  79
         Unresolved Audits Older Than 6 Months ........................ .                                32
         New Investigative Cases ..................................... .                   5            430
         Criminal Referrals (Subjects) ................................. .                 2            240
         Civil Referrals (Subjects) ..................................... .                              14
         Administrative Referrals (Subjects) ............................. .               7            376
         Suspension/Debarment Referrals (Subjects) ..................... .                               43
         Indictments/Informations/Complaints ........................... .                               29
         Successful Prosecutions .................................... .                                  21
         Civil Settlements/Judgments ................................. .                                 17


     D. Significant Audits From                                 port contained eight recommendations; six are imple-
                                                                mented.
        Prior Reports                                           The remaining two recommendations involve: (1) adopt-
     According to GSA's audit resolution system, the OIG is     ing complete standards for all known environmental
     responsible for ensuring resolution of audit recommen-     conditions that can accelerate the deterioration of rec-
     dations, while the Office of Audit Resolution, Office of   ords and (2) developing cost estimates for bringing the
     Policy and Management Systems, is responsible for en-      National Archives Building up to the adopted standards
     suring implementation of resolved audit recommenda-        for temperature, humidity; particulates, and toxic gases.
     tions. That office therefore furnished the status          The original implementation date for both recom-
     information on implementation presented herein.            mendations was August 31, 1983. This date was renegoti-
     The one unimplemented audit from a prior Report to the     ated to October 31, 1983 and then to November 30, 1983.
     Congress is generally being implemented according to       The implementation date for the recommendation deal-
     established milestones.                                    ing with development of the standards and their submis-
                                                                sion to the American National Standards Institute
     Prompt Action Needed to Preserve                           (ANSI) was later renegotiated to September 30, 1984. As
     America's Recorded Heritage                                of September 30, 1984, the standards had been devel-
                                                                oped, but had not yet been submitted to the ANSI for
     Period First Reported: October 1, 1981 to March 31, 1982
                                                                approval. The implementation date for preparing cost
     This audit found inadequate preservation and protection    estimates was renegotiated to December 31, 1986 to al-
     of intrinsically valuable historical documents. The re-    low time for adoption of the standards by the ANSI.




18
SECTION VII -- OTHER GSA COVERAGE
Other GSA services and staff offices, such as the Office of        FMFIA certification and those undertaken as of March
Comptroller and the Office of Policy and Management Sys-           1984 for the 1984 certification.
tems, comprised the focus for the remainder of the OIG's
                                                                   On July 30, 1984, we issued the final audit report sum-
efforts this period. These other offices generally function to
                                                                   marizing the results of our review of the 1982-1983
support the administrative functions of the GSA.
                                                                   effort. We found that progress had been made in estab-
The OIGdevoted approximately 18,836 direct staffhours pur-         lishing the processes for evaluating controls, but the
suing 56 audit and investigative assignments within these          effort generally fell short of its intended goal because
other areas of the GSA. These figures reflect over 11 percent of   internal control reviews, a major part of the process,
total DIG direct staffhours and over 10 percent of all work        were not performed. We therefore recommended a series
assignments.                                                       of actions to the Associate Administrator for Policy and
                                                                   Management Systems to improve both the 1984 effort
                                                                   and the overall evaluation processes.
A. Analysis of OIG Findings                                        In responding to the report, the Director, Office of Over-
OIG coverage of the remaining areas of the GSA identi-             sight, agreed in principle with the recommendations
fied several significant yet diverse findings in various           contained in the draft report. We are awaiting manage-
Agency activities. While it is not possible to draw any            ment's action plan for implementing the final audit re-
overall conclusions, they are important enough to war-             port recommendations.
rant special focus.
                                                                   On May 24, 1984, we issued an audit report presenting
.A review of GSA efforts to implement the provisions of            the results of our review of 1984 FMFIA effort as of
 the Federal Managers' Financial Integrity Act during              March 1984. In it, we expressed our concern that insuffi-
 Fiscal Year 1983 showed positive, but limited progress in         cient progress in planning, training, and staffing activi-
 establishing the processes for evaluating internal con-           ties would result in evaluations that were not
 trols. Relative to actions leading to the December 31,            Significantly better than those achieved in 1983. We
 1983 certification, the effort partially met its intended         therefore recommended that the Director, Office of Over-
 goal.                                                             sight, finalize a detailed plan for accomplishing FMFIA-
A review of management actions taken as of March 1984              related activities and distribute it to the appropriate
in anticipation of the December 31, 1984 certification             Agency officials; develop and promptly implement train-
indicated that without immediate action the evaluations            ing plans for GSA managers with FMFIA respon-
would not improve significantly over those performed in            sibilities; issue a handbook containing guidance on
1983. We therefore attempted to focus management's at-             conducting internal control reviews as soon as possible;
tention on the need for early planning and training of             and reconsider staffing requirements associated with
the program staff.                                                 FMFIA activities in light of the considerable respon-
                                                                   sibilities involved and the limited time to accomplish
A review of microcomputer use in the GSA disclosed that            them.
unauthorized duplication of software has potentially
placed the GSA in the position of being liable for                 Management's action plan for the May 24, 1984 report
damages. While the extent of this problem nationwide is            was responsive to our recommendations.
still undetermined, 91 unauthorized copies were found
in two GSA regions. Through a letter report, the OIG               Unauthorized Duplication
brought this matter to the immediate attention of appro-           of Software
priate officials so that the problem can be quickly defined
and rectified and further liabilities avoided.                     An OIG review of the acquisition, use, and management
                                                                   of microcomputers in two GSA regions identified numer-
Finally; we identified at least $19.9 million that the GSA         ous unauthorized copies of microcomputer software. We
should recover from the Miscellaneous Receipts Account             found that the regions, in direct violation of licensing
of the u.s. 1teasury in light of a recent legal opinion. This      agreements with software vendors, duplicated copy-
finding will enhance the financial posture of the Na-              righted software purchased for use on specific micro-
tional Defense Stockpile 1tansaction Fund.                         computers. We identified a total of 91 unauthorized
                                                                   copies that had been made from 43 authorized versions.
B. Significant Problems,                                           Since use of these programs on other computer equip-
   Abuses, Deficiencies, and                                       ment is a violation of contract terms and a potential in-
                                                                   fringement on copyrights, the GSA could be held liable
   Recommendations                                                 for damages. We therefore issued a letter report on Sep-
                                                                   tember 21, 1984 to bring this information to the immedi-
Implementation of the Federal                                      ate attention of the Associate Administrator, Office of
                                                                   Policy and Management Systems, for corrective action
Managers' Financial Integrity Act                                  nationwide. We recommended that the Associate
The Federal Managers' Financial Integrity Act (FMFIA)              Administrator inventory microcomputer software
requires the GSA to provide reasonable assurance on the            throughout the GSA to identify any other unauthorized
adequacy of its internal controls. This period, the OIG            copies; impound all unauthorized copies and notify each
issued separate reports on GSA efforts leading to its 1983         affected vendor; attempt to negotiate settlements with       19
     the affected vendors; and issue a policy statement pro-      ion, at least $19.9 million i1i1 stockpile receipts were .
     hibiting the unauthorized copying and use of licensed        incorrectly deposited in the Miscellaneous Receipts Ac-
     software. We also provided information to the cognizant      count of the U.S. Treasury instead of being deposited in
     officials within the regions where the disclosures were      the Stockpile Transaction Fund.
     made. Corrective action is being taken in those specific
                                                                  In our September 28, 1984 report, we recommended that
     regions.                                                     the Comptroller recover the $19.9 million. We also rec-
     We are awaiting the Associate Administrator's response       ommended that the Comptroller review other stockpile
     to the report.                                               sales contracts to identify similar incidences where re-
                                                                  ceipts may have been incorrectly deposited to the Mis-
                                                                  cellaneous Receipts Account.
     Accounting for
                                                                  We are awaiting the Comptroller's response to this
     Stockpile Sales Receipts                                     report.
     Based upon a recent legal opinion rendered by GSA's Of-
     fice of General Counsel and an earlier audit of
     accounting practices relative to the National Defense
                                                                  c.   Statistical Highlights
     Stockpile Transaction Fund, the DIG reviewed Office of       The following table compares DIG activity and accom-
     Comptroller methods for accounting for stockpile re-         plishments in other GSA areas to the overall GSA totals
     ceipts. We found that in light of this revised legal opin-   for the period.


         Activity                                                                   Other GSA           All GSA
         Audit Reports Issued ................................... .                    16               392
         Recommended Cost Avoidance ........................... .                   $265,406        $235,322,060
         Recommended Cost Recovery ........................... .                     $48,702          $2,123,298
         Management Commitments to Avoid Costs .................. .                                 $111,313,236
         Management Commitments to Recover Funds ............... .                                    $2,769,531
         Percentage of Recommended Cost
           Avoidance Agreed to by Management .................... .                       o                95
         Percentage of Recommended Cost
           Recovery Agreed to by Management ..................... .                                        79
         Unresolved Audits Older Than 6 Months .................... .                     2                32
         New Investigative Cases ................................ .                      50               430
         Criminal Referrals (Subjects) ............................. .                   24               240
         Civil Referrals (Subjects) ................................ .                    2                14
         Administrative Referrals (Subjects) ......................... .                 47               376
         Suspension/Debarment Referrals (Subjects) ................. .                                     43
         Indictments/Informations/Complaints ...................... .                     1                29
         Successful Prosecutions ................................ .                       3                21
         Civil Settlements/Judgments ............................. .                      1                17


     D. Significant Audits From
        Prior Reports
     All significant audits from prior Reports to the Con-
     gress falling within these other GSA areas are fully
     implemented.




20
SECTION vm -- STATISTICAL SUMMARY
OF OIG ACCOMPLISHMENTS



The previous sections of this report analyzed OIG activity and    on these and prior referrals, management debarred 38
accomplishments by GSA service and staff office. In the pages     contractors, suspended 6 contractors, reprimanded 43
that follow, overall DIG accomplishments are comprehen-           employees, suspended 26 employees, terminated 23 em-
sively reported. 1b facilitate cross-referencing, the GSA orga-   ployees, and demoted 2 employees.
nizational orientation is maintained in these summary             The following subsection presents detailed information
statistics. However, there is not a one-to-one correspondence     on these and other quantifiable accomplishments.
between the data reported by GSA organization and the over-
all statistics, because a portion ofour work involved non-GSA
operations.
                                                                  B. Summary Statistics
                                                                  The statistics presented herein reflect favorably upon
                                                                  OIG performance during the period. Relative to audit
                                                                  activity, although the number of reports issued was
A. OIG Accomplishments                                            somewhat less than last period (396 versus 423), this
During the reporting period, the OIG issued 396 reports,          decrease was offset by appreciable gains in the number of
including 46 audits performed for the OIG by another              implementation reviews performed (24 versus 3).
agency. These reports contained financial recommenda-
                                                                  Total recommended cost avoidance and recovery more
tions totaling $237,445,358, including $235,322,060 in
                                                                  than doubled over the last period. Most of this increase
recommendations for more efficient use of resources
                                                                  involved recommendations for cost avoidance contained
(cost avoidance) and $2,123,298 in recovery recommen-
                                                                  in contract audits performed within the FSS and the
dations. These statistics include cost recommendations
                                                                  OIRM. For the most part, the data reflect the increased
of $50,198 made last period, but inadvertently not
                                                                  preaward coverage of the MAS programs within both
reported.
                                                                  areas.
Based on audit reports issued in this and prior periods,
                                                                  Relative to audit resolution during the period, the
management committed itself to use $ Ill, 326,897 more
                                                                  number of unresolved reports more than 6 months old
effiCiently and to recover $3,500,016. This latter figure
                                                                  decreased slightly from last period (32 versus 38). Nota-
includes $1,075,000 reSUlting from a civil settlement that
                                                                  bly; PBS audits accounted for 19 of the 32 unresolved
involved audit collaboration with the Offices of Inves-
                                                                  audits.
tigations and Counsel to the IG. OIG effort also contrib-
uted to an unsolicited recovery of $1,298,123 from a              Investigative statistics reflect increases in the number of
contractor.                                                       cases opened, criminal cases referred for prosecution,
                                                                  and cases accepted for prosecution. Likewise, the
The OIG opened 430 investigative cases and closed 425.
                                                                  number of contractor debarments resulting from ad-
We referred 127 cases (240 subjects) for prosecutive con-
                                                                  ministrative referrals doubled, while personnel actions
sideration, II cases (14 subjects) for litigation decision,
                                                                  involving GSA employees rose sharply.
and 23 cases for further investigation by other Federal or
State agencies. Based on these and prior referrals, 37            In several instances, investigative data for the beginning.
cases (46 subjects) were accepted for criminal prosecu-           of the period do not correspond to the end-of-period sta-
tion and 10 cases (13 subjects) were accepted for civil           tistics contained in our last report. These differences re-
litigation.                                                       sulted from reconciliation of the automated data.
Criminal cases originating from OIG referrals resulted in
21 indictments/informations/complaints and 21 suc-
cessful prosecutions. Civilly, judgments were entered in 5        1. Audit Reports Issued
cases (15 subjects) and settlements were reached in 2
                                                                  Table 1 summarizes OIG audit reports issued this period
cases (2 subjects). These actions resulted in determina-
                                                                  by GSA program area. The table includes 46 audits, rec-
tions that $4,768,269 is owed the Government. This fig-
                                                                  ommending a total cost avoidance of $37,267,016, per-
ure includes $1,075,000, also reported as a management
                                                                  formed for the GSA OIG by the Defense Contract Audit
commitment to recover funds, that resulted from collab-
                                                                  Agency. It also includes recommended cost avoidance of
orative effort with the Office of Audits.
                                                                  $46,878 and recommended cost recovery of$3,320 inad-
We referred 304 cases to GSA management for admin-                vertently omitted from our financial recommendations
istrative action. This total includes 20 case referrals (43       last period. Excluding the recommendations omitted
subjects) for suspension/debarment and 284 case refer-            from our last report, our total recommended cost avoid-
rals (376 subjects) for other administrative actions. Based       ance and recovery for the period is $237,395,160.             21
                                   Table 1. Summary of OIG Audits
                                              Percentage    Recommended       Recommended
     GSA                           Reports      of Total        Cost              Cost
     Program                       Issued       Audits        Avoidance         Recovery
     PBS
     -Internal .............         95                     $ 13,638,907       $ 754,001
     -Contract · ...........        113                       25,149,044        1,052,524
                                   --
                                    208           53        $ 38,787,951       $1,806,525
     FSS
     -Internal .............         17                     $                  $
     -Contract · ...........         82                          57,099,310        193,071
                                   --
                                     99           25        $ 57,099,310       $ 193,071
     OIRM
     -Internal .............          3                     $                  $
     -Contract · ...........         58                         136,936,793         75,000
                                     61           15        $136,936,793       $    75,000
     FPRS
     -Internal .............          3                     $                  $
     -Contract · ...........          1                           2,232,600
                                      4            1        $     2,232,600    $
     NARS
     -Internal .............          4                     $                  $
     -Contract · ...........
                                      4            1        $                  $
     Other GSA
     -Internal .............         15                     $                  $   48,702
     -Contract · ...........          1                             265,406
                                     16            4        $       265,406    $   48,702
     Non-GSA
     -Internal .............          4                     $                  $
     -Contract ............
                                      4            1        $                  $

     TOTAL ...........   '"   ..    396          100        $235,322,060       $2,123,298

     TOTAL COSTS
     RECOMMENDED     $237,445,358




22
2. Audit Reports Resolved                                              The table also identifies for the first time audit reports
                                                                       temporarily exempted from the 6-month requirement
Table 2 summarizes the universe of audit reports to be                 for audit resolution because the audit findings are under
resolved this period. The opening data for the period                  investigation. Since two reports issued this period are
shown as "Reports To Be Resolved as of 4/1/84," differ                 under investigation and the four reports in Table 1 involv-
from the closing data reported at the end of the last                  ing non-GSA programs are not subject to GSA's audit res-
period. Adjustments were necessitated by an in-depth                   olution system, the data for "Reports Issued This Period"
reconciliation performed when automating the data.                     do not correspond exactly to the data in Table 1.




                                          Table 2. Resolution of OIG Audits
                                                                           Reports With                      Total
                                                           No. of            Financial                     Financial
                                                          Reports        Recommendations               Recommendations

    Reports To Be Resolved as of 4/1/84
    - Less than 6 months old ............                    169                   138                    $102,009,980
    -More than 6 months old* ...........                      44                    40                      15,778,630
    Reports Issued This Period ...........                   390                   195                     237,270,713
                                                                                   -
    TOTAL TO BE RESOLVED              ...........            603                   373                    $355,059,323
    Reports Resolved
    -Issued prior periods* ..............                    181                   150                    $ 98,945,373
    -Issued current period .............                     245                    96                      97,142,385
    TOTAL RESOLVED .................                         426                   246                    $196,087,758
    Unresolved as of 9/30/84
    - Less than 6 months old ............                    145                       99                 $140,128,328
    - More than 6 months old ...........                      32                       28                   18,843,237
    TOTAL UNRESOLVED             ..............              177                   127                    $158,971,565
    Reports Not Subject
    to 6-Month Resolution
    -Issued prior periods ..............                        5                      5                  $    2,373,200
    -Issued current period .............                        2                      2                         124,447
    TOTAL NOT SUBJECT TO 6-MONTH
    RESOLUTION .....................                            7                      7                  $    2,497,647

    "Includes a report resolved during the last period, but inadvertently not reported. The audit recommended a cost avoidance of
     $6.5 million.




                                                                                                                                     23
     3. Resolution Decisions on
        Financial Recommendations                                     In accordance with GSA Order ADM 2030.2A, resolu-
     Table 3 provides detailed information on the 246 audits          tion decisions on financial recommendations contained
     involving financial recommendations of $196,087,758              in contract audit reports result in resolved cost avoidance
     identified in Table 2 as being resolved this period. Nota-       or recovery. Management commitments occur at the
     bly, $175,292,529 or approximately 89.4 percent was up-          time of contract settlement. For internal audits, manage-
     held in the audit resolution process.                            ment commitments occur at the time of resolution.



                                        Table 3. Resolution Decisions on OIG Audits
                                         Recommended              Resolved          Recommended               Resolved
         GSA                                 Cost                   Cost                Cost                    Cost
         Program                           Avoidance              Avoidance           Recovery                Recovery
         PBS
         -Internal ...... " ..            $ 46,924,058       $ 46,514,058              $    81,577           $    92,653
         -Contract .........                19,691,452         15,920,447                  824,645               596,260
                                          $ 66,615,510       $ 62,434,505              $ 906,222             $ 688,913
         FSS
         -Internal ..........             $      129,000     $       129,000           $     2,620           $     1,620
         -Contract .........                  52,458,475          48,186,653               381,079               353,845
                                          $ 52,587,475       $ 48,315,653              $ 383,699             $ 355,465
         OIRM
         -Internal ..........             $ 37,878,000       $ 37,932,000              $ 178,000             $ 137,000
         -Contract .........                37,026,846         25,149,311                 95,488                83,480
                                          $ 74,904,846       $ 63,081,311              $ 273,488             $ 220,480
         FPRS
         -Internal ..........             $                  $                         $                     $
         -Contract .........                    346,518              196,202
                                          $     346,518      $       196,202           $                     $
         NARS
         -Internal ..........             $                  $                         $                    $
         -Contract .... '" ..
                                          $                  $                         $                    $
         Other GSA
         -Internal ..........             $      70,000      $                         $                    $
         -Contract .........
                                          $      70,000      $                         $                    $

         TOTAL ........        "   ..     $194,524,349       $174,027,671              $1,563,409           $1,264,858

         TOTAL
         RESOLVED COSTS            $175,292,529




24
4. Contract Audit Settlements                                           tinction is drawn between audits issued in the current
                                                                        period and prior periods.
Table 4 summarizes contract audit settlements by GSA
program area through a comparison of costs resolved in                  In addition to the amounts shown in Table 4, OIG effort
the audit resolution process and management commit-                     contributed to an unsolicited recovery of $1,298,123
ments achieved in negotiations with contractors. A dis-                 from a contractor.


                              Table 4. Summary of Contract Audit Settlements
                                                                Avoidance                            Recovery
    GSA                               No. of              Costs       Management                Costs     Management
    Program                          Reports             Resolved     Commitment               Resolved   Commitment
    PBS
    -Prior ............                  82          $ 7,221,934         $ 6,785,430          $ 358,538         $ 369,768
    -Current ..........                  20            1,364,863           1,227,823
                                       102           $ 8,586,797         $ 8,013,253         $ 358,538          $ 369,768
    FSS
    -Prior . " .........                 47          $ 6,936,789         $ 6,933,880         $2,829,735         $2,105,475
    -Current ..........                   9              647,742             636,076
                                         56          $ 7,584,531         $ 7,569,956         $2,829,735         $2,105,475
    OIRM
    -Prior ............                  11          $ 3,889,956         $ 3,889,956         $ 236,683          $    57,225
    -Current ..........                   5            7,293,504           7,068,811
                                         16          $11,183,460         $10,958,767         $ 236,683          $    57,225
    FPRS
    -Prior .... " ......                  2          $     196,202       $        196,202    $      6,659       $      5,790
    -Current ..........
                                          2          $     196,202       $        196,202    $      6,659       $      5,790

    SUBTOTAL - GSA                     176           $27,550,990         $26,738,178         $3,431,615         $2,538,258*
    Non-GSA
    -Prior ............                   2          $      13,661       $         13,661    $1,218,274         $ 730,485
    -Current ..........
    SUBTOTAL-
    NON-GSA ...........                   2          $      13,661       $        13,661     $1,218,274         $ 730,485

    TOTAL      '"   .........          178           $27,564,651         $26,751,839         $4,649,889         $3,268,743*

    TOTAL
    MANAGEMENT
    COMMITMENTS             $30,020,582*

    'Includes $1.075,000 also reported under monetary results of civil actions.


Drawing upon the information presented in Tables 3 and                  period April 1, 1984 through September 30, 1984 were
4, audits involving GSA programs resulted in total man-                 not available. However, between January 1, 1984 and
agement commitments to avoid $111,313,236 and to re-                    June 30, 1984, $11,850,000 was recovered as a result of
cover $2,769,531. Adding the management commit-                         OIG audits and deposited in the Treasury.
ments on audits involving non-GSA programs, GSA OIG
internal and contract audits resulted in total manage-
ment commitments to avoid $111,326,897 and to recover                   6. Audit Followup
$3,500,016.                                                             GSA Order ADM 2030.2A places primary responsibility
                                                                        for followup on the implementation of resolved audit
    Recoveries                                                          recommendations with the Audit Followup Official. The
                                                                        Office of Audit Resolution, Office of Policy and Manage-
GAO recently recommended that OIG Reports to the
                                                                        ment SystelJJ,l>, acts as staff to the Audit Followup Official
Congress include data on actual monetary recoveries in
                                                                        in this function.
addition to management commitment information. Al-
though such a requirement has not yet been instituted,                  The OIG performs its own independent reviews of imple-
the GSA OIG requested data on actual audit recoveries                   mentation actions on a test basis. This period, the OIG
from GSM Office of Audit Resolution. Data for the                       performed 24 implementation reviews. Management                  25
     had ,successfully implemented all of the recommenda-          In our implementation review dated August 1, 1984, we
     tions included in 15 of these reviews; in two reviews, we     requested a revised action plan for this recommendation.
     had to defer judgment on some of the recommendations          The action plan is due October 30, 1984.
     because evaluation was not possible at the time of the
     review. The seven instances where our recommenda-             Account Analysis and Verification of the
     tions were not implemented are described in the follow-       Federal Buildings Fund
     ing paragraphs.
                                                                   The DIG reviewed the management actions taken in re-
     Unauthorized Use of Government                                sponse to our August 4, 1983 report disclosing that
                                                                   accounting procedures do not always follow generally
     Property at a Federal Office Building                         accepted accounting procedures. The implementation
     The OIG evaluated the management actions taken in re-         review found that implementation action for nine rec-
     sponse to our April 23, 1984 report disclosing unauthor-      ommendations adhered to the action plan, but action on
     ized use of Government property at a Federal building.        three recommendations deviated from the action plan.
     The review disclosed that implementation action had
                                                                   The Regional Administrator's action plan indicated that
     been successfully completed on one recommendation,
                                                                   action would be taken by September 6, 1983 to ensure
     but action on the second recommendation deviated from
                                                                   that cupboard stock items were inventoried and their
     the action plan.
                                                                   location identified; a wall-to-wall inventory would be
     The Regional Administrator's action plan indicated that       taken in October 1983 of all operating equipment; and
     Regional Counsel would send a letter to the parking lot       action had already been taken to provide Finance with
     owner to prevent continued unauthorized use of the            documentation to support the costs of GSA-owned prop-
     Government property. The letter was not sent. Instead, a      erties. Our review found that the inventory lists had not
     regional PBS official advised a representative of the park-   been reviewed to determine if stock locations were re-
     ing lot to stop parking vehicles on Government property.      corded; wall-to-wall inventories were not taken in at
     Unauthorized usage was still evident at the time of the       least three instances; and all the necessary documenta-
     implementation review.                                        tion had not been provided to Finance.
     In our implementation review dated August 28, 1984, we        In our September 6, 1984 implementation review; we re-
     requested a revised action plan from the Regional Ad-         quested a revised action plan for these recommenda-
     ministrator. The Regional Administrator responded             tions. The action plan is due December 5, 1984.
     with a revised action plan indicating that the letter was
     sent on August 16, 1984. This action satisfied the require-   Cash Management Practices
     ment of the recommendation.
                                                                   The DIG evaluated management actions to implement
     Region 9 Repair and Alteration Program                        the recommendations in our August 12, 1983 report dis-
                                                                   closing inadequate controls over cash receipts. We found
     An OIG review of the management action taken in re-           that implementation adhered to the action plan for three
     sponse to four recommendations contained in our               recommendations, but action on one recommendation
     June 24, 1983 report disclosed that one recommendation        had not been successfully completed.
     had not been implemented in accordance with the ac-
     tion plan. The action plan called for scheduling the cor-     The Regional Administrator's action plan indicated that
     rection of a minor electrical problem in the fourth           steps would be taken to separate check handling duties.
     quarter of Fiscal Year 1983. As of August 6, 1984, the        Our review showed that the procedures do not ade-
     problem still existed.                                        quately separate these duties. In addition, we found that
                                                                   actions were incomplete relative to the use of prenum-
     In our implementation review dated August 27, 1984, we        bered receipt forms.
     requested a revised action plan providing for the correc-
     tion of the electrical problem. We are awaiting the Re-       In our implementation review dated September 18, 1984,
     gional Administrator's response.                              we requested a revised action plan for this recommenda-
                                                                   tion. The action plan is due December 17, 1984.
     Vendor Payments
                                                                   Federal Protective Service
     The OIG evaluated management actions taken in re-
     sponse to the recommendations contained in our
                                                                   Division Operations
     October 24, 1983 report of vendor payments. The orig-         The DIG evaluated management's implementation of
     inal audit found that internal control weaknesses made        corrective action in response to our January 13, 1983
     it possible for unauthorized individuals to establish fic-    audit of the Federal Protective Service Division. Our re-
     titious vendor accounts. Our implementation review dis-       view found that implementation action was in accor-
     closed that management had successfully implemented           dance with the action plan for 12 recommendations, but
     four recommendations, but action on the fifth recom-          action did not adhere to the plan for the remaining 3
     mendation was not in accordance with the action plan.         recommendations.
     The Regional Administrator's action plan indicated that       The Regional Administrator's action plan stated that a
     forms for adding new vendor names to the file of autho-       program would be implemented to accomplish physical
     rized vendors would contain evidence of supervisory ap-       security surveys and crime prevention assessments; a
     provaL Our review indicated no evidence of supervisory        maintenance program would be implemented (con-
     approval on GSA Form 2044, Vendor Address Master              tingent upon fund availability); and responsibilities for
26   Change.                                                       occupant emergency plans would be performed. Our re-
view found that the physical security survey and crime            ing branch. Our implementation review found that only
prevention program had not been implemented due to a              13 of 48 appraisals were submitted to the appraisal staff
personnel shortage; the maintenance program had not               during the period reviewed.
been implemented pending resolution of funding for
                                                                  In our implementation review dated September 19, 1984,
Fiscal Year 1985; and 288 of 732 occupant emergency
                                                                  we requested a revised action plan covering this defi-
plans had not been reviewed due to a personnel shortage.
                                                                  ciency. We are awaiting management's response.
In our implementation review dated September 4, 1984,
we requested a revised action plan covering these defi-
ciencies. We received a responsive action plan.                   7. Investigative Workload
                                                                  The investigative workloadtemained relatively constant
Regional Appraisal Staff                                          as compared with the last reporting period. The OIG
The OIG reviewed management action on the recom-                  opened 430 cases and closed 425 cases; only 34 of these
mendations contained in our June 8, 1983 report on a              cases were administratively closed without referral.
regional appraisal staff. Our review disclosed that imple-        Detailed information on investigative workload by case
mentation was in accordance with the action plan for              category is presented in Table 5. In addition to these
four recommendations, but action had not been com-                cases, the OIG received and evaluated 158 complaints/
pleted on one recommendation.                                     allegations from sources other than the Hotline that in-
The Regional Administrator's action plan stated that ac-          volved GSA employees and programs. Based upon an
tion had been taken to establish controls providing for           analysis of these allegations, formal investigations were
appraisal staff review of appraisals prepared by the leas-        not warranted.



                                         Table 5. Investigative Workload
     Case                                         Cases Open            Cases           Cases         Cases Open
     Category                                          4/1/84          Opened           Closed           9/30/84
    White Collar Crimes · ............                  274              204              166              312
    Other Crimes in GSA-Controlled
    Space ........................                      127               88              101              114
    Contractor Suspension/Debarment ..                   36               16               20                32
    Employee Misconduct ...........                         72            82               83                71
    Other ........................                       49               40               55                34
                                                                                                           -
    TOTAL .......................                       558              430              425              563


Table 6 distributes the 430 new investigative cases
opened this period (Table 5) by case category and GSA
program area.



                          Table 6. Distribution of Cases Opened This Period
    Case                                                                                                     Other
    Category                                       PBS           FSS       OIRM        FPRS        NARS      GSA
                                                   --            --
    White Collar Crimes · . . . . . . . . . .
                                   ~      ~            80         84         18           1                       21
    Other Crimes in GSA-Controlled
    Space .......... · ..... , .......                 41         42             1                   2             2
    Contractor Suspension/Debarment ...                 9          7
    Employee Misconduct ., ....... ' "                 47         16             9                   1             9
    Other ... .....................                    11          8             1                   2            18
                                                   -                         -
    TOTAL    ...... , .....    "   "   ........    188           157         29          1           5            50




                                                                                                                              27
     8. Referrals                                                   The status of OIG administrative referrals is as follows:
     The OIG makes three types of referrals to officials outside                                                 Cases Subjects
     GSA: criminal, civil, and investigative. During the              Pending Decision
     period, we referred 127 cases involving 240 subjects to          as of 4/1/84 .............             . 72              87
     the Department of Justice or other authorities for pros-         Referrals ...............              . 284            376
     ecutive consideration. The status of OIG criminal refer-         Actions Completed ........             . 271            347
     rals is as follows:                                              Pending Decision
                                                                      as of 9/30/84 ............             .     85         116
                                                  Cases Subjects
       Pending Prosecutive Decision                                 Of the 284 cases referred for administrative action this
       as of 4/1/84 ..............                  61    100       period, 175 cases (232 subjects) involved GSA employees.
       Referrals ................                  127    240       As a result of these and prior referrals, management took
       Declinations ......... . . . . .             72    117       the following actions against GSA employees:
       Accepted for Prosecution . . . .             37     46
       Pending Prosecutive Decision                                   Reprimands ........................... 43
       as of 9/30/84 ............ .                 79    177         Suspensions .......................... 26
                                                                      Terminations .......................... 23
     The OIG also referred 11 cases involving 14 subjects to          Demotions . . . . . . . . . . . . . . . . . . . . . . . . . . .. 2
     either the Civil Division -of the Department of Justice or a
     U.S. Attorney for litigation consideration. These referrals
     could potentially result in civil recoveries of almost $12.5   10. Contractor Suspensions and
     million. The status of OIG civil referrals is as follows:
                                                                        Debarments
                                                  Cases Subjects
                                                                    The OIG continued its efforts to make the suspension
       Pending Litigation Decision
                                                                    and debarment process a more effective and more read-
       as of 4/1/84 ......... . . . . .             21     28       ily used administrative procedure. This period, the OIG
       Referrals ................                   11     14
                                                                    referred 2 cases involving 5 subjects for suspension and
       Declinations . . . . . . . . . . . . . .      9     12       18 cases involving 38 subjects for debarment. As a result
       Accepted for Litigation . . . . . .          10     13       of these and prior referrals, management imposed 6 sus-
       Pending Litigation Decision                                  pensions and 38 debarments. Three suspensions and 2
       as of 9/30/84 .............                  13     17       debarments were disapproved.
     For the 13 cases involving 17 subjects pending at the close    The status of OIG suspension and debarment referrals is
     of the period, total potential recoveries are over $ 7 mil-    as follows:
     lion.                                                            Suspensions                          Cases Subjects
     The OIG made 23 case referrals to other Federal or State         Pending as of 4/1/84 .......            4     14
     agencies for further investigation or other appropriate          Referrals ................             ,2      5
     action.                                                          Action Completed . . . . . . . . . .    3      9
                                                                      Pending as of 9/30/84                   3     10
     9. Administrative Referrals and                                  Debarments                           Cases Subjects
        Actions Involving GSA                                         Pending as of 4/1/84 .......           10     28
        Employees                                                     Referrals ................             18     38
                                                                      Action Completed . . . . . . . . . .   15     40
     Frequently, OIG investigations disclose nonprosecutable          Pending as of 9/30/84 ......           13     26
     wrongdoing on the part of GSA employees, contractors,
     or private individuals doing business with the GSA. The
     OIG refers these cases to GSA officials for administrative     11. Summary of Referrals by GSA
     action.                                                            Program Area
     During the period, we referred 284 cases involving 376         Table 7 summarizes OIG referrals this period by GSA
     subjects for administrative action. In addition, we re-        program area. The data reflect the number of subjects
     ferred 155 cases involving 188 subjects to GSA officials       referred for criminal, civil, administrative. and suspen-
     for informational purposes only.                               sion/debarment actions.




28
                                 Table 7. Summary of OIG Subject Referrals
    GSA                                                                                    Adminis-      Suspension!
    Program                                               Criminal          Civil           trative      Debarment
    PBS .. '" . " . . . . . . .. . . .. . .. . . . . .        91              7              199               21
    FSS ............................                         108              4              106               18
    OIRM ...........................                          14              1               10
    FPRS ...........................                           1                               7                  4
    NARS .................... '.. . ....                       2                               7
    Other GSA .......................                         24              2               47
                                                                                             -
    TOTAL..........................                          240             14              376               43


12. Criminal and Civil Actions
                                                                     reached in 2 cases involving 2 subjects, while judgments
Cases accepted for criminal prosecution during this and
                                                                     were entered in 5 cases involving 15 subjects.
prior periods resulted in 21 indictments/informations/
complaints and 21 successful prosecutions. Civil referrals           Table 8 summarizes individual criminal and civil actions
from this and prior periods resulted in civil complaints             by GSA program area. In addition, there were 11 unsuc-
involving 8 individuals. In addition, settlements were               cessful civil actions against 13 subjects.



                              Table 8. Summary of Criminal and Civil Actions
                                                         Indictments!
    GSA                                                  Informations!           Successful           Settlements!
    Program                                               Complaints            Prosecutions           Judgments
    PBS .........................                .            13                       9                    15
    FSS .........................                .            12                       5                      1
    OIRM ........................                .             1                       1
    FPRS ........................                .             2                       3
    NARS ........................                .
    Other GSA ....................               .             1                       3                      1
    TOTAL ....................... .                           29                      21                    17


13. Monetary Results
Table 9 presents the amounts determined to be owed the               In addition, the OIG identified for recovery $190,222 in
Government as a result of criminal and civil actions. The            Government money and/or property during the course
amounts do not necessarily reflect actual monetary re-               of its investigations.
coveries.


                                    Table 9. Criminal and Civil Recoveries
                                                              Criminal                 Civil               Total
    Fines and Penalties. . .............. .                   $117,200              $2,055,731          $2,172,931
    Settlements and Judgments .......... .                                           2,473,281           2,473,281
    Restitutions ...................... .                      122,057                                     122,057
    TOTAL .......................... .                        $239,257              $4,529,012*         $4,768,269*

    'Includes $1,075,000 also reported as a management commitment to recover funds.



14. OIG Subpoenas                                                    tions when other reasonable measures fail. During the
The OIG views the use of subpoenas to be an effective                period, 15 instances met this criterion and OIG sub-
tool for obtaining information for audits and investiga-             poenas were issued.


                                                                                                                                29
     SECTION IX -- REVIEW OF LEGISLATION
     AND REGULATIONS
     The OIG is mindful of the ilnportance of its legislated respon-      upon Federal law enforcement officers and their
     sibility to review existing and proposed legislation and             families. We strongly supported this bill, noting
     regulations. Such reviews constitute an important vehicle for        that Federal Protective Officers and OIG criminal
     making recommendations that will increase economy and                investigators were included among the Federal law
     efficiency in Government operations as well as prevent fraud         enforcement officers covered by the bill.
     and abuse.
                                                                       .. H.R. 5150, a bill to provide criminal sanctions for
                                                                          attacks upon certain Federal officers and em-
                                                                          ployees. We strongly supported enactment of this
     A. LegislationlRegulations                                           legislation.
        Reviewed                                                       .. 41 C.F.R. §10l-2.300 et seq., GSA regulations to im-
     During the period, the OIG reviewed 185 legislative mat-             plement the Debt Collection Act. We generally
     ters and 178 regulatory initiatives relating to the                  agreed with the regulations, but recommended in-
     economy and efficiency of Government operations and                  clusion of language providing for OIG concurrence
     the prevention of fraud and abuse. The OIG legal staff               on collections involving dishonored checks or other
     primarily performed the legislative reviews, seeking in-             negotiable instruments.
     put from the other components as appropriate, while all           .. H.R. 5616, a bill to provide criminal penalties for
     OIG staff offices shared the responsibility for regulatory           fraud involving access devices and computers. We
     reviews.                                                             supported this measure as an aid in combatting the
                                                                          growing problem of computer fraud.
     B. Significant Comments                                           .. H.R. 4681, a bill to impose limitations on Federal
                                                                          agency use of polygraph examinations and require-
     The OIG provided significant comments on the follow-
     ing legislative and regulatory matters:                              ments for prepublication review. We agreed that
                                                                          limitations on the general use of such measures
       • H.R. 595, a bill to substitute the Government as the             would protect against inappropriate use, while not
         exclusive defendant in constitutional tort cases. We             adversely affecting OIG operations.
         opposed this legislation because certain provisions
                                                                       • S. 2489, a bill to enhance competition in Govern-
         allowed jury trials, punitive damages, and attorney
                                                                         ment procurement. We questioned the need for this
         fees in cases of actionable misconduct on the part of
                                                                         statute in light of current GSA procurement policies
         Federal officers. We regarded such provisions as in-
                                                                         and procedures.
         consistent with other Federal Tort Claims Act ac-
         tions.                                                        .. H.R. 5735, a bill to amend the Public Buildings Act
                                                                          of 1959. We generally supported this legislation,
       • S. 829, Title 13, the Senate version of H.R. 595. We
                                                                          particularly favoring the provisions requiring sepa-
         supported this statute because it provides for ad-
                                                                          rate payments for options to purchase and rent; rais-
         ministrative remedies for a Federal officer's actiona-
                                                                          ing the threshold requiring a prospectus to $1
         ble misconduct. We viewed such remedies to be
                                                                          million; and providing for repayments of obliga-
         sufficient deterrent.
                                                                          tions only when a building is ready for occupancy.
       • H.R. 5719, a bill to amend the Ethics in Government
                                                                       • Proposed GSA Acquisition Circular concerning
         Act. We supported the legislation, particularly the
                                                                         ratification of unauthorized contractual commit-
         provision requiring regular and comprehensive
                                                                         ments. We objected to issuance of the circular as
         Standards of Conduct briefings for Federal em-
         ployees.                                                        written due to a number of internal inconsistencies
                                                                         regarding where ratification authority is vested. We
       .. H.R. 5589, the Federal Officials Protection Act of             also suggested inclusion of provisions requiring
          1984, a bill to provide criminal sanctions for attacks         consideration of disciplinary action in such cases.




30
SECTION X -- OTHER OIG ACTIVITIES
In addition to detecting problems in GSA operations, the OIG        In addition to this new initiative, efforts on previous def-
is responsible for initiating actions to prevent fraud, waste,      inition initiatives progressed. Planning for our next op-
and abuse and to promote economy and efficiency. This sec-          erational survey; scheduled to begin in mid-October, is
tion details the OIG programs responding to these legislated        being finalized. Based on the positive results of an earlier
responsibilities; presents our initiatives to maximize the effec-   survey of depot operations, this survey will focus on the
tiveness and efficiency of OIG operations; and details our in-      operations of another GSA supply distribution facility.
volvement in projects sponsored by the President's Council on       The OIG is also following up with management on the
Integrity and Efficiency (PCIE).                                    findings of Force L, our multidisciplinary review of the
                                                                    leasing area. To date, GSA management has taken
                                                                    positive and aggressive action to correct the program
                                                                    weaknesses surfaced by this review. In fact, the Regional
A. FRAUD PREVENTION                                                 Administrator established a Board of Inquiry to review
The OIG fraud prevention program is comprised of four               the survey findings and take corrective action. The Com-
elements that simultaneously focus on minimizing op-                missioner, PBS, has also made major policy; procedure,
portunities for fraud and promoting awareness among                 and staffing changes as a result of this report.
GSA employees. This four-pronged approach consists of:
                                                                    Finally; work on another initiative started last period, the
  • Defining vulnerable areas and assessing the degree              review of computer resottrce utilization in GSA's Atlanta,
    of vulnerability;                                               Georgia, region, progresSes. A major part of this review
                                                                    focuses on identifying systems vulnerabilities and in-
   • Anticipating potential problem areas and perform-
                                                                    stances of unauthorized use. Our findings will be re-
     ing reviews that provide front-end assurances that
                                                                    ported early in the next reporting period.
     the program is operating within applicable laws,
     policies, and procedures;
                                                                    2. Anticipation
  • Educating GSA employees on the manifestations of
    fraud and the mechanisms for reporting suspicions               OIG anticipation initiatives this period included a major
    or allegations to the OIG; and                                  review of the program for delegating buildings manage-
                                                                    ment responsibility to the occupant agency; finalization
  • Communicating the need for fraud awareness and                  of work relative to our review of GSA Customer Supply
    establishing mechanisms that promote a dialogue                 Centers, and continued coverage of the leasing program.
    between GSA employees and the OIG.                              All of these initiatives stem from the belief that many of
                                                                    tomorrow's problems can be avoided through decisive
1. Definition                                                       action today.
The OIG considers the identification of vulnerable areas            As detailed in Section II of this report, our review of the
to be a major prerequisite to the prevention of fraud and           pilot buildings management delegation program re-
abuse. We therefore actively attempt to identify different          vealed problems with the proposed methodology for
ways to gauge program vulnerabilities. Many of our defi-            funding delegated agency building operating costs. By
nition initiatives, such as the operational survey pro-             identifying these problems before program initiation,
gram, have comprised entirely new assessment methods                the potential need for additional Congressional appro-
yielding information not available through traditional              priations was avoided.
audits and investigations. Others, like the new initiative
                                                                    Likewise, our review of the application system support-
described in the following paragraphs, utilize available
                                                                    ing Customer Supply Centers, started last reporting
information in new ways to gain different perspectives
                                                                    period, is evaluating the adequacy of internal controls
on potential program weaknesses.
                                                                    and the vulnerability of the system even though there is
The GSA OIG has long recognized the value of coordi-                no indication of anything wrong. Yet, as a relatively new
nated audit and investigative activity. Prior Reports to the        supply distribution network dealing in fast moving of-
Congress have detailed the OIG policies fostering di-               fice supplies, it is our belief that the program could be a
alogue between these diverse disciplines. This period, in           target for future abuse. Our evaluation, which will be
response to the GAO report titled, "Use of Investigative            completed next period, seeks to minimize the oppor-
Information by Inspectors General to Identify andRe-                tunities for utilizing these microcomputers for fraudu-
port Internal Control Weaknesses," we strengthened                  lent purposes before they occur.
those policies by requiring the dissemination of certain
                                                                    The OIG's program for reviewing leases prior to award
Report ofInvestigation information to our audit division
                                                                    likewise provides front -end assurances that GSA adheres
directors.
                                                                    to procedures and regulations before awarding leases in-
By providing the Office of Audits relevant information              volving annual rentals in excess of $200,000. The re-
on investigative cases involving fraud and abuse, au-               views, although purely advisory in nature, limit
ditors can independently assess the wrongdoing in light             opportunities for fraud and abuse in the leasing area.
of internal controls. Further, this investigative informa-
                                                                    The program achieved the following results during the
tion exposes auditors to program areas that may not be
                                                                    reporting period:
routinely audited and deepens auditor awareness to ways
in which controls are circumvented by dealing with ac-                Lease proposals submitted for review . . . . . . . .. 88
tual cases.                                                           Lease proposals reviewed . . . . . . . .. . ........ 48      31
       Lease proposals with major deficiencies . . . . . . .. 8     the DIG Hotline and its purpose. The DIG also continues
       Lease proposals with minor deficiencies ....... 24           to issue brochures on our Reports to the Congress so that
       Lease proposals with no deficiencies .......... 16           employees and the public are apprised of DIG activities
                                                                    and see the results-oriented nature of our work.
     Some of the major deficiencies identified through DIG
     preaward advisory reviews included: a market survey            Relative to the Hotline, we received 312 Hotline calls and
     was not performed to determine whether suitable alter-         letters this period. Of these, 129 complaints warranted
     native space was available at a lower cost; the exact          further action. We also received 11 referrals from the
     amount of space to be included ih a lease was not re-          GAO and 36 referrals from other agencies that required
     solved; and the names of the partners constituting the         further action. These complaints/allegations were re-
     lessor were not stated in a lease and this lease was not       ferred as follows:
     signed in the partnership name.
                                                                       Audits/Investigations ...................... 97
                                                                       GSA Program Officials ..................... 76
                                                                       Other Agencies . . . . . . . . . . . . . . . . . . . . . . . . . .. 3
     3. Education                                                   The remaining 1189 Hotline complaints required no fur-
     Integrity Awareness Briefings comprise the DIG's pri-          ther action and were closed.
     mary education vehicle. Individual briefings explain the
     statutory mission of the OIG and the functions executed
     by each of our component offices. In addition, through         B. OIG Management
     case studies and slides, the briefings expose GSA em-
     ployees to actual instances of white collar crime in the          Initiatives
     GSA and other Federal agencies. They c.onclude with a          OIG management initiatives seek to promote economy
     presentation on bribery that teaches employees how to          and effiCiency in OIG operations and to enhance coordi-
     recognize bribery attempts; how to respond to them; and        nation between the audit and investigations functions.
     the employee's potential role in an ensuing investiga-         Major initiatives are discussed in the paragraphs that
     tion.                                                          follow.
     Since the inception of this program in 1981, almost 4, 100
     GSA employees have attended Integrity Awareness Brief-
     ings. This total includes the 544 Central Office and re--      1. OIG Issues Group
     gional employees attending 18 briefings this period.           Last period, we reported that the DIG had established an
     The OIG also trains GSA procurement officials in our           Issues Group to strengthen the role of field components
     mUltiple award schedule audit program. The course is           in the decision-making process. At its second meeting,
     intended to help these officials better apply audit findings   held on April 24, 1984, the Issues Group addressed 12
     in contract negotiations by describing the contract audit      new agenda topics and resolved 11 of them. All OIG man-
     process and the types of findings it surfaces. It includes a   agers were subsequently advised in writing of the deci-
     special section on fraud prevention detailing DIG mecha-       sions rendered.
     nisms for receiving and evaluating complaints and alle--       In addition, followup continued during this period on
     gations.                                                       the 27 action items resulting from the first Issues Group
     During the period, the DIG conducted six training ses-         meeting. As of September 30, 1984, action had been
     sions on multiple award schedule auditing in five GSA          completed on 26 ofthese items.
     regions. A total of 120 contracting officers attended.
     These programs are complemented by a separate educa-           2. Field Office Appraisals
     tion vehicle directed at newly appointed GSA manage-
     ment officials. Through a presentation entitled "The IG        The OIG's systematic program for reviewing the econ-
     Story," these officials learn the impetus behind the crea-     omy, efficiency, and effectiveness of its component offices
     tion of statutory IGs, the responsibilities and authorities    continued this period. Between May 29 and June 6,
     vested in the IG, and the organizational structure used to     1984, an interdisciplinary peer group appraised the oper-
     execute these responsibilities. More importantly, "The         ations of the Kansas City, Missouri, field audit and inves-
     IG Story" emphasizes the commonality of purpose                tigations offices in accordance with our plan to review
     shared by management and the OIG in the pursuit of             each of our field offices on a cyclical basis.
     greater Government economy and efficiency.                     In conjunction with this appraisal program, the DIG's
     This period, over 35 officials attended Central Office pres-   Office of Policy, Plans, and Management Systems also
     entations of "The IG Story." Regional DIG officials like-      critiques recent audit reports. Such critiques ensure ad-
     wise conduct briefings in each of GSA's regions.               herence to DIG policy and GAO audit report standards
                                                                    and serve to promote a definitive level of quality in our
                                                                    reports.
                                                                    This period, we began a program of peer group participa-
     4. Communication                                               tion in the audit report evaluation process. Field office
     A free flow of information between GSA employees and           auditors were temporarily assigned to the Office of Pol-
     the DIG is a vital fraud prevention and detection element.     icy, Plans, and Management Systems to perform audit
     Recognizing this fact, the OIG, as reported last period,       report evaluations. As a result, reports issued by 7 of our
     posted Hotline posters in all GSA buildings nationwide to      11 field offices were reviewed during the reporting
32   ensure that GSA employees and the public were aware of         period.
c.   PROJECTS SPONSORED BY                                    3. Inspection Activities
     THEPCIE                                                  The GSA OIG participated in this PCIE Prevention Com-
                                                              mittee project aimed at evaluating review activities of
The OIG continued to participate in the interagency proj-     OIGs that differ from traditional audits and investiga-
ects sponsored by the PCIE. Specific involvement this         tions. Its purpose is to promote examination of existing
period is delineated by project in the paragraphs that        inspection activities and encourage OIGs without an in-
follow.                                                       spections function to consider implementing one.
                                                              This period, the project team surveyed all OIGs as to the
1. Front-End Operational Controls                             type, nature, and responsibilities of all review functions
                                                              not directly identifiable as audits or investigations. The
   in the Procurement Process                                 survey data was compiled into a profile of inspections
The GSA OIG was the lead agency on this PCIE Preven-          activities. The draft report describing ongoing OIG in-
tion Committee project designed to: (1) identify types of     spections activities was presented to the Prevention
pre award controls leading to more efficient procure-         Committee on August 31, 1984.
ments and preventing improper disbursements and (2)
develop warning systems to alert contracting activities       4. Cooperative Prevention Efforts
to problems encountered with specific contractors. Its           With Federal Contractors
significance as a project resided in its prevention focus,
that is, preventing procurement-related problems before       Under the aegis of the PCIE Prevention Committee, the
they occur.                                                   GSA OIG participated in this project to identify joint
                                                              efforts that-<iF,ederal contractors and OIGs can initiate to
The project team completed its formal efforts this period     prevent and detect fraud by contractor employees.
and presented its final report to the Prevention Commit-      Efforts are being focused on development of: (1) a fraud
tee. The report contained a generic procurement model         indicators course to be used by contractors to train their
and identified pre award controls that lead to more effi-     managers and (2) antifraud promotional materials that
cient procurements, controls that prevent improper dis-       contractors can distribute to employees or post in their
bursements and losses on contracts, and warning               plants.
systems to notify contracting activities of problems with
specific contractors.                                         This period, project effort focused on developing the
                                                              methodology and time frames for accomplishing com-
The Prevention Committee approved the report in Au-           mittee goals. Preliminary work involved identifying
gust 1984. It was distributed to members of the PCIE on       antifraud materials now being used, fraud training
September 12,1984.                                            courses currently available to OIGs, and the changes
                                                              needed to make Government materials usable by con-
                                                              tractors.
2. Legislative and Regulatory
   Review                                                     5. Auditor'Itaining Subcommittee
Under the aegis of the PCIE Prevention Committee, the         Under the aegis of the PCIE 'fraining Committee, the
GSA OIG is also the lead agency on the Legislative and        GSA OIG was the lead agency in the development of a
Regulatory Review project. The objective of this project is   training course entitled 'Mocating Audit Resources
to develop a compendium of best practices for applica-        Through Operations Risk Analysis:' The training course
tion in the review of proposed legislation and regula-        teaches auditors how to apply the best principles of pub-
tions.                                                        lic and private sector auditing in developing comprehen-
                                                              sive audit plans; planning and perfotming individual
A draft report has already undergone review by the Pre-
                                                              audits; and evaluating the audit process.
vention Committee. It summarizes current OIG prac-
tices, provides examples of success stories, and              This period, the training course was presented to mem-
highlights the written procedures in effect at some agen-     bers of 17 OIGs. Based upon participant reaction, it was
cies. The report was resubmitted for final review in late     favorably received and considered highly beneficial.
September.
                                                              A comprehensive training manual is now being finalized
Upon completion of this process, a final report will be       on the course methodology. Its release is anticipated dur-
disseminated to all members of the PCIE.                      ing the next reporting period.




                                                                                                                             33
APPENDICES
     APPENDIX I ........ AUDIT REPORT REGISTER
     Assignment                                                                                          Date of
     Number        Title                                                                                 Report

     PBS           CONTRACT AUDITS
     A40350        Preaward Evaluation of Pricing Proposal, Eccles Security Agency, Inc., Solicitation   04/05/84
                   No. GS-03-84-R-00l0
     A40351        Preaward Evaluation of Pricing Proposal, Eccles Security Agency, Inc., Solicitation   04/05/84
                   No. GS-03-84-R-0009
     A40206        Preaward Evaluation of Lease Escalation Proposal, Thtal Management, Inc., Lease       04/11184
                   No. GS-03B-60050
     IC208401111   Preaward Evaluation of Change Order Pricing Proposal, Grunley-Walsh Con-              04/11/84
                   struction Company, Inc., Contract No. GS-03B-88006
     A40414        Preaward Evaluation of Price Proposal, CTS Consulting Engineers, Project No. NWA      04/16/84
                   38950
     A40415        Preaward Evaluation of Price Proposal, Miskimen/Associates Consulting Engi-           04/16/84
                   neers, Project NWA 38950
     A40416        Preaward Evaluation of Price Proposal, Arai/Jackson Architects and Designers,         04/16/84
                   Project No. NWA 38950
     A40326        Pre award Evaluation of Pricing Proposals Submitted by Inter-Con Security Systems,    04117/84
                   Inc., Alhambra, California, Solicitation Numbers RFP-OPR-9PPB-84-0l207/01208
     A40451        Pre award Evaluation of Pricing Proposals Submitted by Inter-Con Security Systems,    04117/84
                   Inc., Alhambra, California, Solicitation Numbers RFP-OPR-9PPB-84-0l206/0l209
     A40329        Pre award Evaluation of Lease Alteration Pricing Proposal, District of Columbia       04/19/84
                   Joint Venture, Lease No. GS-03B-05843
     A40423        Preaward Evaluation of Pricing Proposal, Ross and Baruzzini, Inc., St. Louis, Mis-    04120/84
                   souri, Contract No. GS-06B-48275
     A40361        Preaward Evaluation of Pricing Proposal, Universal Shielding Corporation, Sub-        04123/84
                   contractor to Donohoe Construction Co., Inc., Lease No. GS-llB-0052
     A40358        Audit of Lease Escalation Proposal, ECOM Building, Montrose Realty Corporation,       04124/84
                   Lease No. GS-02B-15526
     A40162        Audit ofP.J. Maffei Building Wrecking Co., Ashland, MA, Docket No. 7126(6000) -       04125/84
                   REIN.
     A40417        Report on Lease Escalation Proposal, Submitted by Carl N. Swenson, Co., Inc.,         04125/84
                   Lessor for Property Located at 100 East Alvin Drive, Salinas, California, Lease No.
                   GS-09B-75318
     A40272        Audit of Cafeteria Operations at the Richard B. Russell Federal Building, Atlanta,    04126/84
                   Georgia, Southern Cafeteria Company, Inc., Contract No. GS-04B-50053
     A40308        Report on Audit of a Change Order Proposal, Montgomery Ross Fisher, Inc./H.A.         04126/84
                   Lewis, Inc., A Joint Venture, Contract No. GS-09B-20504-SE Change Request No. 25
     A40381        Preaward Evaluation of an A/E Pricing Proposal, Kaplan/McLaughlin/Diaz, Solic-        04126/84
                   itation No. ICA 20639
     A40355        Arai/Jackson Architects and Designers, Contract No. GS-IOP-02536                      04127/84
     A40380        Miskimen/ Associates Consulting Engineers, Contract No. GS-IOP-02536                  04127/84
     A40391        Evaluation of Cost Impact Proposal as a Result of Partial Termination, Eastern        04127/84
                   Services, Inc., Contract No. GS-03C-36268
     A40273        Audit of the Cafeteria and Vending Operations at the Internal Revenue Service         04/30/84
                   Center, Chamblee, Georgia, by Southern Cafeteria Company, Inc., Contract No. GS-
                   04B-15572
     A40476        Preaward Evaluation of Pricing Proposal for Energy Conservation Retrofit Altera-      04/30/84
                   tions at the Federal Building in Salt Lake City, Utah, Submitted by Andrew
36                 Henderson Plumbing and Heating Co., Midvale, Utah
A40325   Report of a Lease Escalation Proposal, Deer Creek Properties, Lease No. GS-           05/03/84
         09B-60074
A40274   Audit of the Cafeteria and Vending Operations, Social Security Administration         05/07/84
         Building, Birmingham, Alabama, by Southern Cafeteria Company, Inc., Contract
         No. GS-04B-16073
A40547   Lease Escalation Review, GS-04B-1S149, Phoenix Building, Miami, Florida               05/07/84
A40486   Preaward Evaluation of Supplemental AlE Pricing Proposal, Lee.:fhorp, Incorpo-        05/09/84
         rated, Contract No. GS-llB-49004
A40335   Audit Report on Claims for Increased Costs, Stone Tract Associates Office Building    05/14/84
         Limited Partnership, Lease No. GS-llB-lOO53
A40457   Lease Operating Costs, Gateway Center Corporation, Gateway Building, Lease No.        05/14/84
         GS-03B-06148
A40467   Preaward Evaluation of Pricing Proposal, NCT Services, Inc., Kansas City, Missouri,   05/14/84
         Contract No. GS-06B-47523-01
A30735   Pre award Evaluation of Value Engineering Change Order Proposal, Grunley-Walsh        05/16/84
         Construction Co., Inc., Contract No. GS-llB-18221
A40487   Preaward Evaluation of Supplemental AlE Pricing Proposal, Glassman-Lereche and        05/18/84
         Associates, Contract No. GS-llB-49003
A30581   Evaluation of Claim for Increased Construction Costs Due to Delay, M. Farbman &       05122184
         Sons, Inc., Subcontractor to Castagna & Son, Inc., Under Prime Contract No. GS-
         02B-16801
A30732   Evaluation of Claim for Increased Construction Costs Due to Delay, Martin Mechan-     05122184
         ical Corporation, Subcontractor to Castagna & Son, Inc., Under Prime Contract No.
         GS-02B-16801
A40463   Postaward Audit of Tom Geisen Construction Consultant, Eugene, Oregon, Contract       05125/84
         No. GS-IOP-02540
A40464   Postaward Audit of Wilson Bryant Gunderson Seider, PC, Eugene, Oregon, Contract       05125/84
         No. GS-10P-02540
A40507   Postaward Audit of Rogers Engineering Group, Eugene, Oregon, Contract No.             05125/84
         GS-IOP-02540
A40508   Postaward Audit of Warner Engineering, Eugene, Oregon, Contract No. GS-IOP-           05125/84
         02540
A40526   Review of Claims for Increased Costs, RL & N Construction Company, Contract No.       05125/84
         GS-05B-82658
A40406   Report on Review of Kinross Park Partnership Creditors, Contract No. GS-05-           05/30/84
         DR-(0)-4084
A40604   Lease Escalation Review, GS-04B-1507S, FBI Building, Miami, Florida                   06/01/84
A30020   Audit of Claim for Increased Costs, Dawson Construction Company, Inc., Contract       06/04/84
         No. GS-04B-16750, Docket No. 6490
A30485   Evaluation of Claim for Increased Construction Costs Due to Delay, Castagna & Son,    06/06/84
         Inc., Contract No. GS-02B-16801
A40522   Preaward Evaluation l)f Pricing Proposal, Turnbull & Mills, Incorporated, Contract    06/07/84
         No. GS-07B-31339
A40607   Audit Report on Evaluation of Equitable Adjustment Claim, Honeywell, Inc.,            06/07/84
         McLean, Virginia, Contract No. GS-03B-88963
A40543   Preaward Evaluation of Pricing Proposal, Apollo Refrigeration & Heating Systems,      06/08/84
         Inc., Bellevue, Nebraska, Contract No. GS-0(iB-52100
A40551   Preaward Evaluation of Pricing Proposal for AlE Services Submitted by Smith,          06/08/84
         Korach, Hayet, Haynie for U.S. Post Office-Courthouse, Miami, Florida, Contract No.
         GS-04B-78622 (neg)
A40495   Preaward Evaluation of Supplemental AlE Pricing Proposal, Kemnitzer, Reid &           06/12/84
         Haffler, Architects, Contract No. GS-llB-49005
A40196   Review of the Proposed Credit for the Elimination of the Motor Pool, Federal Plaza    06/13/84
         Associates, Milwaukee, Wisconsin, Lease No. GS-OSB-13381                                         37
     A40559   Audit Report on Evaluation of Initial Price Proposal, Batchelor's Contracting, Inc.,   06114184
              Richmond, VA, Contract No. GS-llB-28147
     A40010   Pre award Evaluation of Pricing Proposal, Jones & ArtislSmoot, A Joint Venture,        06115/84
              Contract No. GS-llB-38340 (neg)
     A40172   Preaward Evaluation of Pricing Proposal, Alliance Moving and Storage, Inc., Solic-     06/15/84
              itation No. WFCG-ED-N-I096
     A40480   Preaward Evaluation of Price Proposal, Rainey's Security Agency, Inc., Contract No.    06/15/84
              GS-ll C-30141- Amendment Two
     A40251   Pre award Evaluation of Lease Alteration Pricing Proposal, Arthur Rubloff Com-         06/18/84
              pany, Lease No. GS-03B-60177
     A40581   Pre award Evaluation of Pricing Proposal for AlE Services Submitted by Barber &        06/19/84
              McMurry, Inc. and Allen & Hoshall, Inc., a Joint Venture for the Proposed Federal
              Building, Knoxville, "iennessee, Contract No. GS-04B-84252 (neg)
     A40250   Audit of Change Order Proposal, Grunley-Walsh Construction Company, Inc., Con-         06/20/84
              tract No. GS-llB-18334, Change Order No. 46 PDL
     A40426   Preaward Evaluation of Pricing Proposal, Raymond Brothers, Inc., Subcontractor         06/26/84
              Under u.s. Small Business Administration, Solicitation No. 2PPC-CM-84-045 (neg)
     A40548   Pre award Evaluation of an AlE Pricing Proposal, Welton Becket Associates, Solicita-   07/02184
              tion No. PPB-84-52
     A40553   Report on Lease Escalation Proposal and Overpayment of Escalation, Coldwell            07/03/84
              Banker, Managing Agent for Rumelle Commercial, Inc., Lease No. GS-09B-75762
     A40594   Audit of Supplemental Architect Engineering Pricing Proposal, the Architrave Part-     07/06/84
              nership, Architects, Contract No. GS-llB-49002
     A40702   Lease Escalation Review, GS-04B-20221, Gables One Thwer, Coral Gables, Florida         07/10/84
     A40383   Pre award Evaluation of Change Order Pricing Proposals, George Hyman Con-              07/12/84
              struction Co., Contract No. GS-03B-88963
     A40546   Audit of Delay Claim for the Security System Installation at the Richard B. Russell    07/12/84
              Federal Building by Tele-Sentry Security, Inc., Phoenix, Arizona, Contract No. GS-
              04B-81006
     A40560   Pre award Evaluation of Pricing Proposal, Sam Gonzales, Inc., Contract No.             07/13/84
              GS-llB-28461
     A40579   Pre award Evaluation of AlE Pricing Proposal, H2L2/Roach Walfish Lettrich              07/13/84
     A40644   Evaluation of Termination Settlement Proposal, Majors Construction Company,            07/16/84
              Inc., Blue Springs, Missouri, Contract No. GS-06B-21070
     A40429   Audit of Shoe Repair Shop Concession - Johnson's Shoe Service, Concessionaire          07/18/84
              Under Small Business Administration Concession Agreement No. GS-02B-17452
              (neg)
     A40631   Audit of Lease Escalation Proposal, Detroit Associates Limited Partnership, Lease      07/19/84
              No. GS-05BR-9585
     A40634   Audit of Response to Order on Accounting, Bromley Contracting Co., Inc., Contract      07/19/84
              No. GS-03B-98441
     A40657   Preaward Evaluation, Superb Maintenance Service, Inc., Savannah and Augusta,           07/23/84
              Georgia, Contract No. GS-04B-84635
     A40732   Audit Report on Evaluation of Incurred Costs, Twelfth Skyline Associates, Charles      07/23/84
              E. Smith Building Corp., Arlington, Virginia
     A40512   Pre award Evaluation of Supplemental AlE Pricing Proposal, Comprehensive Tech-         07/24/84
              nologies International, Contract No. GS-IIB-4900l

     A40665   Postaward Audit of Lessor's Janitorial Services, Equitable Life Assurance Society of   07/25/84
              the United States, Lease No. GS-03B-80113
     A40485   Pre award Evaluation of Pricing Proposal, M, S & P Construction Company, Inc.,         07/30/84
              Contract No. GS-OlB-02287
     A40558   Preaward Evaluation of Pricing Proposal, Artesia Landscaping, Inc., Solicitation No.   07/30/84
38            OPR-9PPB-84-1273, Artesia, California
A40561    Pre award EvaluatioJ) of Lease Escalation Proposal, 2025 M Associates (Joint Ven-      08/02/84
          ture), Lease No. GS-03B-900l2
A40662    Preaward Audit of Pricing Proposal, Labouisse and Waggonner, Architects, Solicita-     08/02/84
          tion No. GS-07B-31333
A40537    Review of Internal Controls Over Rental Payments, Post Office Pavilion, Joint Ven-     08/03/84
          ture, Lease No. GS-PBS-ll-OL-9477
A40700    Preaward Evaluation of Pricing Proposal, E.C. Professional Services, Inc., Proposed    08/03/84
          Subcontract No. GS-08P-12003
A40637    Lease Escalation Proposal, 1501 Broadway, New York, New York, Lease No. GS-            08/06/84
          02B-I9203
A40685    Preaward Evaluation of Lease Escalation Proposal, Spear Street Investment Com-         08/06/84
          pany, Lease No. GS-09B-73348
A40692    Review of Claim for Increased Costs, Blake Construction Co., Inc., Contract No. GS-    08/06/84
          03B-14598
A40678    Preaward Evaluation of Lease Escalation Proposal, Dunton & Dunton, Lease No.           08/07/84
          GS-09B-75228
A40369    Audit of Change Order Proposal, E.J. Murray Co., Inc., Contract No. GS-03B-88138       08/08/84
A40660    Pre award Evaluation of Pricing Proposal, Ridley Southside Janitorial Service, Inc.,   08/08/84
          Kansas City, Missouri, Contract No. GS-06B-47545-0l
A40704    Preaward Evaluation of Pricing Proposal, Parkey and Partners, Architects, Contract     08/14/84
          No. GS-07B-31205
A40641    Audit of Lease Alteration Proposal, Redmond Apartments Company, Lease No. GS-          08/15/84
          05B-13884, Attachment No.1
A40759    Preaward Review of 8(A) Cleaning Contract, Superb Maintenance Service, Inc.,           08/15/84
          Atlanta, Georgia, Contract No. GS-04B-84636
A40387    Lease Escalation Proposal, Umiak, Ltd., a California Limited Partnership, Lease No.    08/16/84
          GS-08B-09926
                       \

A40625    Preaward Evaluation of a Lease Escalation Proposal, C & C Investments, Lease No.       08/17/84
          GS-09B-06600
A40679    Preaward Evaluation of a Lease Escalation Proposal, Ricken Family 'Dust, Lease No.     08/21/84
          GS-09B-77889
A40697    Pre award Evaluation of Pricing Proposal, Forehand's .World Services, Inc., Contract   08/21/84
          No. GS-UC-300l4
A40636    Review of Claim for Equitable Adjustment, A. Ambrosio & Sons Demolition &              08/22/84
          Excavating, Inc., Contract No. GS-02P-23260
A40760    Pre award Evaluation of Change Order Pricing Proposal, Air Pollution Control prod-     08/23/84
          ucts, Inc., Contract No. GS-llB-28183
A40617    Pre award Evaluation of Lease Escalation Proposal, Town Center Management Cor-         08/28/84
          poration, Contract No. GS-03B-5788
A40715·   Preaward Evaluation of Pricing Proposal, the Hoffmann Partnership, Inc., S1. Louis,    08/28/84
          Missouri
A40829    Postaward Audit of Lease No. GS-08B-09926, Umiak, Ltd., a California Limited           08/28/84
          Partnership, Lea Building, Cheyenne, Wyoming
A40643    Preaward Evaluation of Pricing Proposal, Wilson Darnell Associates, Wichita, Kan-      08/31/84
          sas
A40839    Review of Claim for Increased Costs, RL & N Construction Company, Contract No.         08/31/84
          GS-OSBC-82658
A40356    Evaluation of Claim for Increased Costs, L. K. Comstock and Company, Inc., Con-        09/05/84
          tract No. GS-03B-78060
A40809    Pre award Evaluation of Pricing Proposal, Victor Palmieri and Company, Incorpo-        09/05/84
          rated, Lease No. GS-07B-7029
A40709    Preaward Evaluation of Lease Escalation Proposal, Plaza East Limited Partnership,      09/06/84
          Lease No. GS-03B-6761                                                                             39
     A40220   Review of 1ermination Claim Proposal, Guardian Security Agency; Inc., Contract.        09/07/84
              No. GS-llC-20l08
     A40538   Review of Termination Claim Proposal, Guardian Security Agency; Inc., Contract         09/12/84
              No. GS-llC-10410
     A40756   Preaward Evaluation of Lease Escalation Proposal, Sfrei, Inc., Lease No. GS-03-        09/13/84
              B-6514
     A40693   Preaward Evaluation of Pricing Proposal, Diplomatic Painting and Building Serv-        09/14/84
              ices Company; Inc., Contract No. GS-lIC-40034
     A40841   Pre award Evaluation ofthe Pricing Proposal for AlE Services Submitted by Smith,       09/14/84
              Korach, Hayet, Haynie Partnership for US. Post Office-Courthouse, Miami, Florida,
              Contract No. GS-04B-78622(neg)
     A40798   Pre award Evaluation of Pricing Proposal, National Janitorial Service, Scottsbluff,    09/19/84
              Nebraska, Contract No. GS-06B-47578-0l
     A40763   Accounting System Survey; J&J Maintenance, Incorporated, Austin, Texas, Con-           09/U/84
              tract No. GS-07B-21602/7PPB
     A40722   Audit of Lease Escalation, 19th & M Street Associates, Lease No. GS-03B-6512           09127/84
     A40791   Pre award Evaluation of Pricing Proposal, Brown, Healey; Bock, P.c., Cedar Rapids,     09128/84
              Iowa, Contract No. GS-06B-48278
     A40821   Audit of Sixth Year Escalatable Costs, The Equitable Center, Salem, Oregon, Lease      09128/84
              No. GS-I0B-04552
     A40844   Pre award Evaluation of Pricing Proposal, Ridley Southside Janitorial Service, Inc.,   09128/84
              Kansas City; Missouri, Contract No. GS-06B-47572-0l


     PBS      Internal & Inspection Audits
     A40434   Preaward Lease Review: Basement Level Space, 1800 G Street, NW., Washington,           04/04/84
              nc., Lease No. GS-UB-40013
     A40244   The Center City Philadelphia Buildings Manager Needs to Improve Controls Over          04/09/84
              the Imprest Fund and to Verify and Reconcile Monthly Costs
     A40420   Proposed Award of Succeeding Lease at 100 Summer Street, Boston, Massachusetts,        04/09/84
              Contract Number GS-OlB-(PEL)-03413(neg)
     A40440   Preaward Lease Review: Cascade Exchange Buildings, Portland, Oregon                    04/09/84
     A30609   Final Report of Review of GSA Energy Conservation Program, U. S. Railroad Retire-      04/11184
              ment Board Building, Chicago, Illinois
     A30868   Review of Leases and Space Alterations, 841-881 South Pickett Street Building, Alex-   04/11184
              andria, Virginia, Lease Nos. GS-03B-5648 & GS-llB-200l4, Contract No.
              GS-lIB-36018(neg)
     A40466   Pre award Lease Review: Fairchild Building, 499 South Capitol Street, Sw., Washing-    04/11184
              ton, nc., Lease No. GS-03B-90000
     A40448   Follow-on Review (A40448), Regarding Interim Report Recommending Exercise of           04/12/84
              5.:year Renewal Option of Center Building No.2, 3700 East/West Highway; Hyat-
              tsville, Md.
     A40462   Pre award Lease Review: 8th and A Building, Anchorage, Alaska                          04/12/84
     A40129   Review of Buildings Management Field Office Operations, Hartford, Connecticut          04113/84
     A40142   Interim Report of Jobs Bill Phase II, Office of Public Buildings and Real Property     04/13/84
              (PBS)
     A40477   Pre award Lease Review: Marsh and Mclennan Building, Seattle, Washington               04/18/84
     A40490   Pre award Lease Review: 701 E. Franklin Street, Richmond, VA                           04/20/84
     A40317   Final Report on Audit of Unauthorized Use of Government Property at Peter Rodino       04/23/84
              Federal Building, Newark, New Jersey
     A40452   Pre award Lease Review: New Construction Project, Research Triangle Park, North        04/23/84
              Carolina, Lease No. GS-04B-23288
40   A40435   Pre award Audit of Lease Extension, 1960 Addison Street, Berkeley; California          04/24/84
A40322        Review of Overtime Rate, Lease No. GS-04B-15913, 155 South Miami Avenue               04/26/84
A40'H0        Proposed Lease Extension, GS-09B-75194, 3030 N. Central Avenue, Phoenix, Ari-         05/02/84
              zona
A40534        Preaward Lease Review: Hamilton Building, 1375 K Street, N:w., Washington, nc.,       05/03/84
              Lease No. GS-11B-30038
A405H         Final Report on Review of Project NCA 00900, US. Border Station, Otay Mesa,           05/04/84
              California
A30184        R&A Program Needs to More Effectively Identify Prospectus Projects, Update Bid-       05/10/84
              ders Lists, and Require Timely Corrective Work, Region 10
A40545        Pre award Lease Review: Lease Construction for NAVFAC, Charleston, South Car-         05/10/84
              olina, Lease No. GS-04B-24184
A40565        Pre award Lease Review: Nassif Building, 5611 Columbia Pike, Falls Church, Va.,       05/10/84
              Lease No. GS-11B-400l8
A40542        Proposed Lease Award, GS-09B-38761, East Indianola Street, Phoenix, AZ                05/11/84
A40556        Pre award Lease Review: Whitestone Building, Woodlawn, MD                             05/14/84
A40566        Preaward Lease Review: Skyline Center One, 5205 Leesburg Pike, Falls Church, VA,      05/14/84
              Lease No. GS-11B-40029
5D206200808   Review of General Ledger Accounts, Federal Buildings Fund, Region 8                   05/15/84
A30879        Final Report of Review of Entry Modifications and Site Improvements, Federal          05/16/84
              Center; 4300 Goodfellow, S1. Louis, Missouri
A40582        Pre award Lease Review: Presidential Park, Atlanta, Georgia, Lease No. GS-            OS/22/84
              04B-20675
A40599        Pre award Lease Review: Ballston Center lbwer No.2, 801 North Randalph Street,        OS/22/84
              Arlington, VA, Lease No. GS-llB-30047
A40147        Review of the Renovation of the Federal Service Center in Pasadena                    OS/23/84
A40600        Pre award Lease Review: Berkley Building, 1701 North Fort Myer Drive, Arlington,      OS/24/84
              Virginia, Lease No. GS-llB-40034
A30749        Review of GSA Operating Equipment Maintenance Program, Region 9                       OS/29/84
A40588        Review of Proposed Award of Lease at Pleasant Valley and Milk Streets, Methuen,       05/30/84
              Massachusetts, Contract No. GS-OlB(PEL}-03420
A40598        Preaward Lease Review: Alaska Pacific University Building, Anchorage, AK              06/01/84
A30871        Final Report on the Review of US. Courthouse and Federal Building Construction,       06/05/84
              First and San Carlos Streets, San Jose, CA, Region 9
A40605        Preaward Lease Review: Lease Construction for the Department of Labor; Mine           06/05/84
              Safety and Health Administration, Pikeville, Kentucky, Lease No. GS-04B-23178
A40609        Proposed Lease Award: GS-09B-84508, 2345 Fair Oaks Blvd., Sacramento, Califor-        06/05/84
              nia
A30416        Review of Fire Protection Sprinkler System Installation at the US. Court of Appeals   06/08/84
              and Post Office, 7th & Mission Streets, San Francisco, California
A40611        Pre award Lease Review: Proposed Lease for 8th Avenue and Simms Street,               06/08/84
              Lakewood, Colorado, Lease No. GS-08P-1l976
A40142        Final Report on Review of Region 6's Implementation of Public Law 98-8-Jobs Bill      06/14/84
A40651        Pre award Lease Review: Equitable A & B1, 1705-1717 Whitehead Road, Woodlawn,         06/19/84
              MD
A40633        Preaward Lease Review: Proposed Lease for 3100 Marine Street, Research Buildings      06/20/84
              NO.3 and No. 3A, Boulder; Colorado, Lease No. GS-08P-U977
A30389        Review of Building Modifications and Miscellaneous Repairs, USGS Buildings 1 and      06/29/84
              2, 345 Middlefield Road, Menlo Park, California, Region 9
A40638        Review of OIG Hotline Complaint No. H-84-229 Regarding the Region 4 Con-              06/29/84
              tracting Officer's Decision to Terminate for Convenience, Contract No. GS-
              04B-83693 with George's Lawn and Rental Services, Inc., Fayetteville, North Car-
              olina                                                                                            41
     A40323   Final Letter Report on Coordination of System Development Projects - STRIDE and     07/07/84
              ADEPT
     A40586   Review of Matters Relating to Old Naval Observatory Building No.2, Potomac An-      07/11184
              nex, 23rd and E Street, N:w., Washington, ne.
     A40659   Pre award Lease Review: Miami 'fradeport Building, Miami, Florida, Lease No. GS-    07/12/84
              04B-24249
     A30604   Report on Review of Lease Construction Project, Federal Plaza, Milwaukee,           07/13/84
              Wisconsin
     A40450   Inspection of Heating and Cooling Operations at the JFK Federal Office Building,    07/13/84
              Boston, Massachusetts
     A40578   Proposed Award of Lease: 198 Neel Street, ~ocorro, New Mexico                       07/13/84
     A40691   Pre award Lease Review: 1215 Jefferson Davis Highway, Arlington, VA, Lease No.      07/13/84
              GS-llB-40037
     A40121   Review of Lease Space Acquisition in Region 4                                       07/16/84
     A40nO    Pre award Lease Review at 150 Causeway Street, Boston, Massachusetts, Contract      07/25/84
              No. GS-OlB(PRA)-03164(neg)
     A4012l   Review of GSA Region 9 Lease Award Procedures                                       07/26/84
     A30861   Final Report on the Review of Building Services Contracts Branch Procurements,      07/27/84
              Office of Public Buildings and Real Property; Region 9
     A40708   Proposed Lease Award, GS-09B-83 5 3 7, 160 Spear Street, San Francisco, CA          07/30/84
     A40n8    Pre award Lease Review: 999 E Street, N:w., Washington,          nc.,   Lease No.   07/30/84
              GS-UB-400l5
     A40365   Overtime, Utility; and Tax Overpayments, Dickenson High Rise and Low Rise Build-    07/31/84
              ings, Woodlawn, Maryland
     A40742   Pre award Review of Proposed Lease, GS-09B-28057, 5051-5061 Rodeo Rd., Los An-      08/06/84
              geles, CA
     A40745   Pre award Lease Review: 500 12th Street, S:w., Washington,       nc.,   Lease No.   08/09/84
              GS-UB-20065
     A40762   Preaward Review of Proposed Lease, GS-09B-83349, 1650 Mission St., San Fran-        08/14184
              cisco, CA
     A40744   Pre award Review of Proposed Lease Extension, 120 Howard St, San Francisco, CA,     08/17/84
              GS-09B-73348
     A40668   Proposed Award ofLease: GS-07B-1l742, EG&G Building, 933 Bradbury; S.E., Albu-      08/20/84
              querque, New Mexico
     A40712   Review of Operating Costs Relative to Lease No. GS-06B-10967, Gilroy-Sims and       08/20/84
              Associates, S1. Louis, Missouri
     A30474   Additional Emphasis and Controls Are Needed in the Buildings Management Pro-        08/22/84
              gram
     A40294   Letter Report on the Review of Major Lease Alteration and Lease Construction        08/22/84
              Projects in Region 6
     A40754   Review of Revised Proposed Settlement of a Lawsuit Through a Lease Modification     08/23/84
              Agreement for the CECOM Building, Tinton Falls, New Jersey
     A40282   Review of Capitalization and Abandonment of Leasehold Improvements                  08/24/84
     A40694   Proposed Award of Lease: 501 North Stemmons, Dallas, Texas                          08/24/84
     A40121   Review of GSA's Region 7 Lease Award Procedures                                     08/27/84
     A40810   Preaward Lease Review: 841 Chestnut Street Building, 841 Chestnut Street, Phila-    08/27/84
              delphia, PA
     A40811   Preaward Lease Review: Liberty Square Building, Philadelphia, PA                    08/27/84
     A40149   Final Report on Review of the Buildings Management Field Office, Syracuse, New      08/28/84
              York
     A40478   A Summary Report on Fire and Life Safety Deficiencies in Some Government            08/28/84
42            Owned and Leased Buildings
A40816   Pre award Lease Review: Warner Building, 501 13th Street, NW" Washington, D.c.,       08/28/84
         Lease No. GS-03B-06274
A40823   Proposed Award of Lease: 95-25 Queens Blvd., Rego Park, New York                      08/30/84
A40612   Review of Proposed Lease Actions, Lease No. GS-06B-I0967, Gilroy-Sims and Associ-     08/3l/84
         ates, St. Louis, Missouri
A40834   Review of Lease Extension at 470 Atlantic Avenue, Boston, Massachusetts, Contract     08/3l/84
         No. GS-OlB(PRA)-03177(neg)
A40121   Review of GSA National Capital Region Lease Award Procedures                          09/07/84
A40735   Review of Controls Over Polychlorinated Byphenyl (PCB) Contaminants                   09/10/84
A40142   Use of Jobs Bill Monies to Fund Construction at the James J. Rowley Secret Service    09/12/84
         Training Center, Beltsville, Maryland
A40663   Final Report on Review of the Agreement of Understanding Executed by GSA Re-          09/17/84
         gion 6 and the Department of Energy
A40875   Proposed Award of Lease, No. GS-02B-22217, 130-30 31st Avenue, College Point,         09/20/84
         New York
A40552   Review of the Administration of Cafeteria Contracts, Region 4, Public Buildings and   09/21/84
         Real Property
A40885   Pre award Lease Review: 'IWo Skyline Place Building, 5203 Leesburg Pike, Falls        09/2l/84
         Church, Virginia
A40121   Procedures Should Be Established for Implementing the "Holdover Clause" in Exist-     09/24/84
         ing and Future Leases
A40154   Final Report on Review of GSA's Delegation of Building Operations                     09/26/84
A40868   Proposed Renewal of Lease No. GS-03B-05718, Friendship Building No.4, Elkridge        09/26/84
         Landing Road, Linthicum, Maryland
A40142   Review of Implementation of the Jobs Bill (Public Law 98-8) in the National Capital   09/27/84
         Region
A40142   Final Report on Review of Implementation of Public Law 98-8, "Jobs Bill"              09/27/84
A30604   Review of Lease GS-05B-13381 for the Henry S. Reuss Federal Building, 310 W.          09/28/84
         Wisconsin Street, Milwaukee, Wisconsin
A40388   Policy Recommendations, Lease Enforcement/Administration                              09/28/84
A40501   Review of the Vacant Space at the Military Park Building, Newark, New Jersey;         09/28/84
         Lease No. GS-02B-22011
A40894   Proposed Award of Lease: Lease No. GS-07B-11882, 602 Sawyer Street, Houston,          09/28/84
         Texas

FSS      Contract Audits
A40H9    Preaward Audit of Multiple Award Proposal, Advance Machine Company; Solicita-         04/04/84
         Hon No. lOPN-NBS-0206
A40384   Preaward Proposal Evaluation of S.D. Warren Company Offer in Response to Solic-       04/05/84
         itation No. FGE-Al-75274-N-12-14-83
A30793   Postaward Audit of Multiple Award Contract No. GS-00S-41428 (Renewal), Informa-       04/10/84
         tion Handling Services
A40366   Preaward Evaluation of Pricing Proposal, Security Engineered Machinery Co.,           041l0/84
         Westboro, Massachusetts
A40396   Postaward Audit of Contract No. GS-00S-57195, Anderson Chemical Company;              04/10/84
         Macon, Georgia
A40468   Preaward Evaluation of Pricing Proposal, Desco Manufacturing Company; Inc.,           04/16/84
         Long Beach, California, Solicitation No. lOPN-WBS-0206
A40nO    Pre award Evaluation of Price Proposal, A. B. Dick Company; Solicitation No. FGE-     04/20/84
         Al-75274-N-12-14-83
A40341   Preaward Evaluation of Price Proposal, American-Lincoln, Bowling Green, Ohio,         04/23/84
         Solicitation No. 10PN-NBS-0206                                                                   43
     A40375    Preaward Evaluation of a Multiple Award Schedule Contract Pricing Proposal,             04/23/84
               Hewlett-Packard Company, Solicitation No. FGS-P-36396-N-1-12-82
     A40239    Pre award Evaluation of a Multiple Award Schedule Contract Pricing Proposal,            04125/84
               Hewlett-Packard Company, Solicitation No. FGS-K-36415-N-11-9-83
     A40242    Pre award Evaluation of a Pricing Proposal, Finnigan Corporation, Solicitation No.      04/25/84
               FGS-:K-36415-N-11-9-83
     A40511    Report on Evaluation of Initial Pricing Proposal, Ashur Furniture Industries, Inc.,     04/26/84
               Subcontractor to Ebsco Industries, Inc., Solicitation No. FNMS-Sl-11l6-N-Renewal
     A40456    PreawardAudit of Price Proposal by Endure-A-Lifetime Products, Inc., Miami, Flor-       04/27/84
               ida, Solicitation No. GS-08-1522
     A40449    Preaward Evaluation of Pricing Proposal, Pitney Bowes, Inc., Stamford, Connecti-        04/30/84
               cut, Solicitation No. FGE-C3-75275-N-2-2-84
     A40514    Report on Review of Proposal for Initial Pricing Under RFP No. FNP-S2-1346-9-1-83,      05/07/84
               John Savoy & Son, Inc.
     A40115    Postaward Audit of Lawn and Garden Equipment Contracts, Bunton Co., Louisville,         05/08/84
               Kentucky, Contract No. GS-07S-07659 and First Renewal
     A40378    Preaward Evaluation of Price Proposal, Wilson Sporting Goods Company, Solicita-         05/08/84
               tion No. lOPN-NTS-0267
     A4043 I   Pre award Evaluation of Proposal Submitted for Multiple Award Schedule Contract,        05/08/84
               American of Martinsville, Martinsville, VA, Solicitation No. FNPS-Sl-1526-
               N-l-26-84
     A40505    Interim Report on Preaward Evaluation of Pricing Proposal, Solicitation No. GS-         05/08/84
               08-1522, NEF Interior Systems of Kansas City, Inc., Kansas City, Kansas
     A40474    Report on Preaward Evaluation of Inter Royal Corporation, Plainfield, Connecticut       05/11/84
     A40454    Preaward Evaluation of Negotiated Commercial Item Schedule Proposal by Pan-             05/14/84
               elfab International Corporation, North Miami, Florida, Solicitation No. GS-08-1522
     A40589    Evaluation of Initial Pricing Proposal, Open Office Products, Inc., Solicitation NFP-   05/17/84
               F5-1457-N-12-9-83
     A40455    Pre award Evaluation of Proposal Submitted for Multiple Award Schedule Contract,        05/18/84
               John Savoy and Son, Inc., Montoursville, Pennsylvania, Solicitation No. FNPS-
               Sl-1526-N-1-26-84
     A40500    Pre award Evaluation of Pricing Proposal, Swen Sonic Corporation, Solicitation No.      OS/21/84
               7PM-524221V517FC
     A40267    Postaward Audit of Vestal Laboratories, St. Louis, Missouri, Contract No. GS-07S-       OS/22/84
               06386
     A40569    Pre award Evaluation of Pricing Proposal, Iron Mountain Forge Corporation, Farm-        OS/29/84
               ington, Missouri, Solicitation No. 10PN-NES-0281
     A40470    Preaward Evaluation of Price Proposal, Bell & Howell Co., Microfilm Products Divi-      05/30/84
               sion, Solicitation No. FGE-B3-75272-N-2-29-84
     A40471    Preaward Evaluation of Price Proposal, OCE-Industries, Inc., Solicitation No. FGE-      05/31/84
               B3-75272-N-2-29-84
     A40517    Preaward Evaluation of Cost Proposal, Carsonite International Corporation, Solie-       05/31/84
               itation No. 7PF-52425/L517FC
     A40602    Preaward Evaluation of Pricing Proposal, Jayfro Corporation, Solicitation No.           06/06/84
               10PN-NLS-0208
     A40321    Audit of Termination Claim, Royal Silver Manufacturing Co., Inc., Contract No.          06/13/84
               GS-09S-41859
     A40505    Pre award Evaluation of Pricing Proposal, NEF Interior Systems of Kansas City,          06/14/84
               Inc., Kansas City, Kansas
     A40568    Preaward Evaluation of Federal Supply Schedule Contract Proposal by Davis Fur-          06/14184
               niture Industries, Inc., High Point, North Carolina, Solicitation No. FNP-A6-1574-
               N-2-22-84
     A40389    Pre award Evaluation of a Pricing Proposal, Gould, Incorporated, Imaging and            06/15/84
44             Graphics Division, Solicitation No. FGS-P-36396-N-1-12-82
A40549    Preaward Evaluation of Pricing Proposal, Chemonics Industries, Inc., Phoenix,        06/15/84
          Ariwna
A40619'   Preaward Evaluation of Pricing Proposal Submitted by Monsanto Chemical Com-          06/18/84
          pany/Wildfire Division, St. Louis, Missouri, in Response to Solicitation No. 8FCG-
          S4-DT022
A40499    Preaward Evaluation of Pricing Proposal, Sales Caster Display Corporation, Solic-    06/19/84
          itation No. 7PF-52425,L5-7FC
A40473    Preaward Evaluation of Price Proposal, 3M Company, Engineering Systems Divi-         0.6/21/84
          sion, Solicitation No. FGE-B3-75272-N-2-29-84
A40515    Preaward Evaluation of Pricing Proposal, Eastman Kodak Company, Solicitation         06122184
          No. FGE-B3-75272-N
A40550    Preaward Evaluation of Pricing Proposal for Solicitation FGE-A4-75273-N-4-3-84,      06125/84
          Submitted by 3M Company, Office Systems Division, St Paul, Minnesota
A40580    Preaward Evaluation of Pricing Proposal, the Coleman Company, Inc., Wichita,         06125/84
          Kansas, Solicitation No. IOPN-NES-0281
A40562    Preaward Evaluation of Pricing Proposal, Miracle Recreation Equipment Com-           06127/84
          pany, Grinnell, Iowa, Solicitation No. IOPN-NES-0281
A40554    Special Accounting System Review, Economics Laboratory, Inc., st. Paul,              06128/84
          Minnesota
A40563    Pre award Evaluation of Pricing Proposal, Stadiums Unlimited, Inc., Grinnell,        06128/84
          Iowa, Solicitation No. IOPN-NES-0281
A40541    Preaward Evaluation of Pricing Proposal, Diversified Technical Services, Incorpo-    06129/84
          rated, Solicitation No. 7PN-52542/G517FC
A40618    Preaward Evaluation of Pricing Proposal for Solicitation BO/FS-B-00479 (neg),        06129184
          Submitted by Information Handling Services, Englewood, Colorado
A40469    Preaward Evaluation of Price Proposal, A. B. Dick Company, Solicitation No. FGE-     07/02184
          B3-75272-N-2-29-84
A40472    Preaward Evaluation of Price Proposal, 3M Company, File Management Systems,          07/02184
          Office Systems Division, Solicitation No. FGE-B3-75272-N-2-29-84
A40519    Preaward Evaluation of Pricing Proposal, IBM Corporation, Bethesda, Maryland,        07/05/84
          Solicitation No. FGE-A4-75273-N
A40595    Preaward Evaluation of Negotiated Commercial Item Schedule Proposal by Lan-          07/06/84
          ier Business Products, Inc., Atlanta, Georgia, Solicitation No. FGE-DI-75282-
          N-4-19-84
A40642    Preaward Evaluation of Pricing Proposal, A. Brant Company, Solicitation No.          07110/84
          FNPS-S7-1523-N-4-23-84
A40654    Preaward Evaluation of Pricing Proposal, Corning Medical, Solicitation No. FGS-      07113/84
          Z4-36421-N-4-20-84
A40525    Preaward Evaluation of Proposed Unit Prices, Ebenreiter Woodworking Company          07/17/84
          (EBCO), Solicitation No. FNPS-SI-1526-N-1-26-84
A40438    Preaward Evaluation of a Multiple Award Schedule Contract Pricing Proposal,          07118/84
          Hewlett-Packard Company, Solicitation No. FGS-Xl-36416-N-1-12-84
A40570    Preaward Evaluation of a Multiple Award Schedule Pricing Proposal, Sierra-           07118/84
          Misco Inc., Berkeley, California, Solicitation No. FGS-H-364IO-N-6-11-84
A40528    Pre award Evaluation of Price Proposal, AM International, Inc., Multigraphics Di-    07119/84
          vision, Solicitation No. FGE-A4-75273-N-4-3-84
A40437    Preaward Evaluation of a Multiple Award Schedule Contract Pricing Proposal,          07120/84
          Hewlett-Packard Company, Solicitation No. FGS-O-36405-N-12-2-82
A40626    Pre award Evaluation of Pricing Proposal, Play-Mor 1tailers, Inc., Westphalia,       07120/84
          Missouri, Solicitation No. lOPN-NCS-0276
A40630    Preaward Evaluation of Pricing Proposal, Lista International Corp., Solicitation     07120/84
          No. FNP-F7-1585-N-4-20-84
A4060}    Pre award Evaluation of Pricing Proposal, Information Marketing International,       07126/84
          Solicitation No. BO/FS-B-00479                                                                   45
     A40621   Preaward Evaluation of Proposal Submitted for Multiple Award Schedule Con-            07/31/84
              tract, Flow Laboratories, Inc., Solicitation No. FGS-24-36421-N-4-20-84
     A40703   Audit of Claim for Costs Resulting From Alleged Breach of Contract, 'learntogs-       07/31/84
              Cheerette, Inc., Contract No. GS-OlS-07945
     A40286   Review of Vehicle Rental Agreement, Value Rent-A-Car, Contract No. GS-7S-08002        08/03/84
     A40524   Preaward Evaluation of Price Proposal, 3M Company; Audio Visual Division, So-         08/03/84
              licitation No. FGE-A4-75273-N-4-3-84
     A40574   Preaward Evaluation of a Multiple Award Schedule Contract Pricing Proposal,           08/03/84
              The North Face, Solicitation No. 10PN-NES-0281
     A40652   Pre award Evaluation of Pricing Proposal, Rainin Instrument Co., Inc., Solicitation   08/08/84
              No. FGS-24-36421-N-4-20-84
     A40632   Preaward Evaluation of Pricing Proposal, Nashua Corporation, Solicitation No.         08/09/84
              FGE-A4-75273-N-4-3-84
     A40736   Pre award Audit of Pricing Proposal, Monaco Enterprises, Incorporated, Solicita-      08/09/84
              tion No. 7PM-52512N517FC
     A40785   Preaward Evaluation of Pricing Proposal, Baker Manufacturing Company; Solic-          08123/84
              itation No. FNPS-Sl-1660-5-4-84
     A40532   Audit of Termination Claim, Commuter Vehicles, Inc., Contract No. GS-00S-15122        08/30/84
     A40536   Postaward Audit of Contract Nos. GS-02S-34082, GS-02S-34175, and GS-                  08/31/84
              02S-34182, Awarded to Office Products International, Golden, Colorado
     A40734   Pre award Evaluation of Pricing Proposal, Aquidneck Management Associates,            08/31/84
              Ltd., Solicitation No. AT /TC-19669
     A40622   Preaward Evaluation of Proposal Submitted for Multiple Award Schedule Con-            09/06/84
              tract, Stanley-Vidmar, Inc., Solicitation No. FNP;-F7-1585-N-4-20-84
     A40717   Preaward Evaluation of Pricing Proposal, Ortho Pharmaceutical Corporation, So-        09/06/84
              licitation No. FGA-Zl.:rc-225-N-6-7-84
     A40718   Preaward Evaluation of Pricing Proposal, Technicon Instruments Corporation,           09/07/84
              Solicitation No. FGS-Z4-36421-N-4-20-84
     A40832   Preaward Evaluation of Price Proposal, Munson Manufacturing, Inc., Edmonds,           09/14/84
              Washington, Solicitation No. 10PN-NES-0275
     A40359   Audit of Multiple Award Contracts, Logimetrics, Inc., Contract Nos. GS-               09/19/84
              00S-86416 and GS-OOS-57012
     A40792   Pre award Evaluation of Pricing Proposal, Products Research and Chemical Cor-         09121/84
              poration, Glendale, California, Solicitation No. 6PR-W-Jl295-B8-N
     A40831   Preaward Evaluation of Pricing Proposal, Synergetics International, Inc., Renewal     09125/84
              of Contract No. GS-OOS-70027
     A40393   Postaward Audit, Gelco Space, Formerly Design Space International, Contract No.       09128/84
              GS-08S-35624
     A40503   Postaward Audit of Contract No. GS-00S-S7025, Gould, Inc., Electronic Power           09/28/84
              Conversion Division
     A40647   Postaward Audit of Gelco Space, Formerly Design Space International, Contract         09/28/84
              No. GS-08S-36699


     FSS      Internal & Inspection Audits
     A30782   Review of Supply Distribution Facility Operations, Office of Federal Supply and       04/10/84
              Services, Region 9
     A40491   Final Report on Review of Federal Supply and Services Compliance With GSA             04/18/84
              Order APD 2800.IB, Section 4(a)
     A40073   GSA's Use of FSS as a Source of Supply; Region 5                                      04127/84
     A40076   Final Report on Review of GSA's Conference Location Selection Model                   05/04/84
     A40506   Review of Claim for Economic Price Adjustments, Dixie Bag Company; Contract           OS/22/84
46            No. GS-05S-12561
A405H      Final Report on Observation of Physical Inventory Count at Self Service Store 44,   06/04/84
           Ft. Snelling, Minnesota
A40318     Review of the Quality Approved Manufacturer Agreement Program                       06128/84
A40667     Review of Solicitation AT/TC-19756 and Subsequent Contract Awards GS-04F-           07103/84
           00074 and GS-04F-00075
A40390     Review of the Duluth, Georgia, Supply Distribution Facility                         07/19/84
A40H3      Letter Report on the Review of Region 5 Car Rental Contracts                        07130/84
WFSS1282   Review of Region 9 Service Contracts for Tire Retreading and Repair                 07/30/84
A40318     Review of the Quality Approved Manufacturer Agreement Program, Region 5             08/01/84
A30805     Review of San Juan Interagency Motor Pool, San Juan, Puerto Rico                    08/06/84
A40614     Observation of Self Service Store Inventory, New York, NY.                          08/16/84
A30486     Review of Single Award Federal Supply Schedule for Motor Vehicle Rental             09/06/84
           Services
A40271     Review of Economic Price Adjustment Clause                                          09120/84
A40615     Review of the Status of Waste Material Delivery Orders Submitted for Payment ~y     09128/84
           the National Bureau of Standards, Department of Commerce

OIRM       Contract Audits
A40453     Preaward Evaluation of Pricing Proposal E.:rech Corporation, Solicitation No.       04/06/84
           GSA-KESA-B-00025
A40296     Preaward Evaluation of Multiple Award Schedule Pricing Proposal, Ramtek Cor-        04/09/84
           poration, Santa Clara, CA, Contract GS-00K-830IS5130, Renewal No.1
A40342     Preaward Evaluation of Pricing Proposal, Falcon Systems, Inc., Bethesda,            04/09/84
           Maryland
A40465     Preaward Evaluation of Pricing Proposal, 1elesynetics Corporation, RFP No.          04/09/84
           KETN-MW-84-02
A40497     Evaluation of Price Proposal, OAO Corporation, Solicitation No. 6KT-84003-EP-N      04/20/84
A40300     Preaward Evaluation of Pricing Proposal, 1erminals Unlimited, Inc., Contract Re-    04/30/84
           newal No. GS-00K-830lS-5082
A40539     Evaluation of Initial Pricing Proposal, Magnasync Moviola Corporation, Solicita-    05/01/84
           tion No. GSC-KESCV-00025-12-1-3
A40540     Evaluation of Price Proposal, Data Control Systems Division of Quanta Systems       05/01/84
           Corporation, RFP No. GSC-KESCR-0026-N-12-8-83
A40443     Preaward Evaluation of Pricing Proposal, Raytheon Marine Company                    05/11/84
A40571     Evaluation of Fixed Labor Rate Proposal, Computer Sciences Corporation, Ap-         05/14/84
           plied Technology Division, Solicitation No. KECS-83-011
A40573     Report on Preaward Evaluation of CPAF Proposal Submitted by PRC Government          05/14/84
           Information Systems
A40577     Evaluation of Price Proposal, the Orkand Corporation, RFP No. KECS-84-002           05/15/84
A40575     Preaward Evaluation of Initial Price Proposal Submitted by Computer Dynamics,       05/16/84
           Inc., Virginia Beach, Virginia, Solicitation No. AT ITC-19664
A40583     Evaluation of Price Proposal, Sigma Data Services Corporation, RFP No.              05/17/84
           KEC5-84-002
A40584     Evaluation of Price Proposal, Computer Data Systems, Inc., RFP No. KECS-83-011      05/17/84
A40587     Evaluation of Time and Material Proposal, Vangard 1echnologies Corporation,         05/17/84
           Subcontractor to Computer Sciences Corporation, RFP No. KECS-83-011
A40606     Evaluation of Firm Fixed Price Requirements Proposal, 1elecommunications Con-05124/84
           trol Corporation, RFP No. KETN-MW-84-02
A40502     Preaward Evaluation of Price Proposal for General Purpose ADP Equipment and         05125/84
           Software, FSC Group 70, Part I, Section A (GSC-KESA-C-00027-N-4-11-84),
           1ektronix, Inc., Beaverton, Oregon                                                             47
     A40362   Preaward Evaluation of Pricing Proposal, Panasonic Industrial Company, Solicita-    05129/84
              tion No. GSC;KESCV-00025-N-12-l-83
     A40627   Evaluation of Cost Plus Award Fee Proposal, Boeing Computer Support Services,       06/06/84
              Inc., RFP No. KECS-84-002
     A40628   Evaluation of Subcontract Price Proposal, Statistica, Incorporated, Subcontractor   06/06/84
              to Martin Marietta Data Systems, RFP No. GSC-FCSC-3002
     A40530   Preaward Evaluation of Proposal Submitted for Multiple Award Schedule Con-          06/11/84
              tract, Solicitation No. GSC-KESAC-00027-N-4-11-84, Mathematica Products
              Group, Inc., Princeton, NJ
     A40639   Evaluation of Price Proposal, OAO Corporation, Greenbelt, Maryland, RFP No.         06/12/84
              KECS-84-00 3
     A40646   Report on Evaluation of Initial Pricing Proposal, Computer 'D:ansceiver Systems,    06/13/84
              Inc., Solicitation No. GSC-KESA-B-00025-N-12-16-83
     A40648   Evaluation of Price Proposal, Grumman Data Systems Corporation, RFP. No. GSC-       06/13/84
              FCSC-3002
     A40649   Evaluation of Revised Price Proposal, SMC-National Data Systems, RFP No.            06/13/84
              KECS-84-003
     A40650   Report on Review of Proposal for Initial Pricing, Calculon Corporation (ASD),       06/13/84
              Solicitation No. KET-8A-84-04
     A40656   Accounting System Survey, Teleconsult, Inc., Washington, D.c., RFP No. KET-         06/18/84
              GA-8404
     A40661   Evaluation of Fixed Rate/Task Order Proposal, Booz, Allen and Hamilton, Incor-      06120/84
              porated; RFP No. KET-GA-84-04
     A40484   Preaward Evaluation of Cullinet Software, Inc.                                      06126/84
     A40672   Evaluation of Price Proposal, Electronic Data Systems Federal Corporation, RFP      06126/84
              No. GSC-FCSC-3002
     A40277   Audit Report on Evaluation of Price Proposal, Dataproducts New England, Inc.,       06127/84
              Wallingford, Connecticut
     A40596   Preaward Evaluation of OIRM ADP Schedule Contract Proposal, Lanier Business         06127/84
              Products, Inc., Solicitation No. GSC-KESA-C-00027-N-4-11-84
     A40676   Evaluation of Price Proposal, Computer Data Systems, Inc., RFP No. KECS-84-003      06127/84
     A40677   Evaluation of Price Proposal, ISC Systems, Inc., Subcontractor to Martin Marietta   06127/84
              Data Systems, Inc., RFP No. GSC-FCSC-3002
     A40520   Preaward Evaluation of Multiple Award Schedule Pricing Proposal, Dysan Corpo-       06129/84
              ration, Santa Clara, California, Contract No. GS-OOK-830IS5133, Renewal
              Numberl
     A40689   Evaluation of Price Proposal, Martin Marietta Data Systems, RFP No. GSC-            06129/84
              FCSC-3002
     A40516   Pre award Evaluation of Pricing Proposal, Xerox Corporation, Solicitation No.       07/03/84
              GSC-KESA-C-00027-N-4-11-84
     A40655   Preaward Evaluation of Pricing Proposal Submitted by Otrona Advanced Systems        07/10/84
              Corp., Contract No. GS-OOK-840lS6020
     A40705   Review of Proposal for Initial Pricing, Norden Systems, Inc.                        07/10/84
     A40544   Preaward Evaluation of Pricing Proposal, Data General Corporation, Solicitation     07/13/84
              No. GSC-KESA-C-00027-N-4-11-84
     A40509   Preaward Evaluation of Pricing Proposal, Digital Equipment Corporation, Solic-      07/16/84
              itation No. GSC-KESA-C-00027-N-4-11-84
     A40357   Pre award Evaluation of a Pricing Proposal, Ampex Corporation, Magnetic Tape        07/17/84
              Division, Proposed Renewal of Contract No: GS-OOK-830lS0026
     A40483   Preaward Evaluation of Price Proposal, Control Data Corporation, Solicitation No.   07/19/84
              GSC-KESA-C-00027 -N-4-11-84
     A40645   Preaward Evaluation of Pricing Proposal, Kentron International, Incorporated,       07/19/84
48            Solicitation No. KET-GA-84-03
A40292   Report on Postaward Audit, Interactive Data Corporation/Chase Econometrics         08/01/84
A40504   Preaward Evaluation of Pricing Proposal, IBM Corporation, Bethesda, Maryland,      08/01/84
         Solicitation No. GSC-KESA-C-00027-N-4-11-84
A40766   Audit Report on Evaluation of Price Proposal, Martin Marietta Data Systems,        08/02184
         Orlando Operations, RFP No. GSC-FCSC-3002
A40771   Audit Report on Review of Proposal for Initial Pricing, Calculon Corporation       08/06/84
         (AS D), Solicitation No. KET-GA-84-03
A40783   Evaluation of Time and Material Proposal, Network Strategies, Inc., Subcontrac-    08/08/84
         tor to Booz, Allen & Hamilton, Inc., RFP No. KET-GA-84-04
A40613   Pre award Evaluation of Price Proposal, CPT Corporation, Eden Prairie, Min-        08/16/84
         nesota, GSC-KESA-C-00027 -N-4-11-84
A40564   Preaward Evaluation of Price Proposal, Cincom Systems, Inc., Solicitation No.      08/29/84
         GSC-KESA-C-00027-N-4-11-84
A40857   Evaluation of Fixed Rate Task Order Proposal, Telecommunications Control Cor-      09/10/84
         poration, Subcontractor to Booz, Allen & Hamilton, Inc., RFP No. KET-GA-84-04
A40860   Evaluation of Time and Material Proposal, Hirt Telecom Company, Subcontractor      09/10/84
         to CRC Systems, Inc., RFP No. KET-GA-84-03
A40769   Audit of 1ermination Claim, Paradyne Corporation, Contract No. GS-OOC-400l8        09/14/84
A40531   Pre award Evaluation of Proposal Submitted for Multiple Award Schedule Con-        09/17/84
         tract, Sperry Corporation, Solicitation No. GSC-KESA-C-00027-N-4-11-84
A40847   Renewal of Multiple Award Schedule Contract, Grim Corporation, Medford, N.J.,      09/21/84
         Contract No. GS-00K-84-0l-S-0l78
A40711   Preaward Evaluation of Multiple Award Schedule Contract Proposal, ITT Di-          09/27/84
         alcorn, Inc., Solicitation No. GSC-CDPCS-A-0004-N-5-20-82, Amendment No.7



OIRM     Internal & Inspection Audits
A40180   Interim Report on Audit of lelephone Inventory Accounting System                   06/14/84
A40349   Final Letter Report on Audit of Acquisition, Use, and Management of Microcom-      09/21/84
         puters in GSA
A40349   Insufficient Controls and Policies Exist to Effectively Procure, Manage, and Use   09/26/84
         Microcomputer Assets, Region 10



FPRS     Contract Audits
A40706   Evaluation of Pricing Proposal, Brush Wellman, Incorporated, Beryllium Prod-       07/10/84
         ucts Group, Metal/Minerals Division



FPRS     Internal & Inspection Audits
A40363   Observation of Precious Metals Sampling, West Point, New York                      OS/29/84
A30763   Report on Review of 1982 Jamaican Bauxite Procurement (Contract No. GSOO82-        06/07/84
         DXXA-OOlO)
A30762   Report on Review of Excess Tin Sales                                               06/08/84



NARS     Internal & Inspection Audits
A30789   Review of Operations of the Dwight D. Eisenhower Library                           OS/23/84
A40001   Review of Operations of the Harry S. 1hIman Library                                OS/25/84
A40283   Review of Operations of the Herbert Hoover Library                                 07/25/84
A40283   Presidential Library Control Weaknesses Which Require Central Office Attention     09/28/84   49
     Comp-
     troller   Internal & Inspection Audits
     A30808    Audit of Obligations Relating to Congressional Support Program, Region 5           04123/84
     A30737    Review of Regional Payroll Operations, Region 9                                    05129/84
     A30186    Review of Controls Over Rental Payments, Region 9                                  05/31/84
     A40131    Review of Unliquidated Obligations and Year-End Spending, Fiscal Year 1983, Re-    07/12/84
               gion 1
     A40018    Review of Procedures to Account for FSS Operating Equipment                        07120/84
     A40227    Review of Controls Over Travel Advances, Central Office                            07/30/84
     A40018    Final Report on Review of Procedures for Reporting Self-Service Store Excess and   08/31/84
               Surplus Personal Property
     A40817    Audit ofImprest Fund                                                               09/10/84
     A40891    Final Letter Report on Audit of the National Defense Stockpile Transaction Fund    09128/84


     Others    Contract Audits
     A40755    Audit of Storage Claim, Commuter Vehicles, Inc., Contract No. GS-OOS-15122         09/07/84


     Others    Internal & Inspection Audits
     A30500    Final Report on Non-Compliance With Established Procedures Results in Inade-       04/10/84
               quate Controls to Safeguard and Effectively Use Government Assets, Region 10
     A40489    Implementation of Federal Managers' Financial Integrity Act for 1984               OS/24/84
     A30792    Report on Review of Hotline Allegations Concerning Parking at the General Serv-    05/31/84
               ices (GS) Building
     A30552    Review of GSA's 1982-83 Efforts in Implementing OMB Circular A-123 and the         07/30/84
               Federal Managers' Financial Integrity Act of 1982
     A40576    Letter Report on Review of Controls Over Telephone Calling Cards                   08/08/84
     A40445    Conferences Held in Fort Worth During the Week of March 25, 1984                   09125/84


     Non-GSA Internal & Inspection Audits
     A40216    Review of Administrative Practices and Procedures of the United States Arms        07126/84
               Control and Disarmament Agency
     A40624    Review of the Sale of National Highway Traffic Safety Administration Vehicles      07/31/84
     A40653    Review of Sale and Reimbursement of '!Cst Vehicles to Department of                08/14/84
               Transportation
     A40492    Final Report on Review of the Administrative Practices and Procedures of the       08117/84
               United States Commission on Civil Rights




50
APPENDIX II - DELINQUENT DEBTS
GSA's Office of Comptroller provided the information pre-          • In August 1984, GSA signed contracts with com-
sented herein.                                                        mercial and consumer credit reporting agencies in
                                                                      compliance with the disclosure section of the Debt
                                                                      Collection Act of 1982. The quality of the credit re-
                                                                      ports that GSA and other agencies request on com-
GSA EFFOKfS TO IMPROVE                                                mercial accounts or delinquent consumers will
DEBT COLLECfION                                                       improve as GSA and other Federal agencies input
                                                                      information and expand the data base of the credit
During the period April 1, 1984 through September 30,                 reporting agencies under contract.
1984, specific activities undertaken by the GSA to im-
prove debt collection and reduce the amount of debt                • In September 1984, the billing and collection re-
written off as uncollectible have been in the areas of                sponsibility for two major funds was centralized.
credit reporting; claims collection; upgrading collections            This action improves the capability of existing re-
functions; and enhancements to the National Electronic                sources to monitor accounts receivable activity
Accounting and Reporting (NEAR) system. Specifically,                 against the Automatic Data Processing Fund and
                                                                      the Federal Telecommunications Fund.
  • In July 1984, GSA published proposed regulations
    in the Federal Register for the "Collection of Claims          • Meetings on incorporating debt servicing require-
    Owed the United States:' By law, Federal agency reg-             ments in the NEAR Multi-Fund Accounts Receiva-
    ulations to implement the Debt Collection Act of                 ble System continued this period. Future enhance-
    1982 must be a matter of public record prior to: (a)             ments under: consideration would provide GSA with
    the disclosure of information to credit reporting                computer-generated information including Sched-
    agencies; (b) the referral of delinquent accounts to             ule 9, SF-220 reports on the status of accounts and
    debt collection agencies; and (c) offsetting salaries            loans receivable due from the public; Audit Related
    of Federal employees who are indebted to the Gov-                Claims Receivable status reports; Demand for Pay-
    ernment.                                                         ment notices to delinquent debtors; and calcula-
                                                                     tions of interest, penalty, and administrative
  • In July 1984, the GSA Office of Finance requested                charges against delinquent debtors.
    that a Request for Proposal be initiated for the pro-
    curement of private sector debt collection services.
    Procurement officials were supplied with a State-          NON-FEDERAL ACCOUNTS
    ment of Work that prescribed GSA's guidelines and
    requirements for a debt collection contract. The ul-
                                                               RECEIVABLE
    timate contract will be at no cost to the Government      Because GSA utilizes manual reporting systems for its
    in compliance with the Debt Collection Act of 1982        non-Federal accounts receivable, data for the period
    which states "that appropriate fees charged by a          Aprill, 1984 through September 30, 1984 were not avail-
    contractor to recover indebtedness owed to the            able at the time of publication of this report. Six-month
    United States may be payable from the amount col-         data for the period December 31, 1983 through June 30,
    lected by such contractor."                               1984 are therefore provided.



                                                         As of                    As of
                                                    December 31, 1983          June 30, 1984         Difference
    Total Amounts Due GSA ........... .                 $76,222,300            $102,533,709         $26,311,409
    Amount Delinquent ............... .                 $10,558,973            $ 13,394,081         $ 2,835,108

    Total Amount Written Off as
    Uncollectible Between 12/31/83 and
    6/30/84 ....................... .                   $151,613




                                                                                                                              51
       APPENDIX m -- SUMMARY OF OIG                                                                          ------

-~'-'-~-PERFORMANCEDURING                                               FISCAL YEAR
       1984
       During Fiscal Year 1984, OIG activities resulted in:      -Civil complaints against 8 individuals, 14 civil
                                                                   settlements, and 21 civil judgments on civil
         -819 audit reports.
                                                                   matters referred.
         -27 implementation reviews of internal audit
                                                                 -44 case referrals to other Federal and State
           reports.
                                                                   agencies for further investigation.
         - Recommended cost avoidances and recoveries of
                                                                 -68 reprimands, 46 suspensions, 3 demotions, and
           almost $354 million.
                                                                   46 terminations of GSA employees.
         - Management commitments to more efficiently
                                                                 -6 case referrals recommending suspension of 20
           use over $164.6 million.
                                                                  contractors.
         - Management commitments to recover funds,
           court-ordered recoveries, and investigative           -28 case referrals recommending debarment of 65
           recoveries of over $ 30 million.                        contractors.
         -814 new investigations opened and 871 cases            -19 contractor suspensions and 57 contractor
           closed.                                                 debarments.
         -68 case referrals (97 subjects) accepted for crimi-    -22 OIG subpoenas.
           nal prosecution and 20 case referrals (28 subjects)
           accepted for civil litigation.                        -393 legislative and 222 regulatory matters
                                                                   reviewed.
         -49 criminal indictments/informations/
           complaints and 43 successful prosecutions on          -667 Hotline calls and letters, 32 GAO referrals,
           criminal matters referred.                              and 61 other agency referrals.




  52
